<html>
<title> - THE FUTURE OF UNMANNED AVIATION IN THE U.S. ECONOMY: SAFETY AND PRIVACY CONSIDERATIONS</title>
<body><pre>[Senate Hearing 113-696]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-696
 
                    THE FUTURE OF UNMANNED AVIATION
                      IN THE U.S. ECONOMY: SAFETY
                       AND PRIVACY CONSIDERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE
95-865                       WASHINGTON : 2015                         
 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7314031c33100600071b161f035d101c1e5d">[email&#160;protected]</a>  
      
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 15, 2014.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     6
Statement of Senator Heller......................................    39
Statement of Senator Boxer.......................................    41
Statement of Senator Wicker......................................    43
Statement of Senator Markey......................................    45
Statement of Senator Booker......................................    48
Statement of Senator Cantwell....................................    50
Statement of Senator Coats.......................................    52
Statement of Senator Fischer.....................................    54
Statement of Senator Nelson......................................    56
Statement of Senator Ayotte......................................    56

                               Witnesses

Hon. Dianne Feinstein, U.S. Senator from California..............     1
Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration.................................................     7
    Prepared statement...........................................     9
Dr. Mary Cummings, Director, Humans and Autonomy Laboratory, Duke 
  University.....................................................    12
    Prepared statement...........................................    14
Henio Arcangeli, Vice President, Corporate Planning, Yamaha Motor 
  Corporation, U.S.A.............................................    15
    Prepared statement...........................................    17
Christopher R. Calabrese, Legislative Counsel, American Civil 
  Liberties Union................................................    24
    Prepared statement...........................................    26

                                Appendix

Response to written questions submitted to Hon. Michael P. Huerta 
  by:
    Hon. John D. Rockefeller IV..................................    63
    Hon. Mark Warner.............................................    63
    Hon. Brian Schatz............................................    64
    Hon. John Thune..............................................    65
    Hon. Marco Rubio.............................................    67
    Hon. Dan Coats...............................................    68
Response to written questions submitted to Dr. Mary Cummings by:
    Hon. John D. Rockefeller IV..................................    68
    Hon. Brian Schatz............................................    69
Response to written questions submitted to Henio Arcangeli by:
    Hon. John D. Rockefeller IV..................................    69
    Hon. Brian Schatz............................................    70
Response to written questions submitted to Christopher R. 
  Calabrese by:
    Hon. John D. Rockefeller IV..................................    70
    Hon. Brian Schatz............................................    71
    Hon. Marco Rubio.............................................    72



                    THE FUTURE OF UNMANNED AVIATION
                      IN THE U.S. ECONOMY: SAFETY
                       AND PRIVACY CONSIDERATIONS

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. We are very fortunate today, as this hearing 
comes to order, to have a very dear friend of mine and my 
colleague to my right here, Dianne Feinstein, giving some 
independent testimony. You don't have to answer any questions. 
You just say what you believe. You lay it on the line. We're 
all busy taking notes. And then you're gone out the door. It's 
a powerful position, but we tremendously welcome you.
    I love working with you on the Intelligence Committee, and 
I'm proud that you've come to the Commerce Committee. And 
you're on.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman.
    And to the Ranking Member; to my friend and colleague, 
Senator Boxer; Senator Coats, who does a great job on the 
Intelligence Committee; and other members who are here today. I 
had the privilege of meeting with the former Mayor of Newark, 
New Jersey, who was a great Mayor and is going to be a great 
United States Senator.
    It's good to see you.
    And, Mr. Chairman, I want to thank you for your support on, 
for many years, on the Senate Intelligence Committee and for 
the role you have played so very finely, so thank you very 
much.
    Ranking Member Thune, members of the Committee, and fellow 
witnesses; I believe civilian drone technology, much of which 
has been developed in California, has great potential for both 
beneficial uses and for job creation; but the unique 
capabilities of the drone bring with it significant risks, most 
notably related to privacy and public safety. I believe we 
should proceed with caution and that Congress must act to set 
reasonable rules to protect the American people and ensure that 
in industry ask reach its potential.
    Today the commercial uses of drones are prohibited by FAA 
regulations unless a special permit is granted. FAA has issued 
cease and desist orders against violators and has imposed a 
$10,000 fine in at least one case. Law enforcement use of 
drones is carefully restricted and only legal with special 
permission from the FAA through a Certificate of Authorization. 
But the 2012 FAA reauthorization bill requires integration of 
drones into the airspace by 2015, and many believe this will be 
a booming industry in a few years.
    The potential is significant. Drones can come in all shapes 
and sizes with many potential uses. The California National 
Guard used drones to observe the recent wind fire, huge fire 
right outside of Yosemite National Park in California, helped 
firefighters be identified in dangerous situations and reduced 
containment time. Drones can be used for agricultural purposes, 
to help monitor crops more efficiently. Drones are likely a 
safer more affordable way to inspect wind turbines, radio 
towers, pipelines, bridges, and key national infrastructure.
    Some have imagined more unexpected uses. For example, 
Amazon's CEO, Jeff Bezos, recently suggested that his company 
was testing the use of drones for delivering packages within 30 
minutes of an order. FedEx, look out. But as with other 
evolving technologies, there are new risks to consider as well.
    Let me first address privacy. As Chairman of the Committee 
on which three of us here serve, I have seen firsthand the 
surveillance capabilities of drone aircraft. Drones have the 
unique capability to peer into private homes and businesses and 
listen to private conversations. Obviously civilian drones will 
not be the same as those used overseas for national security 
operations, but the drone exhibited to the Judiciary Committee 
in a hearing last year was very small and very lightweight. 
Such drones can take high definition photos and videos and even 
transmit them to the user's iPad.
    I personally, well, I'll tell you the story, I was being--a 
demonstration in front of my house, and so I went to the window 
to peek out and see who was there and there was a drone right 
there at the window looking out at me. Obviously the pilot of 
the drone had some surprise because the drone wheeled around 
and crashed. So I felt a little good about that.
    What kind of camera was mounted on it? What kind of 
microphone? Could an enterprising person have fastened a 
firearm to it? These are questions that demand answers. Even 
with civilian drone technology in its infancy, privacy concerns 
are significant. So I believe we should take very seriously and 
move on with steps to protect the privacy and safety of our 
fellow citizens before these capabilities are developed and 
unleashed, not after, so that people will develop and build the 
industry to be able to adhere to certain privacy restrictions.
    How close to a home? What is it, can you photograph inside 
windows? Can real estate agents take drones and swoop down 
close to a house and photograph a house from a drone? All these 
are questions that have to be answered.
    So I'm working on it with you, Mr. Chairman, on legislation 
to do that. And I want to be as helpful as I can, but I think 
first there should be strong binding enforceable privacy 
policies that govern drone operations. And that can be done 
before the technology is upon us. A large drone might survey an 
oil pipeline. And a tiny remote helicopter sold to hobbyists 
shouldn't be subject to the same rules. So the system must be 
flexible, but it must be strong and enforceable to ensure 
privacy is protected.
    Second, we need strong privacy protections for Government 
use early on. We know today that the FBI has used drone 
technology in at least ten cases including one to ensure the 
safety of a kidnapped child. Now that's a beneficial use of 
drone technology, but were this technology to be deployed on a 
widespread basis by the Government for persistent surveillance, 
it would pose significant privacy concerns; therefore, I 
believe a search warrant requirement with appropriate emergency 
exceptions would be the way to go.
    Safety is another issue. A 2012 GAO report highlighted a 
number of safety issues with respect to drone technology that 
have been not addressed, including the ability to sense and 
avoid another aircraft. We've heard reports, and I can't say 
this is true, but I've read it in the newspaper, of a drone 
flying too close to an aircraft landing at JFK Airport and of 
small drones landing in crowds and endangering bystanders. The 
FAA has a broad safety mandate, and it must use that authority 
to protect the public.
    Finally, we should not allow armed drones in the United 
States, period. It should be a crime for a private individual 
in the United States to arm a drone. The FAA should use its 
certification and licensing authorities to prohibit armed 
drones and no government, State or Federal, should use an armed 
drone on American soil.
    Now there's one other thing I want to say. The drone was 
invented in this country. As such, we have a real 
responsibility. There is a long line of countries that want to 
integrate drone warfare into their militaries and into their 
civilian commercial populations. So I think since we invented 
it here, that we have a real responsibility to be the first in 
the field with the regulations by which they will be operated 
and by the privacy restrictions by which people will have their 
rights protected.
    So I think the technology has great potential and I think 
we really need to make sure as a first step that America's 
legitimate concerns about privacy and safety are addressed and 
I think you are just the Committee to do it. I thank you for 
asking me to be here today.
    The Chairman. Thank you, Chairman Feinstein, very, very 
much. And you raised, just in your excellent testimony, one 
interesting question which I plan to ask of Mr. Arcangeli. The 
Yamaha Motor Corporation has been doing drones for agriculture 
and other purposes for some 20 years in Japan, and I want to 
take some of the points which you raised and apply those to him 
in my questioning if I have a chance to do that. So you're 
very----
    Senator Feinstein. Thank you.
    The Chairman--valuable as always.
    Senator Feinstein. Well, thank you, Mr. Chairman. Thank 
you, members.
    The Chairman. A very busy colleague. With your forbearance, 
I will now give my opening statement followed by my 
distinguished colleague, and then we will go to our witnesses 
who are free to go to the table if they wish.
    Some believe that unmanned aerial systems, UAS, which many 
people call drones, are the latest evidence that robots or 
machines are taking over the world. Other people believe that 
these vehicles represent a massive opportunity for American 
productivity and economic growth. The truth probably lies 
somewhere in between. Unmanned aircraft are a rapidly emerging 
technology with great commercial potential no question, but 
along with this potential as Senator Feinstein indicated, there 
are some serious concerns.
    Just as we have done in the past, our job is to foster the 
growth of this new industry while managing effectively, Mr. 
Huerta, its risks.
    Here is what we know about aviation today, it's a major 
part of our economy, it's relatively safe. It's more than 
relatively safe, tens of thousands of aircraft use our skies 
every day and transport passengers, shipping goods, performing 
public safety, and military missions. And given the large 
number and the wide variety of aircraft that use our national 
airspace, our safety record really is amazingly and remarkably 
good.
    I'm very proud of that record, and I think the FAA should 
be, too. It's the product of a lot of hard work by the aviation 
industry and by safety officials at the Federal Aviation 
Administration and other agencies. And also people that have 
not seen good results from this, like the folks from 
Lackawanna, New York, the pressure that they bring on all of us 
to make sure that things get safer.
    It's also the product of some tough lessons learned in the 
aftermath of some serious accidents. We're going to have to use 
those lessons as a guide as we confront the latest in aviation 
technology. All of which is, you know, this is a very 
interesting subject because it, we're all familiar with 
Afghanistan and Iraq and most have questions about that; but on 
the other hand, here's this whole new commercial field which 
suddenly pops up and we have all kinds of visions. And 
depending upon the scope of your visions and capacity of your 
imagination, it can terrify you, excite you, or as we say, be 
somewhere in between.
    Improving aviation safety has always been one of the top 
considerations of this committee, and it darn well better be. 
The FAA Safety Act of 2010, the FAA Reauthorization Act of 2012 
took a lot of important steps to strengthen aviation safety, 
including developing new pilot fatigue and training rules. 
Striking the right balance between safety regulations and 
business realities is always tricky, and this is going to be 
much trickier than most, but it makes all the difference for 
successful new industries to launch properly and last 
successfully.
    In the 2012 FAA bill, we told the FAA to begin figuring out 
how to safely introduce a new kind of aircraft into our 
national airspace, a type of aircraft that is operated not by 
pilots physically present in the cockpit, but by operators on 
the ground. This is a strange and interesting concept for those 
of us who are new to this. Whether we call them UASs, UAVs, or 
drones, these aircraft are exciting as a new development in the 
aviation industry, but they also raise some serious safety and 
privacy concerns as Senator Feinstein I think pretty well did 
that by facing a drone five inches from her face which was so 
terrified that it then crashed, which actually raises a safety 
question which I will have to ask.
    But the FAA needs to get on this to license these vehicles 
for broad use in our national airspace and needs to do it 
before we take on any serious commitment at all. Administrator 
Huerta is going to report to us today on the progress that the 
FAA has been making on the UAS integration. He's going to tell 
us that the FAA is doing what any safety agency should do 
before it allows a new vehicle on to a busy highway. The agency 
is carefully considering the views of aviation experts and 
safety experts. It's working with manufacturers to test how 
unmanned aircraft perform in a variety of real world 
situations.
    Earlier this month, Administrator Huerta announced the 
locations of six cities where this testing will take place. 
Some people think that the FAA is not moving fast enough, but I 
understand why the FAA is careful in considering these 
questions, because lives are at stake, it is new, and the whole 
world is just waiting to get at it. People, a lot of people 
just want a world of 55-pound or much lighter things and Jeff 
Bezos delivering Amazon packages right to John Thune's 
doorstep. And that's exciting.
    One of the most important problems with the FAA, that the 
FAA and industry are trying to solve is avoiding collisions 
between unmanned and piloted aircraft. A basic assumption of 
our current aviation safety system is that each aircraft is 
operated by a human pilot trained to ``see and avoid--key 
words--other aircraft.'' What should the rules be when unmanned 
aircraft and an aircraft with a human pilot and passengers are 
converging in the air?
    I don't put as much stock in what I'm about to say as would 
appear. Another significant challenge that the unmanned 
aviation industry faces is the perception problem, which is 
obviously the fact of the use of drones armed in Afghanistan 
and Iraq. I think it's fairly simple to separate those two in 
our mind. If we are serious about the subject, we will do that 
quickly. We are all much more familiar with the military 
applications of unmanned aircraft, and that's understandable, 
than we are with their civilian commercial applications.
    We are only just now beginning to learn that these aircraft 
can be used to apply fertilizer to crops, which Yamaha is 
doing, has for years; film movies; monitor hurricanes; stare at 
Senators through windows----
    [Laughter.]
    The Chairman.--or in the future potentially deliver Amazon 
boxes to John Thune's home.
    Unmanned aircraft have tremendous economic potential and 
nobody disputes that. I mean, people are very excited about 
this, but we cannot ignore the threat that they pose to our 
personal privacy. It's a very different matter than safety. 
People say safety and privacy, yes, that's all good stuff; they 
are very, very different matters. American consumers are 
already under assault by companies that collect and use our 
personal information. And believe me, are we familiar with that 
in this committee.
    As we learned in the data broker hearing we held in this 
committee last month, there is a multibillion dollar industry 
in this country dedicated to tracking our health status, our 
shopping habits, and our movements. And if the data brokers of 
today controlled the UASs, I would leave promptly for Canada. I 
don't know what American consumer habits or choices would 
remain private if that were the case. There would be no more 
privacy because they could be everywhere, large, small, 
omnipresent.
    People are right to worry that drones in our national 
airspace could be yet another way for private companies to 
track where we are and what we are doing. So I'm looking 
forward to this discussion today. I want to talk about how the 
country can benefit from this new technology without 
sacrificing our safety or our personal freedoms. And before 
turning it to Senator Thune, I'm neither convinced--I'm 
basically kind of neutral right now, neutral meaning a bit 
skeptical, but neutral; I'm opening to learning, which is what 
this is all about, is to hear the people who are for it, the 
people who are against it, and for the members of this well-
attended hearing to ask questions.
    I want to be sure that regulations are proper and so we've 
got a lot to learn today.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Well, thank you, Chairman. You have a lot of 
uncongested airspace in West Virginia as we do in South Dakota, 
but the real test of the design of these systems is whether or 
not they can continue to operate at 50 below wind chills, 
because that's something that we have in our state.
    The Chairman. That we don't.
    Senator Thune. That will test the delivery to my house of 
whatever it is I order from Amazon. I want to thank you for 
holding the hearing, Mr. Chairman. The issue of unmanned 
aviation is an important one that touches on the many areas 
within the Committee's broad jurisdiction, and I look forward 
to hearing from our witnesses today.
    Unmanned aviation is undoubtedly the next significant 
frontier in the aviation sector. The FAA currently accommodates 
limited flights by unmanned aircraft in the National Airspace 
System with case-by-case approvals, but widespread integration 
for safe and routine access will require substantial work by 
the FAA and other stakeholders. Given the potential efforts of 
unmanned aviation, the last FAA reauthorization bill in 2012 
directed the agency to develop the safety standards necessary 
to ensure this relatively new technology can operate safely and 
seamlessly with existing manned aviation in our Nation's 
airspace.
    I look forward to hearing a progress report from 
Administrator Huerta regarding the FAA bills mandates and how 
the FAA intends to utilize the six recently announced test 
sites to establish safety standards and regulations for the 
safe flight of unmanned aircraft. With regard to the expected 
benefits of unmanned aviation, I look forward to hearing 
further analysis of how the market for unmanned aircraft is 
expected to develop under the regulatory framework directed by 
the FAA bill including some specifics on how safe integration 
of unmanned aircraft could benefit agriculture producers, 
weather forecasting, and public safety.
    As safety regulators work through the challenges of the 
integration of unmanned aircraft, questions related to privacy 
have certainly received a lot of attention. I look forward to 
hearing from the witnesses regarding the current framework of 
privacy protections including at the six test sites and 
discussing what role, if any, the FAA should have in policing 
those concerns. Of course as we consider the privacy 
implications for unmanned aircraft, we will likely need to 
think beyond the new common image of military-style drones.
    Perhaps Amazon's recent discussion about possibly using 
unmanned aircraft for package deliveries has already done that. 
These aircraft are currently being flown, albeit in limited 
fashion, around the world. And benefits certainly look 
promising. We must also remember that the aviation industry is 
a competitive worldwide industry and the timely resolution of 
both the safety issues and privacy concerns will be necessary 
for the U.S. to utilize such technologies while also 
maintaining its leadership position in this emerging aviation 
sector.
    So while this is certainly not the only hearing this 
committee will hold on this topic, I look forward to today's 
discussion, Mr. Chairman, of these challenging issues.
    And I want to thank the witnesses who are here for their 
participation. Thank you.
    The Chairman. Thank you, Senator Thune.
    Administrator Huerta, you're at a good place to begin.

  STATEMENT OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Huerta. Thank you very much, Mr. Chairman.
    Chairman Rockefeller, Senator Thune, members of the 
Committee; I thank you for the opportunity to appear before you 
to discuss the integration of unmanned aircraft systems or UAS 
into American airspace. This is an important development in 
aviation today. Aviation was born in the United States, and 
over the last century we have maintained the prestigious status 
as the largest and most advanced aviation system in the world. 
Part of this aviation gold standard has been to embrace 
innovation and to enable advances that have shaped and enhanced 
our aviation system.
    We see this innovation with NexGen as we transition from a 
system of ground-based radar and navigational to a system that 
uses satellite-based technology for greater precision, more 
direct routes, and better fuel efficiency and predictability. 
Unmanned aviation systems continue that tradition of innovation 
and offer a new unique addition to our airspace. Let me be 
clear that safety is our number one priority as we begin the 
integration of unmanned systems into our airspace.
    We have successfully brought many other new technologies 
into the Nation's aviation system over the last several 
decades, and I have no doubt that we will do the same with 
unmanned aircraft. The American airspace is advanced and 
efficient because we have embraced and accommodated these new 
technologies. There will be challenges to this integration, but 
I'm confident that we can deliver this mandate. We will 
integrate unmanned systems in a measured systematic manner as 
we have done with other new technologies. Ultimately unmanned 
aircraft have the potential to benefit a large number of 
Americans.
    Each new development in aviation is unique in its own way, 
and the same is true for unmanned aircraft. Unmanned aircraft 
are distinctly different from manned aircraft. They have a wide 
range of physical and operational characteristics. Some are as 
small as a baseball and fly at low altitudes. On the other end 
of the spectrum, there are others that have glider-like bodies 
and the wingspan of a major aircraft and they can fly above 
60,000 feet. Some can fly longer than manned aircraft and can 
hover like helicopters. Many are also lighter and slower than 
traditional aircraft and have more lift and less drag.
    The underlying common characteristic of unmanned aircraft 
systems is that the pilot is on the ground and not onboard the 
aircraft. This is inherently different from today's manned 
aircraft. The FAA forecast anticipates that 7,500 small 
unmanned aircraft will be added to U.S. airspace in the next 5 
years as long as the necessary regulations are in place to 
manage them. While we currently allow unmanned systems in our 
airspace, we do so on case-by-case basis for public use, for 
research purposes, and limited commercial use.
    There are two key developments toward unmanned integration 
that I would like to share with you today. On November 7 of 
last year, the FAA released the first unmanned aircraft systems 
civil integration roadmap. This plan outlines the key steps we 
need to take to safely integrate unmanned aircraft. It was 
developed with key stakeholders, and it provides a 5-year 
outlook with annual updates.
    I'm also pleased to report that on December 30 we announced 
our selections for six unmanned aircraft systems research and 
test sites in states across the country. After an extensive 
evaluation process, we identified these locations to gather 
data to assist the FAA in developing regulations for the safe 
integration of unmanned systems. We do not have the same amount 
of data for unmanned operations as we do for manned aircraft. 
This new information will help us to prudently and safely 
introduce more unmanned systems into the airspace.
    I'm confident that our research goals will be met at these 
locations. The FAA has established requirements for each test 
site that will help protect privacy. Test site operators will 
be required to comply with Federal, State, and other laws 
protecting an individual's right to privacy. They will also be 
required to have publicly available privacy policies and a 
written plan for data use and data retention. And each site 
must conduct an annual review of privacy practices.
    The FAA also continues to work with our U.S. Government 
agencies to address privacy issues that may arise with the 
increasing use of unmanned systems. This collaboration is 
detailed in the comprehensive plan which highlights our multi-
agency approach to the safe integration of unmanned systems.
    Mr. Chairman, members of the Committee, I want to assure 
you that the FAA will fulfill its statutory obligations to 
integrate unmanned systems as directed by Congress, but we must 
meet these obligations in a thoughtful and careful manner that 
ensures safety and promotes economic growth. Our airspace is 
not static. It is important for users and the public to 
understand that unmanned operations will evolve over time. Any 
new technology brings opportunities and challenges, but we have 
demonstrated before how we can successfully integrate 
innovative technologies over time. We saw this again and again 
during the last century of flight, and I anticipate the same 
for unmanned systems.
    Thank you again for your invitation to testify, and I would 
be happy to address any questions you have today.
    [The prepared statement of Mr. Huerta follows:]

     Prepared Statement of Hon. Michael P. Huerta, Administrator, 
                    Federal Aviation Administration
    Chairman Rockefeller, Senator Thune, Members of the Committee:

    Thank you for the opportunity to appear before you today to discuss 
unmanned aircraft systems (UAS). This emerging technology has been of 
great interest to State and Federal Government agencies, the public, 
and Congress for the past several years. Many new technologies have 
abstract benefits that are sometimes hard to succinctly describe or 
understand. UAS have applications that are not only readily 
understandable, but have the potential for broad benefits for virtually 
all Americans. From homeland security, emergency management and law 
enforcement, to food and package delivery, the potential uses for UAS 
technology are limitless. Realistically, neither the technical nor 
operational capabilities necessary exist today to implement the 
opportunities described by visionaries, but their promises for 21st 
century conveniences are compelling.
    Meeting the challenges for realizing this potential will take a 
concerted effort and must achieve the requisite balance of maximizing 
the technological benefits, while maintaining safety and efficiency of 
the national airspace system (NAS). I would like to update you on the 
Federal Aviation Administration's (FAA) efforts as we work with 
government and industry to improve the technologies associated with UAS 
so that their integration into the NAS can be achieved in a safe and 
acceptable manner.
    It is important to put the integration of UAS into the NAS in its 
proper context. The FAA has a history of accommodating new technology 
into the NAS safely and effectively. UAS is the latest technology to be 
developed that FAA is working to integrate. While FAA's role in this 
effort is critical, it is limited to NAS safety and operational 
efficiency. As with other manned technologies, FAA's role does not 
extend to directing or otherwise limiting the underlying purposes for 
which the aircraft is used. Consequently, if a particular UAS operation 
does not impact the safety or efficiency of the NAS, it is beyond FAA's 
authority to enforce or otherwise correct that action. However, because 
FAA is uniquely positioned to gather information from our regulated 
entities, we are committed to sharing pertinent information to better 
enable the resolution of all issues affecting the use of UAS, even when 
they are not specifically safety-related.
    For example, in November 2013, FAA released a privacy policy that 
will apply by contract to the UAS test sites that were selected on 
December 30, 2013. This will enable interested organizations and 
government partners to evaluate a broad range of information provided 
by the work done at the test sites and assess the potential impact of 
UAS operations on privacy concerns.
    I am very interested in the selection of the test sites and the 
important work they will be doing, but before getting ahead of myself, 
I would like to set forth a basic framework for how the FAA will 
integrate unmanned aircraft into the NAS. In some ways, unmanned 
aircraft are inherently different from manned aircraft. They possess a 
wider operational range than manned aircraft, with a wider number of 
different physical and operational characteristics. Some UAS are the 
size of a fist, and fly at low altitudes and slow speeds. Others have 
glider-like bodies with the wing span of a 737 and can fly above 60,000 
feet. Many can fly and hover longer than manned aircraft. Their common 
characteristic, distinguishing UAS from manned aircraft, is that their 
pilot is on the ground and not on board the aircraft. This is a very 
new and different common denominator.
    For the last two decades, the FAA has authorized the limited use of 
unmanned aircraft for important missions in the public interest. These 
include firefighting, disaster relief, search and rescue, law 
enforcement, border security, military training, and testing and 
evaluation. About 36 law enforcement agencies operate unmanned aircraft 
now under certificates of authorization. Universities also use unmanned 
aircraft for research into weather, agriculture, and industrial uses.
    FAA estimates that we can expect 7,500 small unmanned aircraft in 
the NAS over the next five years, provided regulations and operational 
guidelines/policies are in place to handle them. We recognize that, 
while the expanded use of UAS presents great opportunities, integrating 
them also presents significant challenges. Operational issues, such as 
pilot training, must be addressed. Additionally, we need to make sure 
that unmanned aircraft can detect and avoid other aircraft and that 
they operate safely, even if they lose the link to the pilot in 
command. Likewise, manned aircraft must be able to detect these 
aircraft as well.
    Our airspace system is not static and it is important for industry 
to understand that unmanned operations will evolve over time, just as 
they have over the past decade. Today, unmanned aircraft are used to 
keep our borders safe. They help with scientific research and 
environmental monitoring. They support law enforcement agencies and 
help state universities conduct research.
    As we move forward, the use of small unmanned aircraft is likely to 
grow most quickly in civil commercial operations. These UAS are 
extremely versatile and have relatively low initial cost and operating 
expenses. The FAA is working on a proposed rule governing the use of a 
wide range of smaller UAS, which, in accordance with the roadmap, we 
expect to issue this year.
    FAA's long-term goal of UAS integration will rely on the test sites 
to answer key questions and provide solutions to the issues noted 
above, as well as how they will interface with the air traffic control 
system. This information will help the FAA to develop regulations and 
operational procedures for future civil commercial use of UAS in the 
NAS.
    Last year, the FAA, often in consultation with other key government 
partners and industry stakeholders, issued a number of key documents 
intended to assist in defining parameters to safely integrate these 
very diverse systems into the world's most complex airspace. The 
Integration of Civil UAS in the NAS Roadmap outlines, within a broad 
timeline, the tasks and considerations needed to enable UAS integration 
into the NAS. The five year Roadmap, updated annually, provides 
stakeholders with proposed agency actions to assist with their planning 
and development. One concrete achievement facilitated by the roadmap 
took place in September 2013 when the first commercial flight of an 
unmanned aircraft took place in the skies above the Arctic Circle. A 
Scan-Eagle completed a 36 minute flight to view marine mammals and 
survey ice. There are hopes that UAS can be used to meet environmental 
and safety requirements in the Arctic. The flight was coordinated by 
Insitu (the UAS manufacturer), Conoco Phillips, and other Federal and 
international agencies. The Arctic region is the only area to date 
where we have authorized the use of small unmanned aircraft for 
commercial purposes.
    The UAS Comprehensive Plan was drafted by the Joint Planning and 
Development Office (JPDO) in coordination with JPDO Board participants 
from the Departments of Defense (DOD), Commerce (DOC), Homeland 
Security (DHS), the National Aeronautics and Space Administration 
(NASA) and the FAA. It is a document that considers UAS issues beyond 
2015, including technologies necessary for safe and routine operation 
of civil UAS and the establishment of a process to inform FAA 
rulemaking projects related to certification, flight standards and air 
traffic requirements. The Comprehensive Plan details work that has been 
accomplished, along with future efforts needed to achieve safe 
integration of UAS into the NAS. It sets overarching, interagency 
goals, objectives, and approaches to achieving integration. Each 
partner agency will work to achieve these national goals and may 
develop agency-specific plans that are aligned to the national goals 
and objectives.
    The safe integration of UAS in the NAS will be facilitated by new 
technologies being deployed in the NAS as part of NextGen. The NAS 
Voice System will allow unmanned aircraft pilots to communicate 
directly with the air traffic controllers--a key requirement in 
integration. Safe integration will lead us from today's need for 
accommodation of UAS through individual approvals to a time when 
unmanned aircraft can ``file and fly'' in the NextGen environment.
    With respect to another important issue for UAS development, in 
November 2013, FAA also released a privacy policy that applies to the 
UAS test sites. This policy requires operators to comply with all 
local, state and Federal laws concerning privacy and civil liberties. 
FAA is requiring the test site operators to create a privacy policy 
that is available to the public. The test site operator must require 
anyone operating unmanned aircraft at the site to have a written plan 
for how they will use and retain any test data acquired. On a broader 
level, agencies across the government are coming together to work on 
privacy issues that may arise with the increasing use of unmanned 
aircraft beyond these test sites. Ensuring that UAS integration does 
not erode individuals' privacy is a goal supported by both government 
and industry.
    This brings me to the announcement of the selection of the test 
sites. FAA received 25 applications from 24 states, so I was quite 
pleased with the depth and range of the proposals we reviewed. In 
selecting the sites, FAA considered many factors. We made a concerted 
effort to pick sites that reflected both geographic and climactic 
diversity. We also took into consideration the location of ground 
infrastructure. We looked at the type of research that would happen at 
each site and the aviation experience of the applicants, as well as the 
type and volume of aircraft that fly near the sites. Our research goals 
are focused on: (1) gathering system safety data, (2) aircraft 
certification, (3) command and control link issues, (4) control station 
layout and certification criteria, (5) ground and airborne detect and 
avoid capabilities, and (6) impacts on affected populations and the 
environment.
    The following test sites were selected by the FAA, after 
consultation with DOD and NASA:

  <bullet> University of Alaska. The University of Alaska proposal 
        contained a diverse set of test site range locations in seven 
        climatic zones as well as geographic diversity with test site 
        range locations in Hawaii and Oregon. The research plan 
        includes the development of a set of standards for unmanned 
        aircraft categories, state monitoring and navigation. Alaska 
        also plans to work on safety standards for UAS operations.

  <bullet> State of Nevada. Nevada's project objectives concentrate on 
        UAS standards and operations as well as operator standards and 
        certification requirements. The test site's research will also 
        include a concentrated look at how air traffic control 
        procedures will evolve with the introduction of UAS into the 
        civil environment and how these aircraft will be integrated 
        with NextGen. Nevada's selection contributes to geographic 
        diversity.

  <bullet> New York's Griffiss International Airport. Griffiss 
        International plans to work on developing test and evaluation 
        as well as verification and validation processes under FAA 
        safety oversight. The test site also plans to focus its 
        research on sense and avoid capabilities for UAS and its sites 
        will aide in researching the complexities of integrating UAS 
        into the congested, northeast airspace.

  <bullet> North Dakota Department of Commerce. North Dakota plans to 
        develop UAS airworthiness essential data and validate high 
        reliability link technology. This test site will also conduct 
        human factors research. North Dakota's application was the only 
        one to offer a test range in the Temperate (continental) 
        climate zone and included a variety of different airspace which 
        will benefit multiple users.

  <bullet> Texas A&M University--Corpus Christi. Texas A&M plans to 
        develop system safety requirements for UAS vehicles and 
        operations with a goal of protocols and procedures for 
        airworthiness testing. The selection of Texas A&M contributes 
        to geographic and climatic diversity.

  <bullet> Virginia Polytechnic Institute and State University 
        (Virginia Tech). Virginia Tech plans to conduct UAS failure 
        mode testing and identify and evaluate operational and 
        technical risks areas. This proposal includes test site range 
        locations in both Virginia and New Jersey.

    As required by Congress, we expect the first test site to be 
operational within 180 days of the December 30, 2013, announcement and 
that the test sites will continue to operate until at least February 
2017.
    As I noted at the outset, the FAA has successfully brought new 
technology into the Nation's aviation system for more than 50 years, 
and I have no doubt that we will do the same with unmanned aircraft. 
The announcements of the UAS Roadmap, the Comprehensive Plan, the test 
site privacy policy and the test site selections are all concrete steps 
in support of an emerging technology that has extraordinary potential. 
We have the safest aviation system in the world, and our goal is to 
introduce this new and important technology while still maintaining 
safety as our highest priority.
    We are cognizant of the goals that have been set by Congress for us 
to integrate UAS into the NAS. We will meet these goals with the 
collective technological and creative innovations of our government and 
industry colleagues.
    This concludes my statement. I will be happy to answer your 
questions at this time.

    The Chairman. Thank you very much.
    Dr. Cummings, now in the parentheses there's a ``Missy'' in 
the middle of that.
    Dr. Cummings. That was my call sign in the military.
    The Chairman. OK. Well, I'm going to stay formal.
    Dr. Cummings. That's fine, sir.
    The Chairman. Dr. Cummings is a former Navy fighter pilot.
    Were you the first?
    Dr. Cummings. In that first group, yes, sir.
    The Chairman. Yes. And Director of the Humans and Autonomy 
Laboratory at Duke University. We're very honored to have you 
here, and we look forward to your testimony.

 STATEMENT OF DR. MARY CUMMINGS, DIRECTOR, HUMANS AND AUTONOMY 
                  LABORATORY, DUKE UNIVERSITY

    Dr. Cummings. Thank you.
    Good afternoon, Chairman and Senator Thune and 
distinguished members of the Committee. Thank you so much for 
allowing me the opportunity to come here today to talk to you 
about the future integration of unmanned systems into the U.S. 
economy. I am the Director of the Duke University Humans and 
Autonomy Laboratory, which focuses on the multifaceted 
interaction of humans and autonomous systems and complex socio-
technical systems. I have advised all of the branches of the 
military on technologies and policies related to unmanned 
aerial vehicles, more commonly called drones, and I do have 
personal aviation experience as I was one of the first U.S. 
fighter pilots for the Navy when women were introduced.
    I do applaud the FAA's recent, but very late, naming of 
their six test sites. But I like, most experts in the field, 
agree that the FAA will not be able to meet the mandate to 
integrate drones in the national airspace by 2015. While we are 
making some progress toward this goal, the United States, in my 
opinion, is not leading the commercial drone industry, it's 
lagging.
    For example, in Japan drones make up more than 90 percent 
of crop dusting, which is a very dangerous job for human 
pilots. In the U.K. you can use drones for commercial 
photography, you can use them for crop monitoring, they can 
deliver food to your table at a restaurant, and they can 
deliver pizza to your home. And while I do appreciate Amazon's 
big announcement about drone package delivery, unfortunately 
there are companies in China and Australia that beat them to 
the punch.
    So many government and watch-dog agencies cite safety and 
privacy, as you noted, as justification for why drone use 
should not be in the commercial sphere anytime soon. And while 
I will defer to my colleagues about the privacy issues, in 
terms of safety, the statistics clearly indicate the safety for 
particularly military drone platforms is improving very 
quickly. It is true that when you compare accident rates as 
measured by the industry standard of number of accidents per 
100,000 flight hours, that drones do have a higher accident 
rate when you look at the last 20 years. But this kind of 
comparison is apples to oranges because the drone industry is a 
fledgling one and manned aviation has had more than 100 years 
to improve its safety record.
    Asking about the cumulative drone accident rate now is akin 
to asking what the accident rate of manned aviation was in 
about the 1930s, which was 60 times higher than it is today. I 
think a better question to ask is about the rate of drone 
safety improvement. The U.S. military reached a landmark and 
the drone industry reached a landmark safety record a little 
bit more than a year ago when the Predator accident rate 
dropped lower than manned fighters and manned bombers.
    For the first time in U.S. history, there are now missions 
that are safer flown by a computer than by a human. The 
military is not the only domain where recent drone safety 
records have surpassed that of humans. For the last 20 years 
general aviation has had the highest accident rate of all 
manned aircraft, and that rate really has not budged very much 
in the last 20 years. Given the increasing safety rates of 
drones, drones are now about 25 percent safer to fly than 
general aviation aircraft. As a former fighter pilot and a 
private pilot, I understand the importance of what I'm saying, 
which is that on average a drone is a better pilot than I am.
    For the first five years of operation, drones were more 
than twice as likely to have an accident as opposed to manned 
aviation. After 15 years of operation, that number dropped to 
only about 25 percent more likely. If this dramatic improvement 
continues, theoretically drone safety will be on par with 
commercial aviation in about ten years. While I'm not 
suggesting that passenger aircraft will become drones, these 
numbers should be placed in the context of the overall larger 
aviation safety picture.
    Manned aviation has formalized certification and inspection 
programs, and it also has voluntary reporting programs. These 
programs right now do not exist for the drone industry. Despite 
this lack of a formalized safety program, drone accident rates 
have improved dramatically over the last 20 years because of 
industry self regulation and customer demand. While there is 
certainly still a long road ahead to improving drone safety, 
adapting those tried and true safety programs from manned 
aviation to unmanned, in addition to strong industry buy-in, 
will be key in improving drone safety for the myriad of 
anticipated future missions.
    As optimistic as I am about drone safety and the improving 
accident safety rates and what this could mean in terms of 
commercial growth, I am decidedly less optimistic about the 
ability of this country to grow the work force that it's going 
to need to design, develop, and manage these systems in the 
future. With current fiscal belt tightening, R&D budgets across 
government agencies have been significantly cut, and this means 
that universities cannot produce enough graduates for drone and 
other autonomous system development like driverless cars. And 
these graduates need to be experts in hardware, software, and 
human machine interaction.
    This choking of the pipeline not only hurts industry who is 
desperate for these graduates, particularly U.S. citizens, it 
especially hurts the Government who cannot maintain sufficient 
staffing in the number of people it needs to simply understand 
these systems or more importantly manage such complex systems 
in the future.
    In conclusion, I believe that drones have made great safety 
strides over the past 20 years, but will only become better 
when formalized safety practices are adapted from manned 
aviation. But in this implementation, this country needs to 
move more expeditiously toward the integration of drones in the 
national airspace to capitalize on the economic potential. 
Last, Government funding in drone and other related autonomous 
technologies needs to grow at least an order of magnitude to 
regain global leadership in an area that we are now woefully 
behind. Thank you.
    [The prepared statement of Dr. Cummings follows:]

   Prepared Statement of Mary Cummings, Ph.D., Directory, Humans and 
                  Autonomy Laboratory, Duke University
    Good afternoon Chairman Rockefeller, Ranking Member Thune, and 
distinguished members of the Committee. Thank you for the opportunity 
to appear before you to discuss issues related to the future of 
unmanned aviation in the U.S. economy.
    I am the Director of the Duke University Humans and Autonomy 
Laboratory, which focuses on the multifaceted interactions of humans 
and autonomous systems in complex sociotechnical settings. I am an 
internationally recognized Unmanned Aerial Vehicle expert and have 
advised all branches of the United States military concerning 
technologies and policies related to unmanned aerial vehicles, more 
commonly called drones. I also have significant personal aviation 
experience, as I was one of the U.S. Navy's first female fighter 
pilots.
    While I applaud the FAA's recent, but very late, naming of its six 
Unmanned Aerial System test sites I, like most experts in this field, 
agree that it is unlikely that the FAA will meet its charge to open our 
national airspace to drones by 2015. While we are making some progress 
towards this goal, the United States is lagging, not leading, the 
commercial drone boom.
    For example, in Japan drones make up more than 90 percent of all 
crop dusters, an extremely dangerous job for human pilots. In the UK, 
drones can be used for commercial photography, to monitor crops, and to 
deliver food to your table at a restaurant and pizza to your home. In 
South Africa, music festival fans have been treated to drone beer 
delivery using a smartphone app. And well before Amazon made their 
recent announcement for drone package delivery, companies in Australia 
and China beat them to it.
    Many government and watchdog agencies cite safety and privacy 
concerns as justification for delaying the use of drones for commercial 
applications. While I defer to my colleagues for a more detailed 
discussion about the privacy issues, in terms of safety, the statistics 
clearly indicate that safety across military drone platforms is greatly 
improving.
    It is true that, according to accident data provided by the 
National Business Aviation Association and the Air Force Safety Center, 
when you compare accidents rates, as measured by the industry standard 
of number of accidents per 100,000 flight hours, drones have a higher 
accident rate than all other aircraft for the past 20 years. But this 
kind of comparison is apples-to-oranges since the drone industry is a 
fledgling one, and manned aviation has had more than a 100 years to 
improve safety. Asking about the cumulative drone accident rate is akin 
to asking what the accident rate of manned aviation was in the 1930s, 
which was about 60 times higher than commercial rates today.
    A better question is to ask about the rate of drone safety 
improvement. The United States military and the drone industry reached 
a landmark safety record more than a year ago when the Predator's 
annual accident rate dropped lower than both the average rates for 
manned fighters and bombers. For the first time in United States 
history, there are now missions that are safer when flown by a computer 
than by a human.
    The military is not the only domain where recent drone safety 
records have surpassed that of humans. For the last 20 years, general 
aviation has had the highest accident rate overall for manned aircraft, 
and has not improved to the same degree as for all other categories of 
aircraft. Given recent Predator and general aviation safety accident 
rates, drones are now 25 percent safer than the general aviation 
community. As a former fighter pilot and a private pilot, I understand 
the importance of what I am saying--which is that a drone is, on 
average, a better pilot than I am.
    For the first five years of operations, drones were more than twice 
as likely to have an accident as compared to manned aircraft. After 
fifteen years of operation, that number decreased to just 25 percent 
more likely. If this dramatic improvement in safety continues, 
theoretically drone safety could be on par with that of commercial 
aviation in just 10 years.
    While I am not suggesting that passenger aircraft will become 
drones, I think it is important to look at these numbers in the context 
of the larger aviation safety picture. Manned aviation has formalized 
certification and inspection programs, as well as voluntary reporting 
programs, but as of now, the drone industry has no such parallel 
programs.
    Despite this lack of a formalized safety program, drone accident 
rates have improved dramatically over the last 20 years because of 
industry self-regulation and customer demand. While there is certainly 
still a long road ahead to improve drone safety, adapting tried and 
true safety programs from manned aviation to unmanned, in addition to 
strong industry buy-in will be key in improving drone safety for the 
myriad of anticipated future missions.
    As optimistic as I am about the improving safety accident rates of 
drones and what this could mean in terms of commercial growth, I am 
decidedly less optimistic about the ability of this country to grow the 
workforce it needs to design, deploy, and manage these systems. With 
current fiscal belt tightening, research and development budgets across 
government agencies have been significantly cut. This means that 
universities cannot produce enough graduates for drone and other 
autonomous system development like driverless cars, who need to be 
experts in hardware, software, and human-machine interaction.
    This choking of the pipeline not only hurts industry, who is 
desperate for such graduates, especially those that are U.S. citizens, 
but this particularly hurts the government who cannot maintain 
sufficient staffing in the number of people it needs who can understand 
much less manage such complex systems.
    In conclusion, I believe that drones have made great safety strides 
over the past twenty years, but will only become better when formalized 
safety practices are adapted from manned aviation. But in this 
implementation, this country needs to move more expeditiously towards 
the integration of drones into the national airspace. Lastly, 
government funding in drone and other related autonomous technologies 
needs to grow at least an order of magnitude to regain global 
leadership in an area in which we are now woefully behind.

    The Chairman. Thank you very much. You raise some questions 
which I look forward to asking.
    Mr. Henio Arcangeli, who is the Vice President of Corporate 
Planning and New Business Development for Yamaha Motor 
Corporation, U.S.A.; we welcome you, thank you for coming here, 
and we look forward to your testimony.

         STATEMENT OF HENIO ARCANGELI, VICE PRESIDENT,

      CORPORATE PLANNING, YAMAHA MOTOR CORPORATION, U.S.A.

    Mr. Arcangeli. Thank you very much.
    Chairman Rockefeller, Ranking Member Thune, and members of 
the Committee, good afternoon. I appreciate this opportunity to 
discuss the important agricultural services performed by our 
remotely-piloted helicopter, the Yamaha RMAX, and our desire to 
offer these same essential services to farmers and growers in 
the United States.
    Mr. Chairman, I'd like to show a short 2-minute video that 
describes the RMAX in greater detail now.
    [Video being shown.]
    Mr. Arcangeli. If I can continue. Yamaha Motor Corporation, 
U.S.A. is based in Cypress, California, and has extensive 
business facilities throughout the United States where we 
design, manufacture, and distribute a wide range of consumer 
products including motorcycles, ATVs, boats, and golf carts. 
Yamaha has over 2,800 full-time employees and our products are 
sold by thousands of authorized dealers nationwide.
    The RMAX, as you just saw, is a remotely-piloted helicopter 
controlled by a trained pilot that's onsite using a handheld 
radio transmitter. The RMAX weighs about 140 pounds, is 9 feet 
long, and uses a specially designed 2-cylinder engine that 
sounds much like a small motorcycle when operating. For over 20 
years the RMAX has been used safely on farms for precision 
spraying of crops in Japan, and more recently Australia and 
South Korea.
    The RMAX is only operated within a pilot's line of sight, 
during good weather, during daylight hours, at slow speeds of 
12 miles per hour or less, and at low altitudes of about 16 
feet, which is lower than what most kites fly at. Over 2,600 
RMAXes are in operation today treating more than 2.4 million 
acres of farmland each year in Japan alone. This is roughly 
equivalent to treating the entire states of Delaware and Rhode 
Island combined.
    For many uses, the RMAX has proven to be far more 
economical and effective than other spraying methods, helping 
farmers lower costs while using fewer chemicals. There's now 
mounting commercial interest and need for the RMAX in this 
country. For example, recent testing at the nation's largest 
almond farm just outside of Bakersfield, California, show the 
RMAX would be ideal for treating against the navel-orange worms 
that threaten this four-billion-dollar-a-year industry. The 
worms infest the top of the tree canopies, making treatment by 
conventional ground spraying methods difficult and inefficient.
    Similar testing in Napa Valley showed that the RMAX can 
treat up to 11 acres of vineyards in the same time a 
conventional tractor can cover just one acre, using a fraction 
of the fuel and significantly reducing chemical drift and human 
exposure to chemicals. Research developed by our industry trade 
association, AUVSI, indicates that the use of the RMAX and 
similar unmanned aircraft systems or UASs could improve crop 
yields by 15 percent and reduce fertilizer use by as much as 40 
percent.
    Commercial use of UASs would also significantly increase 
economic activity in this country. Recent projections indicate 
the economic impact of these products could exceed $13 billion 
and result in nearly 70,000 new jobs in the first 3 years of 
integration alone.
    Ensuring public safety and privacy are certainly top 
priorities of this committee and the FAA in considering 
commercial UAS use here. During its more than two decades of 
use, the RMAX has safely logged over 1.8 million total hours of 
flight and to our knowledge not a single complaint to privacy. 
This stellar record reflects a comprehensive and systematic 
approach to operator training, safety, and public privacy. The 
RMAX is manufactured to exacting standards, and it has a host 
of built-in safety features including excellent flight 
stability systems, GPS for speed and hovering control, and 
emergency fail-safe systems.
    In addition to these on-product safety systems, Yamaha has 
closely worked with aviation authorities in other countries to 
develop extensive pilot training and certification programs 
which include both classroom and field components involving 
many hours of in-flight training. Also we have developed 
comprehensive flight restrictions, including low altitude, low 
speed operation over uninhabited areas, and no RMAX operation 
is permitted where a third party's privacy rights are 
infringed.
    These proven systems used for over 20 years and nearly two 
million hours of flight can and should provide an effective 
blueprint for the FAA to build on in approving similar 
agricultural uses of the RMAX and other UASs. We urge Congress 
to encourage the FAA to use the authority under Section 333 of 
the Modernization and Reform Act of 2012 to expedite approval 
of products like the RMAX for precision agricultural and other 
appropriate commercial uses where there is a proven performance 
record and under appropriate operating restrictions that 
mitigate any public safety or privacy concerns.
    There is no reason to delay all commercial UAS use for the 
several years it will take the FAA to develop more 
comprehensive regulations. We believe at least some of these 
products should be available to American farmers today so that 
they have the same access to the vital services their 
counterparts in other countries already enjoy, and our country 
can begin reaping the substantial economic benefits that these 
new products offer. Thank you very much.
    [The prepared statement of Mr. Arcangeli follows:]

   Prepared Statement of Henio Arcangeli, Vice President, Corporate 
               Planning, Yamaha Motor Corporation, U.S.A.
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee, good afternoon. My name is Henio Arcangeli. I am Vice 
President of Corporate Planning for Yamaha Motor Corporation, U.S.A. I 
appreciate this opportunity to discuss the important agricultural 
services performed by our remotely-piloted helicopter, the Yamaha RMAX, 
and our desire to offer these same essential services to farmers, 
growers, and land managers in the United States.\1\
---------------------------------------------------------------------------
    \1\ Exhibit 1.
---------------------------------------------------------------------------
    Yamaha is based in Cypress, CA and has extensive manufacturing and 
business facilities throughout the United States, where we design, 
engineer, manufacture and distribute a wide range of consumer products, 
including motorcycles, ATVs, snowmobiles, boats, outboard engines, and 
golf carts, just to name a few. Yamaha has over 2,800 full-time 
employees, and our products are sold by thousands of authorized dealers 
and small businesses nationwide.
    The Yamaha RMAX helicopter is controlled by trained, on-site 
operators using a handheld radio transmitter with a communications 
range of about 500 feet. The RMAX weighs 140 pounds, is 9 feet long, 
and uses a specially designed 2-cylinder engine that sounds like a 
small motorcycle when operating.\2\
---------------------------------------------------------------------------
    \2\ Exhibit 2.
---------------------------------------------------------------------------
    For over 20 years, remotely piloted RMAX have been safely used for 
precision crop dusting, ``spot spraying,'' weed and pest control, and 
fertilization in Japan and, more recently, Australia and South 
Korea.\3\ The RMAX is only operated within a pilot's line of sight, 
during daylight hours, at slow speeds of 12 mph or less, at altitudes 
of about 16 feet. This is lower than where most kites fly, and far 
below the airspace in which manned aircraft operate (generally 500 feet 
or higher)--and where ``sense and avoid'' and other safety-related 
technologies may be necessary.
---------------------------------------------------------------------------
    \3\ The RMAX can dispense both liquid and granular spray using 
different tanks that attach to the unit. The capacity for liquids is 
about 4.25 gallons and about 7 gallons for granular applications.
---------------------------------------------------------------------------
    Over 2,600 remotely-piloted RMAX are in operation today, treating 
more than 2.4 million acres of farmland each year in Japan alone.\4\ 
This roughly equivalent to treating the entire states of Delaware and 
Rhode Island, combined. For many applications, the RMAX has proven to 
be far more economical and effective than other spraying methods, 
helping farmers increase productivity at lower costs using less 
chemicals.
---------------------------------------------------------------------------
    \4\ In Japan, many farms are very small--5 acres or less--and by 
necessity are situated closer to areas where people work and live. The 
RMAX was designed to serve these small farms more safely, and with 
greater precision, than a manned aircraft could provide--thereby 
reducing the risks to populated areas while also reducing the costs for 
farmers. The RMAX offers these same benefits here in the United States, 
where most farm and land areas are not as proximate to inhabited areas 
as they are in Japan.
---------------------------------------------------------------------------
    There is mounting commercial interest and need for the RMAX from 
farmers and growers in this country. For example, recent testing at the 
world's largest almond and pistachio farm just outside of Bakersfield, 
CA showed the RMAX would be ideal for treating against the navel-orange 
worms that threaten this $4 billion-a-year industry. The worms infest 
the top of tree canopies, making treatment by conventional ground 
spraying methods difficult and inefficient.
    Similar testing in Napa Valley showed that the RMAX can treat up to 
11 acres of vineyards in the same time a conventional tractor can cover 
about 1.5 acres--without exposing a human operator to the risks of 
making sharp turns on steep slopes.\5\ The RMAX uses a fraction of the 
fuel, causes no soil compaction or crop damage, and provides more 
precise spray deposition, significantly reducing chemical drift and 
operator exposure to the chemicals.
---------------------------------------------------------------------------
    \5\ Exhibit 3.
---------------------------------------------------------------------------
    Research developed by our industry trade association, AUVSI, 
indicates that use of the RMAX and similar unmanned aerial systems 
(UAS) in the U.S. could improve crop yields by 15 percent, increase net 
returns by $17 to $54 per acre, and reduce fertilizer use by as much as 
40 percent.\6\ A study by Ben-Gurion University similarly found that 
precision UAS spraying could reduce pesticide use by up to 60 percent. 
These potential benefits can and should be available to U.S. farmers 
and growers.
---------------------------------------------------------------------------
    \6\ Exhibit 4.
---------------------------------------------------------------------------
    Commercial use of UAS would also result in thousands of new jobs 
and millions of dollars in related economic growth for our country. 
Recent projections indicate that the economic impact of these products 
could exceed $13.6 billion and result in 70,000 new jobs in the first 
three years of integration alone.\7\
---------------------------------------------------------------------------
    \7\ Exhibit 5.
---------------------------------------------------------------------------
    Ensuring public safety and privacy are certainly top priorities of 
this Committee and the FAA in considering commercial UAS use here. 
Yamaha understands and shares these priorities. During its more than 
two decades of use, the RMAX has safely logged over 1.8 million total 
flight hours without, to our knowledge, a single privacy complaint.\8\ 
This stellar record reflects a systematic approach to safety and 
privacy that includes: (1) a quality engineered and manufactured 
product; (2) intensive pilot training and certification programs; and 
(3) comprehensive operating restrictions and policies.
---------------------------------------------------------------------------
    \8\ Exhibit 6.
---------------------------------------------------------------------------
    Specifically, the RMAX is manufactured to exacting standards and 
has a host of built-in safety features, including excellent flight 
stability systems and GPS for speed and hovering control; a ``loss 
link'' feature that guides the unit to hover in place and then slowly 
land if there is any loss of radio communication; and a rotor brake 
that brings the propeller to a full stop within seconds of landing.\9\
---------------------------------------------------------------------------
    \9\ In addition, the RMAX has a self-monitor function that makes 
sure the unit is functioning properly before takeoff. Once airborne, 
the RMAX has an Altitude Control System with GPS, developed by Yamaha. 
This gives the unit excellent flight stability and control. There are 
indicator lights on the unit for the altitude control system and 
vehicle speed, which provide constant visual feedback to the pilot. A 
warning light is also present in the event of any potential 
malfunction. Exhibit 7.
---------------------------------------------------------------------------
    In addition to these on-product safety systems, Yamaha has worked 
closely with aviation authorities in other countries to develop 
extensive pilot training and certification programs, which include both 
classroom and field components involving many hours of in-flight 
training. For example, the training and certification requirements we 
have established with the Civil Aviation Safety Authority (CASA) in 
Australia include:

  <bullet> a pilot theory exam;

  <bullet> a comprehensive UAV training course;

  <bullet> 30 hours of supervised agricultural spraying;

  <bullet> a Class 2 medical certificate;

  <bullet> a certificate of radio proficiency;

  <bullet> completion of Yamaha's training program; and

  <bullet> continuing periodic training even after certification.

    These comprehensive pilot training and certification programs 
provide an excellent model that could be adopted for use here in the 
United States.
    We have also developed comprehensive flight restrictions, including 
low altitude, low speed operation over uninhabited areas. And Yamaha's 
use policies prohibit any RMAX operation where a third party's privacy 
rights would be infringed.\10\
---------------------------------------------------------------------------
    \10\ From a practical perspective, privacy is not an issue for the 
vast amount of RMAX use, since it involves chemical spraying over 
farmland and other rural, uninhabited spaces. We expect that our 
experiences in the United States will be no different, and we will of 
course comply with any applicable privacy rules or policies here.
---------------------------------------------------------------------------
    Autonomous versions of the RMAX have also been safely deployed in 
Japan, using pre-set flight routes to conduct geographical surveys, to 
lower measuring and sensing equipment into volcanoes, and to monitor 
radiation from the Fukushima nuclear power plant. Together, these 
autonomous activities have involved over 3,000 additional safe flight 
hours.\11\
---------------------------------------------------------------------------
    \11\ Autonomous versions of the RMAX could be used for similar 
important purposes in this country, but our initial efforts with the 
FAA are focused on obtaining approval for the kind of precision 
agricultural services that our remotely-piloted unit performs each year 
on millions of acres of land in other countries.

---------------------------------------------------------------------------
    The RMAX's proven systems, used for over 20 years and nearly 2 
million hours of flight, can and should provide an effective blueprint 
for the FAA to build on in approving similar agricultural uses of the 
remotely-piloted RMAX and other UAS here, under the same operating 
conditions and restrictions I have described--which together minimize 
any personal safety or privacy concerns for the general public.
    We have met with FAA staff, and they have been very helpful in 
explaining the current regulatory requirements for commercial aircraft 
and their efforts to develop new regulations more suitable for UAS. At 
present, however, the RMAX cannot be used for any commercial purpose. 
We can only conduct limited R&D testing. And we have no clear roadmap 
or timeline for when the RMAX or similar UAS might be approved for use 
in Bakersfield, Napa Valley, or anywhere else.\12\
---------------------------------------------------------------------------
    \12\ UAS are being developed and tested for precision agricultural 
uses by numerous research teams at Ohio State University, Kansas State 
University, Virginia Tech and other places. AUVSI, our industry trade 
association, has more complete information about these various 
products.
---------------------------------------------------------------------------
    We urge Congress to give the FAA the authority and flexibility to 
authorize products like the RMAX for precision agricultural and other 
appropriate commercial uses, such as spraying for mosquito and gypsy 
moth control, where there is a proven performance record and under 
appropriate operating restrictions that mitigate any public safety or 
privacy concerns.
    For example, Congress could expand the FAA's authority to issue 
Certificates of Authorization--which are currently limited to public 
agency uses--to include specific commercial uses, like precision 
agricultural spraying, in circumstances where, as here, you have a UAS 
with a proven safety record and established operating procedures and 
restrictions; namely, line-of-sight, low altitude, low speed operation 
during daylight over uninhabited areas.
    Similarly, Congress could consider authorizing a class and type of 
UAS that would be approved for these kind of uses under equivalent 
operating procedures and restrictions, similar to the Class 1 UAV 
category adopted by the International Civil Aviation Organization 
(ICAO). This is the same classification that CASA has applied to the 
RMAX for precision agricultural uses in Australia.
    Alternatively, the FAA should be authorized to rely on and adopt 
the training, certification, operating, and other policies and 
procedures that Yamaha has established with aviation authorities in 
Japan or Australia, much like the FAA already does for commercial 
manned aircraft under bi-lateral treaties.
    Authorizing the FAA to issue these kind of approvals, even while 
the agency develops more comprehensive UAS regulations, would help 
ensure that American farmers and growers have access to the same vital 
services their counterparts in other countries already enjoy,\13\ and 
that our economy begins reaping the substantial benefits these new 
products offer.\14\
---------------------------------------------------------------------------
    \13\ Yamaha's initial market plans would not involve sales of the 
RMAX to farmers or other private individuals. For the most part, in 
other countries, Yamaha retains custody of the units and leases them 
for agricultural services, which are only provided by trained and 
certified pilots and spotters. This enables Yamaha to maintain custody 
over each unit and to ensure safe and proper usage. We expect to follow 
that same operating model here, once we have the necessary approvals.
    \14\ In addition to the immediate benefits in greater productivity 
and reduced costs for farmers and growers, use of the RMAX here would 
directly result in new jobs for pilots, spotters, and others who 
provide the services. Although the RMAX is currently manufactured in 
Japan, Yamaha is also open to considering production of units in the 
United States, which could create hundreds of new jobs in manufacturing 
and at dealers and other small businesses that help administer and 
provide the product's services.
---------------------------------------------------------------------------
    Thank you again for this opportunity to appear before the 
Committee.
                                Exhibits
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                                                                

    The Chairman. Thank you very much.
    And finally, Mr. Chris Calabrese, who is the Legislative 
Counsel at the American Civil Liberties Union. We welcome you.

  STATEMENT OF CHRISTOPHER R. CALABRESE, LEGISLATIVE COUNSEL, 
                 AMERICAN CIVIL LIBERTIES UNION

    Mr. Calabrese. Thank you, Chairman Rockefeller, Ranking 
Member Thune, members of the Committee, thank you for inviting 
me to testify today. The widespread domestic use of unmanned 
aerial systems known as drones presents significant new privacy 
threats while also implicating important First Amendment 
values. The ACLU believes it's possible to balance both of 
these interests and develop a legal regime that protects 
Americans' constitutional rights.
    Drones share some characteristics with manned aerial 
surveillance, but the privacy invasion they represent is 
substantially greater in both scope and volume. Manned aircraft 
are expensive to purchase, operate, and maintain which has 
always imposed a natural limit on aerial surveillance. Drones' 
low cost, flexibility, and variety of use erode those limits. 
Small hovering platforms can explore hidden spaces or peer into 
windows and large static blimps enable continuous long-term 
monitoring, all for much less than the cost of a helicopter or 
airplane.
    Ongoing improvements in computing technology exacerbate 
these privacy issues. High-powered cameras provide more and 
better detail. Imagine technology similar to the naked body 
scanners we're familiar with at the airport attached to a 
drone. Through technologies like face recognition, improved 
analytics, and wireless Internet; it is possible to track 
specific individuals with multiple drones.
    Like any powerful technology, the expansion of drones will 
likely lead to significant harms if left unchecked. Persistent 
monitoring changes how people act in public. Studies have shown 
that merely hanging posters of the human eye is enough to 
significantly change people's behavior. Long-term monitoring is 
also likely to result in embarrassing or humiliating video 
footage. There are also legitimate worries about how footage is 
used. We're only beginning to discover the many ways that 
employers, banks, and the Government are using data gleaned 
from our Internet use. It's reasonable to fear the same mission 
creep with drones.
    While existing legal protections including privacy torts, 
peeping Tom statutes, and trespass laws may stem some of the 
worst of these abuses; the potential for harm has already 
sparked widespread public concern. This is reflected in the 
fact that anti-drone ordinances have been proposed in 43 states 
and passed in 13. At the same time drones also have beneficial 
uses, some of which are expressly protected by the First 
Amendment. Activists have already use drones to monitor police 
response to protestors, and drones have helped reporters cover 
stories in Turkey and South Africa.
    The ACLU believes it's possible to maximize the benefits of 
drone use and limit the harms. First, we have to recognize that 
the many beneficial uses of drones, agriculture, scientific 
research mapping do not need to involve the collection of 
personal information. We must explore ways to prevent those 
drones from becoming surveillance platforms.
    Second, we must continue to protect and safeguard our First 
Amendment values.
    Drone photography like any other photography should be 
treated as a protected expression under the First Amendment. In 
no case should laws single out news-gathering drones for 
special restrictions over and above those applicable to non-
news-gathering operations. For example, singling out photo 
journalists.
    Third, we must be aware of the special dangers posed by 
government surveillance. My written statement describes the 
detailed controls that should apply to the Government, but most 
relevant to this committee is the intersection with the private 
sector. As we see from the front page of today's Washington 
Post, drones flying for one purpose, border security, are 
already being used for other purposes. Unless Congress creates 
limits, you can expect private sector drones to be co-opted in 
the same way.
    Finally, policymakers must explore both procedural and 
substantive privacy protections while remaining mindful of 
First Amendment protections. Commercial uses should be 
accompanied by strong privacy policies based on public input 
and backed by strict accountability measures and possibly 
overall limits on when personal information can be collected 
and used. Ultimately a legal regime that protects both privacy 
and the First Amendment removes a substantial barrier to 
adoption of drone technology. By assuaging the public's 
legitimate fears and protecting their rights, policymakers and 
industry can demonstrate the benefits of this new technology 
and smooth its path to adoption. Thank you.
    [The prepared statement of Mr. Calabrese follows:]

 Prepared Statement of Christopher R. Calabrese, Legislative Counsel, 
     American Civil Liberties Union, Washington Legislative Office
    Good afternoon Chairman Rockefeller, Ranking Member Thune and 
Members of the Committee. Thank you for the opportunity to testify on 
behalf of the American Civil Liberties Union (ACLU), its more than half 
a million members, countless additional activists and supporters, and 
fifty-three affiliates nationwide, about the privacy and free speech 
implications of the domestic use of drones by the government and the 
private sector.
I. Introduction
    Unmanned aircraft carrying cameras raise the prospect of a 
significant new avenue for the surveillance of American life. Many 
Americans are familiar with these aircraft, commonly called drones, 
because of their use overseas in places like Afghanistan, Pakistan and 
Yemen. But drones are coming to America. Under 2012 legislation, the 
Federal Aviation Administration is required to ``develop a 
comprehensive plan to safely accelerate the integration of civil 
unmanned aircraft systems into the national airspace system.'' \1\ This 
legislation has dramatically accelerated the deployment of drones and 
pushed this issue to the forefront.
---------------------------------------------------------------------------
    \1\ FAA Modernization and Reform Act of 2012, P.L. 112-95, 
Sec. 332, 126 Stat.11, 73.
---------------------------------------------------------------------------
    At the same time, drone technology is quickly becoming cheaper and 
more powerful while our privacy laws have not kept up with the 
technology. Aerial surveillance from manned aircraft has been with us 
for decades. One of the first aircraft the Wright brothers built was a 
surveillance aircraft, and it was sold to the U.S. Army. But manned 
aircraft are expensive to purchase, operate and maintain, and this 
expense has always imposed a natural limit on the government's aerial 
surveillance capability. Now that surveillance can be carried out by 
unmanned aircraft, this natural limit is eroding. The prospect of 
cheap, small, portable flying surveillance platforms threatens to 
eradicate existing practical limits on aerial monitoring and allow for 
pervasive surveillance. Our current privacy laws are not strong enough 
to ensure that this new technology will be used responsibly and 
consistently with constitutional protections against unchecked 
government scrutiny embodied in the Fourth Amendment.
    At the same time, many prospective uses of drone aircraft--
newsgathering, search and rescue, fighting wildfires--are beneficial 
and some are constitutionally protected. We must respect the long held 
First Amendment rights of freedom of speech and of the press in any 
regulation of the private use of drones. This statement explores the 
variety of issues surrounding the measures that Congress can take to 
safeguard Americans' constitutional values in the coming world of 
drones.
II. The Technology
    There are hundreds of different types of Unmanned Aerial Vehicles 
(UAVs), as drones are formally known. They can be as large as 
commercial aircraft or as small as hummingbirds, and include human 
remotely guided aircraft as well as autonomous, self-guided vehicles. 
They include:

  <bullet> Large fixed-wing aircraft. The largest drones currently in 
        use, such as the Israeli-made Eitan, are about the size of a 
        Boeing 737 jetliner. The Eitan's wingspan is 86 feet, and it 
        can stay aloft for 20 hours and reach an altitude of 40,000 
        feet.\2\ In Pakistan and Afghanistan, the U.S. military and CIA 
        deploy Predators and Reapers armed with surveillance capability 
        as well as missiles capable of destroying a moving vehicle from 
        thousands of feet in the air.\3\
---------------------------------------------------------------------------
    \2\ ``Israel unveils world's largest UAV,'' Homeland Security 
Newswire, Feb. 23, 2010, online at http://homelandsecuritynewswire.com/
israel-unveils-worlds-largest-uav.
    \3\ Yochi J. Dreazen, ``From Pakistan, With Love: The technology 
used to monitor the skies over Waziristan is coming to your hometown,'' 
National Journal, March 13, 2011, online at http://
www.nationaljournal.com/magazine/drones-may-be-coming-to-your-hometown-
20110313.

  <bullet> Small fixed-wing aircraft. Smaller fixed-wing aircraft are 
        the current favorite for domestic deployment. The Houston 
        police department, for example, recently tested the ScanEagle, 
        made by Boeing subsidiary Insitu.\4\ The ScanEagle is 5 \1/2\ 
        feet long with a wingspan of 10 feet, and it can climb to 
        19,500 feet and stay aloft for more than 24 hours.\5\
---------------------------------------------------------------------------
    \4\ Stephen Dean, ``Police line up to use drones on patrol after 
Houston secret test,'' Houston Examiner, Jan. 11, 2010, online at 
http://www.examiner.com/page-one-in-houston/police-line-up-to-use-
drones-on-patrol-after-houston-secret-test.
    \5\ Insitu, ScanEagle brochure, online at http://www.insitu.com/
systems/scaneagle

  <bullet> Backpack craft. Another class of craft is designed to be 
        carried and operated by a single person. The hand-launched 
        AeroVironment Raven, for example, weighs 4 pounds, has a 
        wingspan of 4.5 feet and a length of 3 feet, can fly up to 
        14,000 feet and stay aloft for up to 110 minutes. Individual 
        hobbyists have also built a number of drones in this size 
        range.\6\
---------------------------------------------------------------------------
    \6\ AeroVironment brochure, online at http://www.avinc.com/
downloads/Raven_Domestic
_1210.pdf; AeroVironment web page on the Wasp at http://www.avinc.com/
uas/small_uas/wasp/; Carrie Kahn, ``It's A Bird! It's A Plane! It's A 
Drone!'' National Public Radio, March 14, 2011, online at http://
www.npr.org/2011/03/14/134533552/its-a-bird-its-a-plane-its-a-drone; 
``Drones on the home front,'' Washington Post, Jan. 23, 2011, online at 
http://www.washingtonpost.com/wp-srv/special/nation/drone-gallery/

  <bullet> Hummingbirds. A tiny drone called the Nano Hummingbird was 
        developed for the Pentagon's Defense Advanced Research Projects 
        Agency (DARPA) by AeroVironment. Intended for stealth 
        surveillance, it can fly up to 11 miles per hour and can hover, 
        fly sideways, backwards and forwards, for about 8 minutes. It 
        has a wingspan of 6.5 inches and weighs only 19 grams--less 
        than a single AA battery.\7\
---------------------------------------------------------------------------
    \7\ W.J. Hennigan, ``It's a bird! It's a spy! It's both,'' Los 
Angeles Times, Feb. 17, 2011, online at http://articles.latimes.com/
2011/feb/17/business/la-fi-hummingbird-drone-20110217.

  <bullet> Blimps. Some blimps are envisioned as high-altitude craft, 
        up to 300 feet in diameter, that would compete with satellites, 
        while others would be low-altitude craft that would allow the 
        police to monitor the streets. Supporters say they are more 
        cost-effective than other craft due to their ability to stay 
        aloft for extended periods.\8\
---------------------------------------------------------------------------
    \8\ On high-altitude blimps see Elliott Minor, ``Interest Growing 
in `Security' Blimps,'' Associated Press, April 27, 2004, available 
online at http://www.rustysforum.com/cgi-bin/domains/com/
rustysforum/frc_bb/ultimatebb.cgi?ubb=next_topic&f=1&t=000807&go=older; 
on low-altitude blimps see e.g., James Nelson, ``Utah city may use 
blimp as anti-crime spy in the sky,'' Reuters, Jan. 16, 2011, online at 
http://www.reuters.com/article/2011/01/16/us-crime-blimp-utah-
idUSTRE70F1DJ20110116.
---------------------------------------------------------------------------
Drone Capabilities--Today and in the Future
    The aircraft themselves are steadily improving and, as with so many 
technologies, that is almost certain to continue. They are becoming 
smaller. The military and law enforcement are keenly interested in 
developing small drones, which have the advantages of being versatile, 
relatively cheap to buy and maintain, and in some cases so small and 
quiet that they will escape notice.\9\ They are also becoming cheaper. 
The amazing continual decreases in the prices of electronics that have 
become normal in our time all but guarantee that the surveillance 
technologies attached to drones will become less expensive and yet more 
powerful--and with mass production, the aircraft that carry those 
electronics will become inexpensive enough for a police department or 
commercial entity to fill the skies over a town with them.
---------------------------------------------------------------------------
    \9\ W.J. Hennigan, ``It's a bird! It's a spy! It's both,'' Los 
Angeles Times, Feb. 17, 2011, online at http://articles.latimes.com/
2011/feb/17/business/la-fi-hummingbird-drone-20110217.
---------------------------------------------------------------------------
    Drones are also becoming smarter. Artificial intelligence advances 
will likely help drones carry out a variety of missions. Korean 
researchers, for example, are working to teach robots how to hide from 
and sneak up upon a subject.\10\ Recently, Amazon CEO Jeff Bezos 
revealed the company's plans to create an automated drone delivery 
service.\11\ Drones will also have better staying power, with a greater 
ability to stay aloft for longer periods of time. Mechanisms for 
increasing time aloft could include solar power, or the use of blimps 
or gliders.\12\
---------------------------------------------------------------------------
    \10\ M. Ryan Calo, ``Robots and Privacy,'' April 2010, online at 
http://ssrn.com/abstract=1599189.
    \11\ Amazon Prime Air: Jeff Bezos talks drones as future of 
delivery, KABC News, Dec. 2, 2013, http://abclocal.go.com/kabc/
story?section=news/business&id=9345953
    \12\ ``Gliders Emerge As Surveillance UAVs,'' Aviation Week, June 
8, 2010, online at http://www.aviationweek.com/aw/generic/
story_generic.jsp?topicName=ila_2010&id=news/awx/20
10/06/08/awx_06_08_2010_p0-232627.xml; James Nelson, ``Utah city may 
use blimp as anti-crime spy in the sky,'' Reuters, Jan. 16, 2011, 
online at http://www.reuters.com/article/2011/01/16/us-crime-blimp-
utah-idUSTRE70F1DJ20110116; Ned Smith, ``Solar-powered UAV can stay 
aloft 5 years,'' TechNewsDaily, Sept. 22, 2010, online at http://
www.msnbc.msn.com/
id/39313306/ns/technology_and_science-tech_and_gadgets/t/solar-powered-
uav-can-stay-aloft-years.
---------------------------------------------------------------------------
    Although the primary users of drones so far has been the military 
and CIA, even on overseas battlefields their most frequent use is 
surveillance. Some of the larger drones can be fitted with weapons or 
other heavy payloads, but all of them can carry cameras and other 
imaging technologies that have developed amazing capabilities in recent 
years and are likely to become even more capable in the near future.
    Except for possibly the very lightest craft, drones can carry the 
full range of advanced surveillance technologies that have been 
developed--and are likely to be developed. Drones will certainly have 
capacity to gather more and better information than the unaided human 
eye through the use of high powered zoom lens, infrared and ultraviolet 
imaging and perhaps even technology that allows for see-through 
imaging.\13\
---------------------------------------------------------------------------
    \13\ See e.g., William Saletan, ``Nowhere To Hide,'' Slate.com, 
Sept. 17, 2008, online at http://
www.slate.com/articles/health_and_science/human_nature/2008/09/
nowhere_to_hide
.html Greg Miller and Julian E. Barnes, ``Special drones pursue 
militias,'' Los Angeles Times, Sept. 12, 2008, online at http://
articles.latimes.com/2008/sep/12/world/fg-pakistan12.
---------------------------------------------------------------------------
    This capacity will extend not just to collection of information but 
also analytics as this field seeks to apply artificial intelligence 
techniques not just to collect but also to ``watch'' video. One of the 
most significant uses would be to continually track individuals or 
vehicles as they move about, using face recognition or other bodily 
characteristics.\14\ It might also be used to identify particular 
movement patterns as ``suspicious,'' or to identify and flag changes in 
routines, buildings or grounds.\15\ Computers performing these tasks 
have a distinct advantage over human observers, because as one observer 
summed it up, ``machines do not blink or forget. They are tireless 
assistants.'' \16\
---------------------------------------------------------------------------
    \14\ Noah Shachtman, ``Army Tracking Plan: Drones That Never Forget 
a Face,'' Wired.com, Sept. 28, 2011, online at http://www.wired.com/
dangerroom/2011/09/drones-never-forget-a-face/.
    \15\ On change detection, see Sandia National Laboratories, 
``Synthetic Aperture Radar Applications,'' undated, online at http://
www.sandia.gov/radar/sarapps.html.
    \16\ Steve Lohr, ``Computers That See You and Keep Watch Over 
You,'' New York Times, Jan. 1, 2011, online at http://www.nytimes.com/
2011/01/02/science/02see.html.
---------------------------------------------------------------------------
    The PBS series NOVA, ``Rise of the Drones,'' recently aired a 
segment detailing the capabilities of a powerful aerial surveillance 
system known as ARGUS-IS. This system, which includes a super-high, 1.8 
gigapixel resolution camera mounted on a drone, demonstrates many of 
these capacities. The system is capable of high-resolution monitoring 
and recording of an entire city. To witness a demonstration of this 
capacity, please see: http://www.youtube.com/
watch?feature=player_embedded&v=
13BahrdkMU8
IV. Drone Use: Harms and Benefits
    Drones are a powerful new technology which may have deep and 
lasting impacts on American life. On one hand, they raise the prospect 
of a significant new avenue for surveillance. The prospect of routine 
aerial surveillance is on the near horizon and would profoundly change 
the character of public life in the United States. It could, if 
unchecked by appropriate legal protections, bring our country a large 
step closer to a ``surveillance society'' in which every move is 
monitored, tracked, recorded, and scrutinized by the authorities.
    At the same time, there are potential positive uses of drones, such 
as drone-based photography for applications like newsgathering, art and 
government accountability. Much as the inclusion of digital cameras 
into smartphones has revolutionized things like citizen journalism and 
the ability of Americans to document police abuse, the availability of 
cheap, unobtrusive drones may allow improvements to civil liberties and 
other areas of American life. Given this reality, what are the dangers 
and what are the benefits of drone use?
a. Harms
    The reasons for concern reach across a number of different 
dimensions:

  <bullet> Chilling effects. What would be the effect on our public 
        spaces, and our society as a whole, if everyone felt the keen 
        eye of the government or corporate surveillance whenever they 
        ventured outdoors? Psychologists have repeatedly found that 
        people who are being observed tend to behave differently, and 
        make different decisions, than when they are not being watched. 
        This effect is so great that a recent study found that ``merely 
        hanging up posters of staring human eyes is enough to 
        significantly change people's behavior.'' \17\ Will the noise 
        associated with drone operation become an unconscious signal to 
        Americans that they are being watched?
---------------------------------------------------------------------------
    \17\ Sander van der Linden, ``How the Illusion of Being Observed 
Can Make You a Better Person,'' Scientific American, May 3, 2011, 
online at http://www.scientificamerican.com/article
.cfm?id=how-the-illusion-of-being-observed-can-make-you-better-person; 
M. Ryan Calo, ``People Can Be So Fake: A New Dimension to Privacy and 
Technology Scholarship,'' 114 Penn St. L. Rev. 809, online at http://
www.pennstatelawreview.org/articles/114/114%20Penn%20St.%20L
.%20Rev.%20809.pdf.

  <bullet> Voyeurism. The widespread use of video surveillance has 
        revealed how susceptible this technology can be to individual 
        abuse, including voyeurism. In 2004, a couple making love on a 
        dark nighttime rooftop balcony, where they had every reason to 
        expect they enjoyed privacy, were filmed for nearly four 
        minutes by a New York police helicopter using night vision. 
        This is the kind of abuse that could become commonplace if 
        drone technology enters widespread use. (Rather than apologize, 
        NYPD officials flatly denied that this filming constituted an 
        abuse, telling a television reporter, ``this is what police in 
        helicopters are supposed to do, check out people to make sure 
        no one is. . .doing anything illegal'').\18\
---------------------------------------------------------------------------
    \18\ ``Did NYPD Cameras Invade A Couple's Privacy?'' WCBS-TV 
report, Feb. 24, 2005, video no longer available online; Jim Dwyer, 
``Police Video Caught a Couple's Intimate Moment on a Manhattan 
Rooftop,'' New York Times, Dec. 22, 2005, online at http://
www.nytimes.com/2005/12/22/nyregion/22rooftop.html.

  <bullet> Mission creep. Even where drones are being envisioned for 
        positive uses, such as search and rescue, fighting wildfires, 
        and in dangerous tactical police operations, they are likely to 
        be quickly embraced by law enforcement around the Nation for 
        other, more controversial purposes. The Department of Homeland 
        Security (DHS) uses drone surveillance as part of its border 
        security mission. However, over the last three years there has 
        also been an eight-fold increase in the `lending' of those 
        drones to federal, state, and local police for other law 
        enforcement.\19\ Further, as drones become more commonplace in 
        the private sector, there will be an increased appetite to 
        access that footage for law enforcement and other government 
        use. The ACLU has written extensively about this problem of 
        government and private sector surveillance partnerships in 
        other contexts.\20\
---------------------------------------------------------------------------
    \19\ Jennifer Lynch, ``Customs & Border Protection Logged Eight-
Fold Increase in Drone Surveillance for Other Agencies,'' Electronic 
Frontier Foundation, July 3, 2013, online at: https://www.eff.org/
deeplinks/2013/07/customs-border-protection-significantly-increases-
drone-surveillance-other
    \20\ ACLU Report, ``Surveillance-Industrial Complex.'' Online at 
https://www.aclu.org/files/FilesPDFs/surveillance_report.pdf

  <bullet> Abuse. The individuals operating surveillance systems bring 
        to the job all their existing prejudices and biases. In Great 
        Britain, camera operators have been found to focus 
        disproportionately on people of color. According to a 
        sociological study of how the systems were operated, ``Black 
        people were between one-and-a-half and two-and-a-half times 
        more likely to be surveilled than one would expect from their 
        presence in the population.'' \21\ In addition, sometimes bad 
        policies are set at the top, and an entire law enforcement 
        agency is turned toward abusive ends. During the labor, civil 
        rights, and anti-Vietnam war movements of the 20th century, the 
        FBI and other security agencies engaged in systematic illegal 
        behavior against those challenging the status quo. And once 
        again today we are seeing an upsurge in spying against peaceful 
        political protesters across America.\22\
---------------------------------------------------------------------------
    \21\ Clive Norris and Gary Armstrong, ``The Unforgiving Eye: CCTV 
Surveillance in Public Spaces,'' Centre for Criminology and Criminal 
Justice at Hull University, 1997.
    \22\ See ACLU ``Spyfiles'' website at www.aclu.org/spyfiles.

  <bullet> Tracking. The Justice Department currently claims the 
        authority to monitor Americans' comings and goings using cell 
        phone and GPS tracking devices--under uncertain legal 
        standards. Fleets of drones, interconnected and augmented with 
        analytics software, could enable the mass tracking of vehicles 
---------------------------------------------------------------------------
        and pedestrians around a wide area.

  <bullet> Automated enforcement. Drones are part of a trend toward 
        automated law enforcement, in which cameras and other 
        technologies are used to mete out justice with little or no 
        human intervention. This trend raises a variety of concerns, 
        such as the fact that computers lack the judgment to evaluate 
        the circumstances surrounding a supposed violation fairly, and 
        may be susceptible to bugs and other software errors, or simply 
        are not programmed to encapsulate the state of the law as 
        passed by legislatures fairly and properly.\23\
---------------------------------------------------------------------------
    \23\ Danielle Keats Citron, ``Technological Due Process,'' 85 
Washington University Law Review 1249 (2008), online at http://
digitalcommons.law.wustl.edu/lawreview/vol85/iss6/2/
---------------------------------------------------------------------------
b. Benefits
    In turn, while recognizing and seeking to curb the damaging effects 
of drones, we must also safeguard the areas where drones can bring 
positive developments to American life:

  <bullet> Newsgathering. A journalist in Turkey used to a drone to 
        record demonstrations in a public park and another in South 
        Africa used a drone to capture ``aerial shots of intense 
        activity around the hospital'' where Nelson Mandela was being 
        treated.\24\ Formal news media organizations may also use 
        drones to cover more news events, at lower costs, through what 
        is being called drone-based-journalism. A Drone Journalism Lab 
        has already been created with the support of the University of 
        Nebraska-Lincoln.\25\
---------------------------------------------------------------------------
    \24\ Mickey H. Osterreicher, Use of Unmanned Aerial Vehicles in 
Newsgathering, The Sky's the Limit--Or is it?,'' Media Law Resources 
Center.
    \25\ Duncan Jefferies, ``Drone journalism set for takeoff--once 
they're permitted to use our airspace,'' The Guardian, Oct. 29, 2012, 
online at http://www.theguardian.com/media-network/
media-network-blog/2012/oct/29/drone-journalism-take-off

  <bullet> Filmmaking. Drones can give filmmakers new vantage points to 
        film or inexpensive methods to gather footage. For example, a 
        drone helped one filmmaker capture the Gettysburg battlefield 
        for a Civil War documentary \26\ and another take beautiful 
        video of an anonymous skateboarder in Prague.\27\ Similarly, a 
        local bank used footage filmed from a drone to help with 
        security and employee training.\28\
---------------------------------------------------------------------------
    \26\ Osterreicher.
    \27\ Alessandra Ram, ``Drone's Eye View: An Eerily Beautiful Skate 
Video Over the Streets of Prague,'' The Atlantic, Dec. 12, 2012, 
online: http://www.theatlantic.com/video/archive/
2012/12/drones-eye-view-an-eerily-beautiful-skate-video-over-the-
streets-of-prague/266106/
    \28\ Osterreicher.

  <bullet> Government Accountability. During the Occupy Wall Street 
        protests in 2011, activist-blogger Tim Pool modified the $300 
        Parrot AR Drone to create ``Occucopter'', which provided live 
        feeds of the Occupy protests that were broadcast on 
        UStream.\29\ The right of citizens to record the police is a 
        critical check and balance. It creates an independent record of 
        what took place in a particular incident, free from accusations 
        of bias, lying or faulty memory. Visual evidence of police 
        activity has often been crucial in investigating and reigning 
        in police misconduct.\30\
---------------------------------------------------------------------------
    \29\ Keith Wagstaff, ``Occupy Wall Street's New Drone: The 
Occucopter,'' Time, Dec 21, 2011, online at http://techland.time.com/
2011/12/21/occupy-wall-streets-new-drone-the-occucopter/
    \30\ Jay Stanley, ``You Have Every Right to Photograph That Cop,'' 
ACLU, Sept. 7, 2011, online at https://www.aclu.org/free-speech/you-
have-every-right-photograph-cop

    We can achieve meaningful privacy protections while still enjoying 
the benefits of drone technology. Many of the clearest benefits of 
drone use are either protected by the First Amendment or do not need to 
involve the collection of personal information while the greatest 
abuses can be stemmed by strong statutory, judicial and institutional 
controls.
V. Existing Legal Protections
    In order to consider how to best strike this balance, we must first 
review the applicable law. The following two sections address the 
current legal regimes impacting drone use and provide our 
recommendations for improving privacy and safeguarding free speech when 
regulating drone technology.
a. Fourth Amendment
    As described above, many of the most significant potential harms 
from unchecked use of drones come from the government. Unfortunately, 
we won't know for many years whether the constitutional protections 
enshrined in the Fourth Amendment will be able to provide meaningful 
protections against abuse. There are no Supreme Court cases ruling on 
drones although the court has allowed some warrantless aerial 
surveillance from manned aircraft. In the 1986 decision California v. 
Ciraolo, the Supreme Court focused on whether an individual has a 
privacy interest in being free from aerial surveillance of his 
backyard. In spite of the defendant's high fence the court stated there 
was not a privacy intrusion because ``[a]ny member of the public flying 
in this airspace who glanced down could have seen everything that these 
officers observed.'' \31\
---------------------------------------------------------------------------
    \31\ California v. Ciraolo, 476 U.S. 207 (1986).
---------------------------------------------------------------------------
    Similarly in Dow Chemical Co. v. United States, the Supreme Court 
held that a precision aerial mapping camera taking photographs of a 
chemical plant was simply conventional photography and ``not so 
revealing of intimate details as to raise constitutional concerns.'' 
\32\ In Florida v. Riley, the court authorized a search where a police 
officer flew over a greenhouse and spotted marijuana through a broken 
pane in a greenhouse roof.\33\ Unsurprisingly, many law enforcement 
agencies, including the FBI, read this case law as granting them almost 
unfettered authority to collect information using drones.\34\
---------------------------------------------------------------------------
    \32\ Dow Chemical Co. v. United States, 476 U.S. 227 (1986).
    \33\ Florida v. Riley, 488 U.S. 445 (1989).
    \34\ Nabiha Syed, ``Why the FBI Thinks Warrantless Drone 
Surveillance is Constitutional,'' Slate, Dec. 17, 2013, online at: 
http://www.slate.com/blogs/future_tense/2013/12/17/fbi_
slideshow_explains_why_it_thinks_warantless_drone_surveillance_is_consti
tutional
.html
---------------------------------------------------------------------------
    On the other hand, in a recent decision in U.S. v. Jones, a 
concurrence joined by five justices held that ubiquitous, long term 
tracking of an individual raised constitutional concerns. Five justices 
in that case agreed that ``the use of longer term GPS monitoring in 
investigations of most offenses impinges on expectations of privacy. 
For such offenses, society's expectation has been that law enforcement 
agents and others would not--and indeed, in the main, simply could 
not--secretly monitor and catalogue every single movement of an 
individual's car for a very long period.'' While this case involved 
tracking through a GPS device, the underlying reasoning could well 
apply to drone technology. As drone technology becomes more prevalent, 
it is easy to imagine a future where cataloguing an individual's 
movement on the public streets is a reality. A robust interpretation of 
Jones is critical to protecting American's privacy and modernizing the 
Fourth Amendment. But whatever the Supreme Court eventually decides, it 
is clear the technology is moving far more rapidly than Fourth 
Amendment jurisprudence.
b. First Amendment
    In addition to the Fourth Amendment and other privacy rights, 
several Federal courts have relied on free speech analysis in holding 
that taking photographs of things that are plainly visible from public 
spaces is a constitutional right protected by the First Amendment.\35\ 
This right adheres regardless of whether the photographer is a member 
of the traditional media, and we believe that the growth of citizen 
journalists and maturation of photographic technologies require strict 
First Amendment protections for all photographers, be they reporters, 
concerned citizens, protesters or artists.\36\ Furthermore, the 
technology used to gather this information--be it a high resolution 
handheld camera or a drone--does not and should not reduce these 
protections. As a result, any restrictions on private drone photography 
must comport with the requirements of the First Amendment.
---------------------------------------------------------------------------
    \35\ See Iacobucci v. Boulter, 193 F.3d 14, 25 (1st Cir. 1999) 
(holding that plaintiff's activities involved ``the exercise of his 
First Amendment rights'' when he took video of government official 
following a public meeting and was subsequently arrested); Fordyce v. 
City of Seattle, 55 F.3d 436 (9th Cir. 1995) (sustaining cause of 
action against police officer for assaulting photographer filming 
political demonstration under First Amendment); Smith v. City of 
Cumming, 212 F.3d 1332, 1333 (11th Cir. 2000) (find a First Amendment 
right, subject to reasonable time, manner and place restrictions, to 
photograph or videotape police conduct.'').
    \36\ See, e.g., Glik v. Cunniffe, 655 F.3d 78, 82 (1st Cir. 2011) 
(holding that ``[i]t is firmly established that the First Amendment's 
aegis extends further than the text's proscription on laws `abridging 
the freedom of speech, or of the press,' and encompasses a range of 
conduct related to the gathering and dissemination of information'' 
(collecting cases); Pomykacz v. Borough of W. Wildwood, 438 F. Supp. 2d 
504, 513 (D.N.J. 2006) (holding that citizen activism including 
monitoring and photographing of police officers is ``clearly protected 
by the First Amendment'').
---------------------------------------------------------------------------
    As a general matter, the government is not forbidden from 
regulating drone use, including drone photography, so long as drone 
restrictions are not aimed at expressive activity. With respect to 
newsgathering, and although courts should generally tread lightly to 
avoid First Amendment problems, journalists of all stripes enjoy no 
special immunity from laws of general applicability like antitrust, 
copyright or the rules of the air.\37\
---------------------------------------------------------------------------
    \37\ Cohen v. Cowles Media Co., 501 U.S. 663 (1991).
---------------------------------------------------------------------------
    Because laws on expressive activity must be carefully tailored to 
important government interests, any restrictions on drones' ability to 
access or record publicly-viewable matter should only be enacted in 
response to well understood and articulated privacy harms and narrowly 
crafted to the greatest extent possible toward those important public 
purposes. Additionally, if any regulation targets only certain speakers 
or viewpoints, it will be subject to the highest level of 
constitutional scrutiny and will likely be deemed unconstitutional 
under the First Amendment. In other words, if only specific types of 
photography are allowed, such as for scientific research or police 
search and rescue missions, but others like commercial photojournalism 
are barred, this will trigger strict scrutiny by the courts.\38\
---------------------------------------------------------------------------
    \38\ Texas v. Johnson, 491 U.S. 397 (1989)
---------------------------------------------------------------------------
    In sum, Congress may enact reasonable, neutral rules for the use of 
drones that are connected to particular privacy harms but may not favor 
particular types of drone photography over others.
c. Federal Aviation Administration (FAA) regulation
    At least one agency, the FAA, has already begun to craft such 
neutral rules. The FAA Modernization and Reform Act of 2012 requires 
the FAA to integrate drones into the national airspace by the end of 
2015. As the FAA has recently acknowledged, privacy needs to be part of 
that process.\39\ The FAA has determined that the best avenue to 
develop privacy protection is by integrating their development with the 
agency's existing mandate to choose six test sites, each for five 
years, for drone research.\40\ These test sites are ``defined 
geographic area[s] where research and development are conducted.'' \41\
---------------------------------------------------------------------------
    \39\ Department of Transportation. Unmanned Aircraft Systems 
Comprehensive Plan: A Report on the Nation's UAS Path Forward. Sept. 
2013, pg 7, online at: http://www.faa.gov/about/of
fice_org/headquarters_offices/agi/reports/media/
UAS_Comprehensive_Plan.pdf
    \40\ ``Not later than 180 days after the date of enactment of this 
Act, the Administrator shall establish a program to integrate unmanned 
aircraft systems into the national airspace system at 6 test ranges. 
The program shall terminate 5 years after the date of enactment of this 
Act.'' FAA Modernization and Reform Act of 2012, Pub. L. No. 112-95, 
Sec. 332(c)(1), 126 Stat 11 (2012). The six entities chosen as test 
sites are the University of Alaska, State of Nevada, New York's 
Griffiss International Airport, North Dakota Department of Commerce, 
Texas A&M University--Corpus Christi, and Virginia Polytechnic 
Institute and State University (Virginia Tech).
    \41\ Id. at Sec. 331(7).
---------------------------------------------------------------------------
    Accordingly, the FAA has created the following privacy requirements 
for each test site operator:

  1.  Maintain and update a publicly available privacy policy which 
        governs all drone operators;

  2.  Create a mechanism to receive public comment on its policy;

  3.  Conduct an annual audit of test site operations and assure that 
        all operators are compliant;

  4.  Comply with all applicable privacy law; and

  5.  Require all drone operators to have a written plan for retention 
        and use of data collected.\42\
---------------------------------------------------------------------------
    \42\ 78 Fed. Reg. 68360.

    The agency's goal with these regulations is not only to govern test 
site operators but also provide an ``opportunity for development and 
demonstration by the test site operators and users of policies and 
operating approaches that would address both drone operator mission 
needs and related individual privacy concerns. The lessons learned and 
best practices established at the test sites may be applied more 
generally to protect privacy in UAS operations throughout the NAS. 
[National Airspace]'' \43\
---------------------------------------------------------------------------
    \43\ Unmanned Aircraft Systems Comprehensive Plan, Pg 7.
---------------------------------------------------------------------------
d. Tort and Peeping Tom Laws
    In addition to the protections of the Fourth Amendment and rules 
promulgated by the FAA, state and Federal statutory laws and common law 
also protect individual privacy rights and apply to the use of drones.
    Modern tort law recognizes four torts--the legal term for injury to 
a plaintiff for which they are entitled relief--relating to 
privacy.\44\ The most relevant for a discussion of drones is for harms 
relating to ``intrusion upon seclusion'' which has been adopted by all 
but two states.\45\ It is described by the Second Restatement of Torts 
as ``one who intentionally intrudes, physically or otherwise, upon the 
solitude or seclusion of another or his private affairs or concerns.'' 
This invasion must be ``highly offensive to a reasonable person.'' The 
Restatement states that this tort applies to ``use of the defendant's 
senses, with or without mechanical aids, to oversee or overhear the 
plaintiff's private affairs, as by looking into his upstairs windows 
with binoculars or tapping his telephone wires'' \46\ Any invasion 
under this standard must be ``outrageous to a person of ordinary 
sensibilities'' and objectively offensive.\47\ As a general matter, 
claims are more likely to be successful if the intrusion is into the 
home and less so when it takes place in public.\48\
---------------------------------------------------------------------------
    \44\ The full list is:
        1. Intrusion upon the plaintiff's seclusion or solitude, or 
into his private affairs.
        2. Public disclosure of embarrassing private facts about the 
plaintiff.
        3. Publicity which places the plaintiff in a false light in the 
public eye.
        4. Appropriation, for the defendant's advantage, of the 
plaintiff's name or likeness.
    \45\ Alissa Dolan and Richard Thompson II, .U.S. Congressional 
Research Service. Integration of Drones into Domestic Airspace: 
Selected Legal Issues (7-5700; April 4, 2013), online at: http://
www.fas.org/sgp/crs/natsec/R42940.pdf North Dakota and Wyoming are the 
two states that have not adopted the tort.
    \46\ REST 2d TORTS Sec. 652B
    \47\ David A. Elder, Privacy Torts, June 2013.
    \48\ CRS Report, Integration of Drones into Domestic Airspace.
---------------------------------------------------------------------------
    Two other connected tort claims that an individual monitored by a 
drone flight could claim would be trespass--accessing private 
property--and nuisance--interfering with the use and enjoyment of an 
individual's land. While the common law rule that a property owner owns 
their land ``to the heavens'' has largely eroded over the last century, 
these two torts may still apply to drone flights. According to the 
Second Restatement on Torts, trespass includes ``flight by aircraft in 
the airspace above the land of another is a trespass if, but only if, 
(a) it enters into the immediate reaches of the airspace next to the 
land, and (b) it interferes substantially with the other's use and 
enjoyment of his land.'' \49\ The Restatement suggests immediate 
reaches of airspace includes those under 500 feet. That is airspace 
where at least some drone flight is likely to take place. Nuisance 
claims are similar. They are also based on interference with an owner's 
enjoyment of their land but do not require actual occupation of the 
owner's airspace.\50\ Nuisance and some intrusions on seclusion claims 
(most notably those that do not involve a physical invasion) may in 
some cases implicate other First Amendment protected activities.
---------------------------------------------------------------------------
    \49\ REST 2d TORTS Sec. 159.
    \50\ REST 2d TORTS Sec. 821D.
---------------------------------------------------------------------------
    State and Federal laws also criminalize a variety of privacy 
invasions, typically referred to as peeping tom laws. For example under 
Federal law there is a one year criminal penalty for capturing an image 
of a ``private area of an individual'' without their consent in a 
circumstance where the individual has a reasonable expectation of 
privacy.\51\ This law only applies on Federal property. States laws 
vary in definitions and details but tend to have a similar focus, 
criminalizing viewing or capturing an image of someone who is undressed 
or partially dressed when they have a reasonable expectation of 
privacy.\52\ These state laws sometimes contain exceptions for when the 
viewing or filming conducted by law enforcement.
---------------------------------------------------------------------------
    \51\ 18 U.S.C. Sec. 1801.
    \52\ A list of state laws compiled by the National District 
Attorneys Association can be found here: http://www.ndaa.org/pdf/
voyeurism_statutes_mar_09.pdf
---------------------------------------------------------------------------
e. State Drone Legislation
    Finally, state legislatures are already responding to the need to 
safeguard against drone surveillance. According to the National 
Conference of State Legislatures, ``in 2013, 43 states introduced 118 
bills and resolutions concerning drone issues. So far, 16 bills have 
been enacted in 13 states and 14 resolutions have been adopted in 10 
states.'' \53\ These piece of legislation are too many and varied to 
summarize here but the vast majority of these bills are focused 
squarely on privacy issues associated with drone use.
---------------------------------------------------------------------------
    \53\ National Conference of State Legislatures, 2013 Unmanned 
Aircraft Systems (UAS) Legislation, http://www.ncsl.org/issues-
research/justice/unmanned-aerial-vehicles.aspx
---------------------------------------------------------------------------
VI. ACLU Recommendations
    Government and private sector drone use operate under different 
legal frameworks. The government currently operates with few 
restrictions and drone use represents significant potential for 
immediate harm. In the private sector, harms are also significant but 
may be buffered by additional legal protections and important 
countervailing First Amendment interests. Given that reality, the ACLU 
recommends two different responses. Congress should place immediate, 
robust restriction on the government use of drones, especially as part 
of criminal investigations, in order to prevent mass aerial 
surveillance. On the private sector side, it should take a more 
deliberate path--one that recognizes the serious privacy dangers, 
limits sharing with government, explores existing legal protections and 
actively monitors privacy rules promulgated by the FAA.
a. Government surveillance
    Drones can be an extremely powerful surveillance tool, and their 
use by law enforcement must be subject to strict limitations, as should 
all government power. In addition to the courts, Congress also has a 
duty to uphold the constitution and should enact statutory protections 
that bolster those found in the Fourth Amendment.
    At a minimum, Congress should enact the following core measures to 
ensure that this happens:

  <bullet> Usage restrictions. Drones should be subject to strict 
        regulation to ensure that their use does not eviscerate the 
        privacy that Americans have traditionally enjoyed and rightly 
        expect. Innocent Americans should not have to worry that police 
        will scrutinize their activities with drones. To this end, the 
        use of drones should be prohibited for indiscriminate mass 
        surveillance, for example, or for spying based on First 
        Amendment-protected activities. In general, drones should not 
        be deployed by the government except:

    <ctr-circle> where there are specific and articulable grounds to 
            believe that the drone will collect evidence relating to a 
            specific instance of criminal wrongdoing or, if the drone 
            will intrude upon non-public spaces, then the government 
            must first obtain a warrant based on probable cause; or

    <ctr-circle> where required for a geographically confined, time-
            limited emergency situation in which particular 
            individuals' lives are at risk, such as a fire, hostage 
            crisis, or person lost in the wilderness; or

    <ctr-circle> for reasonable non-law enforcement purposes by non-law 
            enforcement agencies, where privacy will not be 
            substantially affected, such as geological inspections or 
            environmental surveys, and where the surveillance will not 
            be used for secondary law enforcement purposes or for any 
            purpose other than the stated purpose.

  <bullet> Image retention restrictions. Images of identifiable 
        individuals captured by aerial surveillance technologies should 
        not be retained or shared unless there is reasonable suspicion 
        that the images contain evidence of criminal activity or are 
        relevant to an ongoing investigation or pending criminal trial.

  <bullet> Public notice. The policies and procedures for the use of 
        aerial surveillance technologies should be explicit and 
        written, and should be subject to public review and comment. 
        While it is legitimate for the police to keep the details of 
        particular investigations confidential, policy decisions 
        regarding overall deployment policies--including the privacy 
        trade-offs they may entail--are a public matter that should be 
        openly discussed.

  <bullet> Democratic control. Deployment and policy decisions 
        surrounding drones should be democratically decided based on 
        open information--not made on the fly by police departments 
        simply by virtue of Federal grants or other autonomous 
        purchasing decisions or departmental policy fiats.

  <bullet> Auditing and effectiveness tracking. Investments in drones 
        should only be made with a clear, systematic examination of the 
        costs and benefits involved. And if aerial surveillance 
        technology is deployed, independent audits should be put in 
        place to track the use of drones by government, so that 
        citizens and other watchdogs can tell generally how and how 
        often they are being used, whether the original rationale for 
        their deployment is met, whether they represent a worthwhile 
        public expenditure, and whether they are being used for 
        improper or expanded purposes.

  <bullet> Ban on weaponization. Weapons developed on the battlefield 
        in Iraq and Afghanistan have no place inside the U.S. The 
        national consensus on this issue is reflected by the fact that 
        the Heritage Foundation and the International Association of 
        Chiefs of Police join us in supporting sharp limits on 
        weaponized drones.\54\
---------------------------------------------------------------------------
    \54\ International Association of Chiefs of Police, Aviation 
Committee, Recommended Guidelines for the use of Unmanned Aircraft. 
August 2012, see: http://www.theiacp.org/portals/0/pdfs/
IACP_UAGuidelines.pdf; Paul Rosenzweig, Steven P. Bucci, Ph.D., Charles 
``Cully'' Stimson and James Jay Carafano, Ph.D., Drones in U.S. 
Airspace: Principles for Governance, The Heritage Foundation, September 
20, 2012, see: http://www.heritage.org/research/reports/2012/09/drones-
in-us-airspace-principles-for-governance

    Ultimately, this powerful new technology should only be used by the 
government if subject to an equally powerful framework that regulates 
its use in order to avoid abuse and invasions of privacy.
b. Commercial Drone Use
    Use of drones by the private sector also presents serious privacy 
risks, though those risks must be counterbalanced by real and important 
First Amendment values. In addition, unlike in the case of government 
drones, existing legal frameworks may provide some measure of 
protection against these dangers. As Congress and the FAA consider this 
issue, we would urge policy makers to consider several general 
propositions about the application of the First Amendment to drones, 
and particularly to aerial photography using drones:

  <bullet> As with all photography, policy makers must take care not to 
        regulate the actual expression--in this case, the photographs--
        and must focus on regulating or punishing improper uses of 
        those photographs (extortion, for instance, or infringements on 
        the right of publicity). In no case should lawmakers draft laws 
        that single out newsgathering using drones for special 
        restrictions over and above those applicable to non-
        newsgathering applications.

  <bullet> The constitutional right to photograph anything visible from 
        a public vantage point--including, and in particular, 
        government activity--must be protected. Policy makers should 
        not distinguish between amateur or professional photographers 
        in doing so.

  <bullet> Other restrictions on photographs and other information 
        taken or collected using drones should be proportionate to the 
        privacy threat represented. Existing and constitutional laws 
        punishing the inappropriate use of photographs should be 
        explored and evaluated before Congress or Federal regulators 
        issue new laws or regulations that single out drone photography 
        for special treatment.

  <bullet> Congress and Federal regulators should resist efforts to 
        expand already overbroad anti-paparazzi or anti-whistleblower 
        laws to drone photography, including so-called constructive 
        invasion of privacy torts and ``ag gag'' laws that make 
        unauthorized photography of businesses involving agricultural 
        or animal products subject to special restrictions.

    Even within these necessary restrictions, there are still some 
areas where it is already clear that legislation will be necessary. One 
immediate area of concern that will require Congressional action is the 
sharing of information between the private sector and police for the 
purposes of criminal law enforcement.
    History has demonstrated that information held by the private 
sector frequently ends up in the hands of government, often in ways 
that policy makers didn't anticipate and legal protections don't 
address. For example, while the Privacy Act of 1974 is aimed at 
regulating and safeguarding personal information held by the Federal 
government, Federal agencies now circumvent those protections by 
turning to private data brokers, whose database contains personal 
information on millions of Americans. Those entities are not regulated 
by the Privacy Act and routinely provide information that is both 
inaccurate and inaccessible to its subjects.\55\ Given the real and 
pressing problems we have already described with government drone use, 
law enforcement must not be able to avoid legal controls by accessing 
private drone footage.
---------------------------------------------------------------------------
    \55\ State of Federal Privacy and Data Security Law: Lagging Behind 
the Times? Hearing before the Subcommittee on Oversight of Government 
Management, the Federal Workforce and the District of Columbia, U.S. 
Senate, 112th Cong. (2012) (Calabrese testimony): http://www.
hsgac.senate.gov/subcommittees/oversight-of-government-management/
hearings/state-of-federal-privacy-and-data-security-law-lagging-behind-
the-times
---------------------------------------------------------------------------
    We also applaud the FAA for beginning the process of exploring 
privacy controls and its continuing commitment to using the Fair 
Information Practice Principles (FIPPs) as an appropriate framework 
making those determinations. The FIPPs are longstanding best practices 
in data collection and management. In addition to safeguarding First 
Amendment rights, here are some of the issues policy makers will likely 
need to address as they consider application of the FIPPS in this new 
area:\56\
---------------------------------------------------------------------------
    \56\ Note that, as described in section V. (c), some of these 
measures have already been adopted by the FAA for the operators of 
drone test sites.

  <bullet> Transparency: In many cases drone operators will have to 
        create and make publicly available a data collection policy 
        that explains the data that is being collected and includes a 
        catalog of any violations of the policy. In addition, the FAA 
        should explore whether technological solutions exist that would 
---------------------------------------------------------------------------
        allow the public to track the location of drone during flights.

  <bullet> Individual Participation: Community involvement is critical 
        in any drone regulation. Residents might be given an 
        opportunity to opt their property out of surveillance. If 
        personally identifiable information (PII) collected, the public 
        should have a method to redress privacy violations.

  <bullet> Purpose Specification and Use Limitations: Drones should be 
        flown only pursuant to specific, articulated purposes which are 
        made public. Use of captured data should be limited by these 
        purpose specifications and unnecessarily collected PII should 
        be deleted or obscured except for auditing purposes.\57\
---------------------------------------------------------------------------
    \57\ For example the popular Google Streetview has the capacity to 
blur the faces of individuals and license plates caught by Google's 
cameras. See Google Streetview Privacy Policy at: http://
www.google.com/intl/en_us/maps/about/behind-the-scenes/streetview/
privacy/#streetview

  <bullet> Data Quality and Integrity: Affected residents should have 
        the ability to correct inaccuracies in the PII aggregated by 
        the use of drones and that the information collected has not 
---------------------------------------------------------------------------
        been altered or destroyed in an unauthorized manner.

  <bullet> Security: Data collection statements and test plans should 
        detail the security used for communication between ground 
        stations and drones. All communications should be encrypted 
        when audiovisual content is being transmitted.

  <bullet> Accountability and Auditing: In large scale or commercial 
        drone operations, employees should be familiar with their 
        privacy policy and trained in compliance. The FAA should also 
        play an ongoing rule in this auditing and compliance.

    The specter of routine aerial surveillance in American life is on 
the near horizon--a development that would profoundly change the 
character of public life in the United States. We need a system of 
rules that complies with the First and Fourth Amendment and ensures 
that Americans can enjoy the benefits of drone technology without 
bringing our country a large step closer to a ``surveillance society'' 
in which every move is monitored, tracked, recorded, and scrutinized by 
the authorities.

    The Chairman. Thank you very much.
    We have a very full house today, which I'm very happy 
about, though I should also ask short questions, we all should. 
Just listening to the panel, Japan has been doing this for 20 
years.
    Dr. Cummings, you talked about how this has been a common 
practice in England and other places.
    And it just makes me think, did we simply avoid, Mr. 
Huerta, the possibility of these things and notice nothing when 
Japan was doing this or when England was doing this or others 
were doing this? In other words, it really raises the question, 
is the technology which we are ``going to innovate'' going to 
be any different than the technology that Yamaha and others are 
already using? If we're a growing industry, that implies that 
we're going to be discovering new things or better ways. And 
I'm not sure what your view might be on that.
    Mr. Huerta. Well, certainly this technology has been under 
development for some time and it does continue to evolve and 
evolve very quickly. Even today we don't have a full and 
complete understanding of where this might go in the future, 
and that's one of the things that presents the greatest 
opportunity, but also the greatest challenge. Japan's airspace 
is significantly less complex than we have here in the United 
States, especially at lower altitudes, primarily due to the 
fact that here in the United States we have the largest general 
aviation fleet of anywhere in the world.
    And one of the things that is important for us to take into 
consideration is, as we integrate unmanned aircraft, how do we 
ensure that we do not pose significant safety conflicts with a 
very vibrant and large general aviation industry that in many 
instances would operate within the same airspace. I do agree 
with my colleagues here at the witness table that there are 
many different technologies and they will evolve in different 
ways and that there is probably not a single regulatory or 
accommodation approach that would work for everyone, and so we 
need to consider the wide variety that we have in these 
technologies as well as how they are being incorporated for 
safety.
    The Chairman. All right. That's a good answer.
    Mr. Calabrese, I want to ask you, why is it that I tend to 
worry about, you know, Americans when we do things, we sort of 
overdo them and we produce endless amounts for endless numbers 
of corporations which want to have endless economic 
opportunities and individuals and private individuals like 
private jets. I mean, it just can be the same. While I worry 
not just about the safety factor, in other words, one running 
into another; I do worry about the privacy factor because I 
think the sense of Americans to learn about other Americans 
whether it's newspapers, television, or political opponents, or 
whatever it might be is rampant in this country, less 
controlled.
    The Brits are very accustomed to, I think, being taped 346 
times a day--videotaped. They just accept that, that's part of 
their life. It isn't part of ours. We don't think it is. What 
are just maybe a couple of things that you worry about in terms 
of privacy on heretofore unsuspecting individuals or 
corporations?
    Mr. Calabrese. Thank you, Chairman Rockefeller. You won't 
be surprised to hear me say I agree with your concern or I feel 
your concern as well. From my perspective, I was just--before 
we came to the hearing--watching footage of the ARGUS video 
camera, which is a camera that can be attached to a static 
blimp that flies very high up and can videotape simultaneously 
an area the size of a medium-sized city. So everyone in that 
city can be videotaped at one time. You can zoom in and 
identify particular individuals to the extent that you can 
literally see them move their arms on the ground.
    That person can, I could be tracked by that camera as I 
stepped out of my door, you'd know who I was because I left my 
house, I got into my car, and as I moved about my day. That 
type of detailed tracking, I think, is foreign to the American 
idea that we should essentially be left alone if we haven't 
done anything wrong. So that type of detailed and persistent 
tracking is very troubling.
    By the same token, smaller drones present the opportunity 
to peer into what are heretofore private spaces. So, you know, 
someone can be essentially followed around. Now that doesn't 
mean that we are dealing with a completely empty landscape, to 
be clear. I mean, there are peeping Tom laws. There are state 
privacy torts. So I don't think that we necessarily have to say 
that this is a blank landscape where no one's privacy can be 
protected, but those can be cumbersome methods. It can be 
difficult to find out what drone is following you or what 
they're being used for.
    So I'm really glad the Committee is discussing these 
issues. And I think that as we look at this, we're going to 
think about persistent surveillance as it happens with the 
Internet as it happens in other aspects of our lives and worry 
about what it means if it happens in our day-to-day life all 
the time when we're outside.
    The Chairman. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Huerta, do you believe the FAA will be able to meet the 
December 30, 2015, deadline for safe integration of unmanned 
aerial aircraft systems in the National Airspace System?
    Mr. Huerta. I believe that we will be able to demonstrate 
safe integration and what is required for integration of 
unmanned aircraft, but of necessity I believe it's going to be 
staged. I think that, as we were just talking about, there are 
a variety of different potential uses for these aircraft 
throughout the National Airspace System, and the aircraft have 
different characteristics and different performance 
specifications.
    A big part of what we're trying to accomplish through the 
designation of the test sites is to create a research platform 
to help us surface those questions and to deal with them in a 
common way so that we are able to prioritize and identify what 
are the things that we need to consider as we certify these 
aircraft, as we certify the operators of them, and as we 
determine how best to accomplish safe integration.
    Senator Thune. What type of data do you expect the FAA is 
going to need from those six test sites to safely advance the 
integration process? And then a follow up to that is, does the 
FAA have a mechanism in place in order to gather, store, and 
use the data that would be collected from these six test sites?
    Mr. Huerta. We're working with the test site operators to 
finalize their research plans, but in our original solicitation 
we identified a number of research areas that we wanted the 
test site operators to focus on. These include sense and avoid 
technology, which we've talked about, how do we ensure that 
these aircraft have the ability to interact with one and other. 
They also include questions that we need to consider with 
respect to certification characteristics. What is an 
appropriate level of certification based on what the aircraft 
is and how it might be used. There are also issues relating to 
how do these aircraft operate. What is their record of 
reliability in different climate conditions, in different 
geographic considerations. And hence that's why we have a very 
broad base of geographic and climatic conditions that the test 
sites represent.
    In terms of how that data is developed, each of the test 
site operators are required to present a plan to the agency of 
what data will be collected, how that data will be updated, and 
how it will be stored. And with that, the primary basis for 
doing that is to ensure that it is on public display what 
information is being developed, but it also does a great job of 
serving our research needs and providing a common understanding 
of what's out there.
    Senator Thune. And what you're talking about is the small 
UAS, correct?
    Mr. Huerta. No. This is all.
    Senator Thune. This is everything, OK.
    Mr. Huerta. This is everything.
    Senator Thune. All right.
    Mr. Huerta. The test sites, what they form is the basis and 
a platform, and, I think, a focal point for really developing a 
very focused environment in which we can do what a lot of 
people want us to do which is to give it the degree of focus in 
a structured way so that we can make balanced decisions of how 
do we accommodate these safely into our National Airspace 
System.
    Senator Thune. As we heard Mr. Arcangeli talk about the 
Yamaha RMAX aircraft and in light of the video we saw, the 
aircraft is going to be too heavy to be included in the small 
UAS rule. The reason I ask that is because most of the 
agricultural benefits that he talked about and elaborated on 
are going to be a different kind of unmanned aircraft than the 
smaller than 55-pound one that we were talking about.
    One hundred forty pounds, isn't that what you said?
    Mr. Arcangeli. That's right.
    Senator Thune. Right. So I guess the question is, do you 
envision a regulatory structure in the near future that would 
allow for commercial use of the slightly larger UASs so that 
the market potential, and I'm thinking of course with regard to 
agricultural applications, can be realized?
    Mr. Huerta. One of the things that we need to explore is 
what can we do through regulation, versus what can we do 
through Certificates of Authorization. The Certificate of 
Authorization is the process that we use now, and we deal with 
these in an experimental capacity. We recognize that that is 
not sustainable long term, because effectively what that means 
is these operations are accommodated by exception. And our goal 
is to get to integration. The regulatory process of necessity 
and by design is something that is a very deliberately and 
thoughtful process, but it also takes a lot of time.
    Finding that right balance between what we accomplish 
through regulation versus what we can continue to accommodate 
through certificates of authorization, I think, is a key part 
of what we need to do through these test sites and our ongoing 
activities.
    Senator Thune. OK. Thank you.
    Mr. Chairman, we have a lot of people here today, I yield 
back.
    The Chairman. Thank you, Ranking Member Thune.
    Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thanks for holding this hearing. I want to 
thank you for this hearing. I want to thank the witnesses also. 
This has been, I think you've got a good crew here today, 
members that are very interested in this particular topic. Some 
of you may know, but Nevada was selected as one of the six test 
sites by the FAA to integrate the UAS systems. Nevada was 
specifically chosen to test drone integration into FAA NexGen 
air traffic control system. And this makes perfect sense, 
because we are, Nevada is, the birthplace of unmanned aircraft 
system industry in this country.
    We have a skilled, experienced workforce, and we have more 
military airspace in Nevada than all other 49 states combined. 
So I appreciate the Administrator recognizing that and 
recognizing what Nevada can contribute to this. It is also 
well-suited to take on this testing, and some have projected 
that this could bring over $2 million to a struggling economy 
in Nevada and bring 12,000 to 15,000 good paying jobs, which 
certainly is appreciated.
    But however, in order for all of this to happen, we must do 
our work to make sure, as everybody here has mentioned, that 
privacy and safety concerns are met. And as drones are 
delivering packages around the country, hovering over the Las 
Vegas neighborhoods; we've received numerous concerns about 
that. So having said that, I'd like to go to Mr. Arcangeli for 
just a minute with some of your comments.
    For military purposes, commercial purposes, police purposes 
we're hearing the use of this. Why are we, frankly, 20 years 
behind? Is the reason the RMAX is cost prohibitive or is it 
overregulated? Why are we not at the forefront in the world, 
for that matter, on this issue?
    Mr. Arcangeli. You know, it's difficult for me to talk 
about all UASs. All I can really speak to at least right now is 
the RMAX. As background, the Japanese government approached 
Yamaha over 20 years ago asking the company to develop a 
product for automating precision agriculture in Japan. As a 
result, Yamaha produced the RMAX. Again, the RMAX is designed 
to be safe and efficient and help farmers be more productive 
with their farmland.
    We've expanded to other countries like Australia and Korea, 
and now we're at a point now where we'd like to enter into the 
United States. A little bit about our efforts, we have two 
research grants already, one with U.C. Davis in California and 
one with the University of Virginia where we're actively doing 
research on the applicability of the RMAX for agricultural 
purposes. And so far the results are very positive.
    Senator Heller. How expensive is the RMAX?
    Mr. Arcangeli. The RMAX costs about $100,000. The business 
model that we would look to in the United States would be very 
similar to what we do in Australia where Yamaha does not sell 
the RMAX, we actually lease the product to a company that has a 
trained pilot that, again, passes a certification exam in 
class, trained out in the field, as well as passes the Yamaha 
exam so that Yamaha will always know where the RMAX is and will 
know that it's being used only by a trained pilot who's 
operating it safely and doesn't break any privacy laws.
    Senator Heller. In your opinion, that drone that was 
outside of Senator Feinstein's window, was that a toy, or was 
that actually a drone?
    Mr. Arcangeli. You know, I can't really speak to that, all 
I know about----
    Senator Heller. I'm just asking if----
    Mr. Arcangeli.--is the RMAX, again, it's used for 
agricultural purposes, and it's very safe.
    Senator Heller. Yes.
    To the administrator, how many Certificates of 
Authorization have you provided to date?
    Mr. Huerta. In general we provide Certificate of 
Authorizations for public use and that has been the norm, 
although late last year we provided our first commercial 
authorization for unmanned aircraft use. That was for a 
surveying vehicle that was conducting surveys of the 
environment in marine mammals in the Arctic Circle area. And 
that represented an important step because it demonstrated the 
use of these for conducting site surveys as well as 
environmental and other related uses as we've been talking 
about.
    One of the things that we have to address as we're in this 
test period of time is how do we expand that ability. The test 
site platforms, each of the test sites will have a Certificate 
of Authorization so that they can conduct ongoing test 
activities, and we envision that that will serve as a focal 
point for those that want to test and evaluate the use of 
unmanned aircraft within an area that ensures its safe 
operation. And so we're negotiating with each of the successful 
proposers on the designation of the Certificates of 
Authorization.
    Senator Heller. Now real quick, Mr. Calabrese, is this a 
First Amendment issue for your group, or could it be expanded 
to a Fourth Amendment issue?
    Mr. Calabrese. It's one of those lovely areas that's both, 
Senator. There's an intersection between the Fourth and First 
Amendment. We believe that taking photographs is a First 
Amendment-protected activity, even if they are done by a drone. 
We also believe there's a significant potential intrusion that 
affects the Fourth Amendment. So we're going to have to find a 
balance there.
    Senator Heller. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Heller.
    Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thanks so much to my Chairman and Ranking 
Member for this very interesting, and the panel has been great.
    Administrator Huerta, can you tell me, is there anything 
precluding the FAA from adding privacy to the list of issues 
that will be explored at the test sites such as the one in 
Nevada and all the other sites? Is there anything precluding 
it? Right now it's not on your list of issues. Could you add 
it, or how would that happen?
    Mr. Huerta. We believe that we have added it.
    Senator Boxer. OK.
    Mr. Huerta. And that we are requiring the test site 
operators to have a plan in place and to make it available to 
the public where they will demonstrate that they, first of all, 
that they comply with Federal, state, and other laws that 
protect an individual's right to privacy.
    Senator Boxer. OK. Wait a minute. I just want to be clear 
because I don't want there to be any misunderstanding.
    Mr. Huerta. Sure.
    Senator Boxer. Safety and data gathering, aircraft 
certification, command and control issues, control station 
certification, sense and avoid technology, and environmental 
impacts are the list I've been given----
    Mr. Huerta. Sure.
    Senator Boxer.--that you have told the operators. You have 
now added to that list?
    Mr. Huerta. No. Let me be clear. The list that you have are 
the research areas within which the FAA has regulatory 
authority.
    Senator Boxer. I understand.
    Mr. Huerta. The FAA does not currently have regulatory 
authority relating to the protection of privacy.
    Senator Boxer. OK. But could you----
    Mr. Huerta. But----
    Senator Boxer.--work with agencies such as the Department 
of Justice, relevant privacy experts to add this? Because I 
think you're hearing, this is an important component.
    Mr. Huerta. No, it's an extremely important component and 
that is why on November 7, we announced and published in the 
Federal Register requirements that would apply to the six test 
sites. And there are three components to that, that the test 
sites comply with Federal, state, and other laws that protect 
an individual's right to privacy; that they have publicly 
available privacy policies and a written plan for data use and 
retention; and that they conduct an annual review of those 
public----
    Senator Boxer. OK.
    Mr. Huerta.--of those privacy policies. Each of the test 
operators will be required to have that. In addition, the FAA 
is engaged with our inner agency partners in the Federal 
Government to determine how best do we deal with this issue 
long term as we go forward.
    Senator Boxer. Let me ask you this, has the FAA done a 
survey of state laws regarding drones and privacy?
    Mr. Huerta. We have not done a survey.
    Senator Boxer. Do you plan to do that?
    Mr. Huerta. We do not plan to do that.
    Senator Boxer. OK. I think that that's important.
    Let me get to the issue of the RMAX. It's very interesting 
to me. It's a California company, but I'm also interested 
because as I listen to here, it seems to me, and I'm going to 
ask Mr. Calabrese about this, there are certain uses that don't 
seem to pose the same problems as other uses. So one of, let's 
just say the farming issue, in and of itself, if you had strict 
control over it and you've shown what it's about, it's not 
about gathering personal information, it's about taking care of 
someone's fertilizing a farm, so that's the use.
    The way we used it in California in the wind fire, as my 
good colleague explained, very important to know how that fire 
was moving. I would think that going after an active criminal 
such as someone who had kidnapped someone, these are things 
maybe you want to get a warrant for, but it seems to me, and 
I'm going to ask you, Mr. Calabrese, to comment as you look at 
this; it's kind of not a broad brush to me. It's just certain 
areas where we probably could move forward in a good way 
without too many problems.
    But I want to ask you about this farm use. So let's talk 
about Japan. Do the farmers buy it or lease the drone?
    Mr. Arcangeli. In Japan there are several business models. 
Some large farms actually own an RMAX, predominant----
    Senator Boxer. So I'm just going to be quick because I 
don't want to take too much time. So if they own the RMAX, do 
they also train someone in their operation to be the pilot or 
do they rent a pilot and how does that, and does the pilot come 
to the site or is the pilot remote?
    Mr. Arcangeli. There's always an onsite pilot.
    Senator Boxer. OK.
    Mr. Arcangeli. And the pilot will either be either employed 
by the farmer or come in and fly the product.
    Senator Boxer. So what do you envision, say in a California 
situation, they would lease it and then they'd call, they rent 
a pilot to come over and use him by the hour type of deal or 
her by the hour?
    Mr. Arcangeli. I think the best model will be where there's 
a spraying service and the spraying service comes----
    Senator Boxer. I see.
    Mr. Arcangeli.--you know, with a trained pilot and sprays 
the field and then goes on to do another one.
    Senator Boxer. And do they actually bring that drone on a 
truck and use----
    Mr. Arcangeli. Yes.
    Senator Boxer.--it? So it's not flying over to--okay.
    Mr. Arcangeli. No.
    Senator Boxer. That's important.
    Mr. Arcangeli. No.
    Senator Boxer. Mr. Calabrese, could you comment on my 
thought, which----
    Mr. Calabrese. Uh-huh.
    Senator Boxer.--just thinking out loud here, that the 
different uses cause different concerns. Do you agree with 
that?
    Mr. Calabrese. That's 100 percent correct. And I think that 
we can squeeze all the benefit out of, for example, an 
agricultural drone without any of the privacy risk. We should 
do that.
    Senator Boxer. OK.
    Mr. Calabrese. You know, but I will say one of the things 
we saw today is in the paper that Customs and Border Patrol has 
drones. It turns out that lots of other Federal agencies and 
state officials want to use those drones. And they're knocking 
on the door. And it has happened hundreds of times. So you have 
to be very careful, because if you build it, they will come.
    Senator Boxer. Right.
    Mr. Calabrese. And you have to limit it to these non-
surveillance uses so you don't end up with a place where drones 
are flying overhead and used for surveillance.
    Senator Boxer. Well, that's why I so appreciate the 
Chairman and Ranking Member for this hearing. Thank you.
    The Chairman. Thank you, Senator Boxer.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    Mr. Huerta, and all the panelists, very fascinating hearing 
and fascinating subject. We're going to need to have you back.
    We've got six test sites now, Mr. Huerta. And the next step 
is to, while those are ramping up, you're going to pick an 
academic center of excellence; is that correct?
    Mr. Huerta. That is correct.
    Senator Wicker. And how are we coming on that process? If 
you could briefly tell the Committee, how are we coming on that 
process?
    Mr. Huerta. With the test site designations out of the way, 
we are now turning our focus to the development. As we 
understand the research proposals of each of the six test site 
operators, we are now turning our focus toward developing what 
would be the agenda for a center of excellence. And we are 
expecting then to later on this year begin the process for a 
selection of a center of excellence for unmanned aircraft.
    Senator Wicker. And when do you anticipate eventually that 
center of excellence will be named?
    Mr. Huerta. I don't think we've given it a name at this 
point.
    Senator Wicker. When that----
    Mr. Huerta. Oh, when, when.
    Senator Wicker.--particular center will be chosen.
    Mr. Huerta. My apologies. If we begin the process of 
designation later on this year, probably within the next 
Federal Fiscal Year.
    Senator Wicker. OK. In looking at what other countries have 
done, have other nations gone with a test-site approach that 
we've chosen?
    Mr. Huerta. I don't believe so. I think that Congress gave 
us the direction to really look at the test sites because, 
well, my understanding was we wanted to get a full and complete 
understanding of the wide range to which these aircraft, of 
uses that these aircraft could be put to; but also how they 
operate across, you know, the huge and diverse climates and 
geography that we have in the United States. And so what 
Congress was directing us to do was to find a very broad 
platform that reflects the diversity of the country, and I 
think we have been able to do that.
    Senator Wicker. Let me just mention one concern.
    Mr. Huerta. Sure.
    Senator Wicker. Of course many states apply, perhaps most 
states, my state of Mississippi lost out in part because of a 
DOD memo that discouraged the use of DOD property, DOD special 
use airspace for these test sites. And this is really contrary 
to a history that we've had of using places like Camp Shelby 
and the Combat Readiness Training Center in Gulfport. Without 
getting into an in-depth discussion of the merits of this DOD 
policy which you relied on, will you commit to at least 
revisiting that issue with DOD and having a frank and open 
dialogue with them on this issue in case there are other 
opportunities for test sites?
    Mr. Huerta. Let me step back for a moment and talk about 
the proposals. We received 25 applications from 24 states, and 
all of the proposals were quality submissions. They were very 
carefully thought out, they had a lot of information, and it 
was very clear that all of the applicants took a great deal of 
time to really try to present to us the very best that they 
possibly could. And we did review them very, very carefully.
    We chose the six proposals based on the best mix of sites 
when we look at them both individually, but also in their----
    Senator Wicker. I'm sure you did, and the clock is ticking.
    Mr. Huerta. But just quickly, we have offered a debriefing 
to each of the test site operators, and Mississippi has 
requested one where we can talk in specific terms about their 
proposal. With respect to the complexity of working with the 
military, that is an ongoing thing that we do as we deal with 
how we share this airspace that overlies the country. And that 
will continue as we work through this for these sites and 
through in the years ahead, yes.
    Senator Wicker. Well, let's keep it ongoing then and commit 
to at least having the dialogue on that.
    Mr. Huerta. Sure.
    Senator Wicker. Mr. Calabrese, I think you're going to find 
a lot of support on both sides of the aisle for the Fourth 
Amendment and First Amendment concerns that you have. What 
recourse would Senator Feinstein have under current California 
law and what changes would you make for her specific incident 
where if that were an individual peeping Tom, clearly there 
would be consequences?
    Mr. Calabrese. Well, without speaking too specifically to 
California law because each state is a little idiosyncratic in 
this case, I will say generally she would likely have a 
recourse under a state privacy tort.
    Senator Wicker. She has already got that.
    Mr. Calabrese. She may well have that. The state privacy 
torts can be tricky. For example, there is a specific tort, 
it's called intrusion on seclusion where I peer into someone's 
private space, but that intrusion has got to be very 
heightened. In other words, it can't just be, and of course 
it's very case-by-case specific, but it may be that just seeing 
her in the window is not enough. She might have had to be 
getting dressed in the morning or something more intrusive.
    Also, she's also got to learn who operated that drone, and 
she's got to figure out some way to bring them to court. So she 
may have a recourse now under existing law, it's likely to be 
cumbersome, and it may require some additional fine-tuning in 
order to, for example, allow her to figure out who operated the 
drone.
    Senator Wicker. Could you do this for us on the record 
because my time is gone, we're fortunate to have the Bill of 
Rights in this country----
    Mr. Calabrese. Yes.
    Senator Wicker.--but could you give us the benefit of what 
other countries, perhaps further down the pike on this issue 
than us, have done with regard to privacy protections that we 
might look at as lessons learned?
    Mr. Calabrese. I would certainly be happy to do that going 
forward, sir.
    Senator Wicker. Thank you.
    The Chairman. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    There are benefits to this technology and there are going 
to be a lot of people who make a lot of money and that's great. 
It's an industry, we should be in the industry. America can do 
great. But while there are benefits to drone use, there are 
also risks of misuse. These 20th century eyes in the sky 
shouldn't become spies in the sky. And just as there are rules 
of the road, there have to be rules for the skies if we're 
going to commercialize them.
    And I believe that we can achieve both objectives, protect 
privacy and give flight to this new technology and bring jobs 
and economic growth to our country. The new technologies like 
drones are neither inherently good, nor inherently bad. It's up 
to us to animate them with the long-standing values of America 
that we have built.
    Flying and potentially spying robots sounds like science 
fiction, but they are a reality right now and the technology is 
getting cheaper and it is getting more accessible. This drone 
here has two, count them, two, independent cameras on them; and 
they can purchased online for under $100. And with an iPhone 
app you can fly this over the Capitol right now or over 
anyone's backyard to just start filming your family, filming 
anything you want and then having that.
    So that's why in the House last Congress, I introduced a 
bill and I've introduced the same bill in the Senate, by the 
way, the Drone Aircraft Privacy and Transparency Act. My bill 
requires, one, commercial drone operators to disclose what data 
is collected, how that data is used, whether the data will be 
sold, and when the data is going to be deleted; number two, law 
enforcement to obtain a warrant before using drones except in 
emergency circumstances; and three, the FAA to create a 
publicly available website that lists when and where drones fly 
so that we fill this gap that the FAA says it has that it's not 
going to do.
    And that's in our jurisdiction, and we can just pass this 
legislation and give them the authority and the mandate to do 
the job they should do.
    Mr. Calabrese, if the FAA does not incorporate any privacy 
protections into the final drone licensing process, which they 
do not plan to do and a company decides to fly a drone over my 
backyard and video me, would there be anyway for me to know it?
    Mr. Calabrese. I mean, if you see the drone.
    Senator Markey. Other than me seeing it.
    Mr. Calabrese. It's going to be tough.
    Senator Markey. The answer is no.
    Mr. Calabrese. Yes, no.
    Senator Markey. And if I look up and see a drone flying 
over my house under the FAA's current plan, is there any way I 
can find out what information that drone is collecting?
    Mr. Calabrese. Unless you track down the privacy policy 
that was described at the test site and it describes it----
    Senator Markey. And he has the information which he won't 
have----
    Mr. Calabrese. And he has--right.
    Senator Markey.--the answer is?
    Mr. Calabrese. Likely no.
    Senator Markey. No. And if that drone happened to take 
images of me in my backyard, are there any Federal laws 
requiring them to delete those pictures?
    Mr. Calabrese. There are no Federal laws.
    Senator Markey. And would I be able to find out how the 
company uses those pictures or any data that they collected of 
my family or anyone else's family if they sell that private 
information now to others?
    Mr. Calabrese. Well, I mean, again, the privacy policy may 
get into that, but you're going to have to be kind of an expert 
in order to get to that level of knowledge, and you'll have no 
way to access the specific information.
    Senator Markey. The answer is no. Would I at least be able 
to find out who owns or who is operating that drone?
    Mr. Calabrese. Not unless they put it on the side.
    Senator Markey. The answer is no. It's not their intent. So 
you're saying that without putting in place Federal drone 
privacy protections, such as the provisions in my bill, a 
company could fly something like this right over our backyards, 
and it doesn't have to be this long, yours is nine feet long, I 
appreciate that, it sounds small, it can be under a helicopter, 
this could be one-third the size of this and be flying over 
people's homes, that's how small it could be or even smaller. 
So they can collect whatever information they want, sell it to 
whoever they want, and I would never know; is that correct, Mr. 
Calabrese?
    Mr. Calabrese. Well, and just to be very fair, there are 
State laws on this. And I think that they can----
    Senator Markey. No. I'm talking about Federal. We're the 
Federal agency. How about a Federal standard here.
    Mr. Calabrese. Yes, I agree. I mean, I think there's a long 
way that we could go, the FAA could go in order to protect 
privacy and also make this work. I mean, just to give you one 
example Senator, Google Street View already has the capacity, 
we're all familiar with Street View, if you go on there and you 
see a person; their face is blurred, license plates are 
blurred. There is technology that exists to protect people's 
privacy.
    Senator Markey. Should we settle these issues before or 
after Mr. Huerta gives the authority and 15,000 of these are 
flying over the country? Should we pass a law before that or 
after that?
    Mr. Calabrese. I think before.
    Senator Markey. Should we rely upon the courts to interpret 
law that doesn't exist, or should we pass a law that's very 
clear in terms of what we want them to do?
    Mr. Calabrese. The courts are slow, and you certainly have 
an important law.
    Senator Markey. We should act. Thank you, I appreciate 
that, Mr. Calabrese. That's why we're here. That's why we stand 
outside of supermarkets and shake hands with strangers so we 
can have the job to protect the public.
    And so I guess, Mr. Huerta, what I would say to you is 
this, that would you welcome the kinds of authority which I'm 
talking about, that is inside my legislation? Would you welcome 
that authority, and would you act upon it to ensure that the 
privacy of Americans is protected?
    Mr. Huerta. The FAA's primary mission is safety.
    Senator Markey. No. If we gave you the privacy authority 
since you're the agency. HHS's principal authority is health, 
but they have to protect privacy. Securities Exchange principal 
authority is to issue securities and ensure that they're not 
traded illegally, but they also have to protect the privacy of 
Americans to make sure that their financial records are not 
compromised. You, you protect safety. If we gave you this 
privacy authority, would you implement it?
    Mr. Huerta. We would welcome the opportunity to work with 
our Federal partners on a way forward.
    Senator Markey. The good news, Mr. Chairman, is that----
    Mr. Huerta. The FAA----
    Senator Markey. The good news, Mr. Chairman, is that the 
Federal Trade Commission also has jurisdiction over privacy and 
it's also within this committee and we can give the authority 
to the Federal Trade Commission in order to make sure that we 
fill this gap to empower Americans, empower people to protect 
themselves even as this industry creates billionaires all 
across our country.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, your time was ample. You may be 
somewhat encouraged by the fact that I see no way in which the 
FAA should be given responsibility for privacy.
    Senator Markey. I've waited 2 years to hear those words 
spoken by my Chairman.
    The Chairman. It doesn't mean I'm for your bill.
    Senator Markey. Excuse me.
    The Chairman. It doesn't mean I'm for your bill. It's just 
my view.
    Senator Markey. No, I appreciate that. I appreciate that. 
But it's a good start.
    The Chairman. It is a good start, yes.
    All right. People come and people go. So Senator Cantwell--
Senator Booker and then Senator Cantwell and then Senator 
Begich and then Senator Fischer.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you so much.
    First of all with the different sites that you're testing, 
I'm very happy that one of them is in New Jersey; that's 
correct?
    Mr. Huerta. That is correct, Rutgers University in the 
state of New Jersey partnered with the Virginia Tech University 
and presented a proposal on behalf of both states.
    Senator Booker. That's fantastic. And that's, and I don't 
want to counter my colleague who said that Nevada was the first 
place for unmanned flight, but New Jersey was actually the 
first state in flight, not North Carolina because it was a 
balloon flight. The first recorded balloon flight in America 
was in New Jersey. So I just wanted to emphasize that point of 
pride.
    Mr. Huerta. Also the first air traffic control tower.
    Senator Booker. Thank you very much. We can go on. First 
submarine. Look, this is exciting to me because it's a whole 
new frontier. As a sci-fi fan this is somewhere caught between 
I feel between my Star Trek aspirations and my Terminator 
fears, but the reality is, the future, thank you, at least one 
nerd in the house----
    [Laughter.]
    Senator Booker. --will laugh at my joke, but I, obviously 
there are a lot of concerns, much of which my colleagues have 
brought up.
    I just want to, just for the sake of having balance here, 
focus real quick, because you were right about the tensions 
between Fourth and First Amendments. And just, knowing who 
we've operated, a long, long time ago I was a Mayor of a city, 
I think it was October, and I've worked with the ACLU when we 
were introducing new technologies into our police department.
    The technologies police departments are using now are 
incredible. We have license plate scanners that can scan 
thousands of license plates and pull down lots of different 
data. We have cameras with incredible sophistication from 
facial recognitions we introduce to some security cameras, 
night vision that are incredible for public safety. We have 
sound detectors that can isolate gunshots and the like, so it's 
incredible.
    But we've reached out to you because obviously with that 
technology comes tremendous governmental power, and there has 
to be some checks and balances, and we asked the ACLU to write 
standard operating procedures. But I want to ask you just the 
flip side in some sense to show that balance, why does the ACLU 
advocate for dash cams on police cars?
    Mr. Calabrese. It's a great question. We, you know, 
accountability can come with this. And so we think it's 
appropriate to monitor the Government doing its job. You know, 
it's more appropriate for us to be monitoring the Government 
than the Government to be monitoring us from an ACLU point of 
view.
    Senator Booker. Right. So the proliferation that every, and 
smart phones are now so--I'm sorry, I'm a BlackBerry. I just 
lost my geek status by showing a BlackBerry and not an iPhone.
    Mr. Calabrese. Right.
    Senator Booker. But the fact that kids all in high school 
now have these cameras and when there are police arrests 
happening, what do we see now more and more?
    Mr. Calabrese. We see the footage of that, and that's a 
wonderful development.
    Senator Booker. Right. So while the Government, nice for us 
to control drone technology and write drone rules, the fact 
that private citizens might have access to some of this 
technology as well, do you see that as a potential good thing?
    Mr. Calabrese. I do absolutely, and I'm glad you brought it 
up. The First Amendment protects your ability to photograph 
things including police interactions. We think that's a crucial 
First Amendment concern. Given that, we need to be very careful 
that anything that we do using drone technology doesn't trample 
on those rights. And so any restriction has got to be narrowly 
tailored when it comes to dealing with, you know, people's 
inability to photograph things and it has got to deal with the 
compelling interest in order to address the First Amendment.
    Senator Booker. Right. There's ancient Latin written on the 
Colosseum that says, who will watch the watchers. And you're 
basically saying the fact that private citizens can observe, 
can film government actors is a very good balance in a free 
society toward government overreach.
    Mr. Calabrese. That's right.
    Senator Booker. And so this technology does offer potential 
to expand that. I know there are lots of people in urban 
neighborhoods, who if they had the ability, which they do from 
their phones, have helped to curb a lot of overreach from 
police, correct?
    Mr. Calabrese. That's 100 percent correct.
    Senator Booker. So just very quickly then, this to me is an 
economic opportunity. It is an opportunity to flex our 
freedoms.
    It's an opportunity to advance, create lots of jobs. The 
one quick question I have in the remaining seconds, because I 
want to be respectful, you talked about consulting in your 
report, to be exact, on page 7, in the section safety, privacy, 
civil rights, and security; you state that you are working in 
consultation with other agencies on these issues. Just for the 
remaining 30 seconds that I have, can you talk to me about the 
extent of that consultation and what do you think the 
ramifications could be for interagency cooperation when it 
comes to privacy, civil rights, security, and safety?
    Mr. Huerta. I think there is broad agreement that it's an 
extremely important issue. We have consulted with colleagues at 
the Homeland, at the Department of Homeland Security, 
Department of Commerce, and others as well as colleagues across 
the whole administration to understand what the issues are that 
we need to address and what are the appropriate mechanisms that 
we, as a government, might take to enable that we ensure that 
these rights to privacy are protected.
    Senator Booker. Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Booker.
    Senator Coats and I are now going to have a little 
dialogue, and I'm going to call upon his endless reserves of 
goodwill to get me past a very tricky situation. We have this 
new form where people come in, people go out, come back, and--
--
    Senator Coats. Yes. I understand how complicated that is, 
Mr. Chairman.
    The Chairman. Yes, it's very complicated if you've only had 
a third grade education. In any event, Senator Cantwell has 
been sitting here throughout the entire thing, and three times 
I've passed over her because of other people. So don't you 
think----
    Senator Coats. I think that should be rewarded----
    The Chairman. Don't you think----
    Senator Coats.--for someone who has sat through this entire 
thing and not used the time to run out and do other things.
    The Chairman. No, no, no. You wouldn't do that.
    Senator Coats. I think that she should be rewarded for 
sitting here, and I'd be glad to go after her.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. I think we're eating up time.
    The Chairman. Go right ahead.
    Senator Cantwell. Thank you, Mr. Chairman.
    And I thank my colleague, Senator Coats, for his 
consideration as well.
    I guess this whole last discussion from my colleagues, I 
wanted to make this point and see if I could get your input, 
Mr. Calabrese, that technology, in and of itself, is not the 
villain, right?
    Mr. Calabrese. Never.
    Senator Cantwell. And as Mr. Arcangeli showed, that not 
necessarily the application is the villain either.
    Mr. Calabrese. That's right.
    Senator Cantwell. The issue is, this larger issue that 
we're having resonates in the same way, which is the 
unauthorized collection, storage, and sharing of private data 
and information without someone's knowledge. And obviously as 
Mr. Arcangeli was pointing out earlier, when it comes to 
surveillance, the Supreme Court has ruled that at least, you 
know, if you know someone is surveilling you, if you know 
someone is chasing you by helicopter because they suspect you 
or the Coast Guard is hovering over your boat when you're out 
on the Pacific; you don't have to prove any kind of intent 
because you know that they are there or at least that's what 
most court cases have determined.
    But the real issue here is like in all of these issues of 
the Government overreach is what are we going to do to 
establish protections against that data collection--the sharing 
of that data collection or as a lot of the civil libertarians 
will point out, even the fact that that information was then 
collected and the fact that somebody could go get a warrant for 
it to get that information and you didn't even know that your 
participation in that activity might even be a cause for your 
data and information to be accessed. Is that right?
    Mr. Calabrese. That's right. I mean, we really worry about 
essentially the super-sizing of surveillance by the government 
using private sector infrastructure. Essentially if you build a 
surveillance model using drones, for all kinds of other 
purposes the Government may piggyback on it the same way they 
piggyback on, for example, Internet surveillance.
    Senator Cantwell. But am I not correct that you can go in a 
court case in a divorce right now and if you want so say, OK, 
where were they, use the GPS of the driver like where were they 
and where were they driving around.
    Mr. Calabrese. Yes.
    Senator Cantwell. Right? So I mean, that's private 
technology in a car that's currently being accessed for all 
sorts of legal purposes.
    Mr. Calabrese. And pursuant to legal protections and a 
legal regime. And I think that's what we'd all like to see 
here. I mean, we'd like to see, for example, a warrant used 
before--whether the FBI is surveilling you or whether they're 
using private footage, there should be a warrant for that. And 
if it's in public, it should be reasonable suspicion backed up 
by a judge's approval, so the same controls that we have either 
way.
    Senator Cantwell. Well, I definitely believe in, you know, 
three legs of the stool, that you, I mean, that the people who 
own the data don't get to decide when it's accessed by law 
enforcement, that a judicial process has to take place. So----
    Mr. Calabrese. That's right.
    Senator Cantwell.--I'm definitely in agreement with you. 
But how do we elevate this to date to the focus of this data 
and data collection. I mean, somebody was mentioning the first. 
To me, this is the Fourth and Fourteenth Amendment issues. And 
having a clear--I personally would make it like the Miranda 
rights, everybody would know what they are. You have rights to 
your personal information. And if it's violated in some way, 
then you would obviously--I think that's how bright the line 
has to be, because I don't think this is the last application. 
This is not the last technology we're going to see. And making 
sure that U.S. citizens are protected needs to be a pretty 
basic right.
    Mr. Calabrese. Yes, Senator, of course. You're preaching to 
the choir on that. I completely agree with you. I think that in 
terms of what, how we elevate this debate, the protections we 
need, I mean, I was glad to see the FAA talk about doing a 
privacy policy, beginning to consider how we're using this 
technology and figuring out how do we control personal 
information because there are First Amendment concerns.
    Senator Cantwell. But is that really Director Huerta's day 
job? I mean, is that his----
    Mr. Calabrese. You know, I'm not saying he doesn't deal 
with other people, but, you know, really the locus of activity 
on drones is with the FAA. And as Senator Markey said, other 
agencies have figured this out. I think they may have to as 
well.
    Senator Cantwell. Yes. I had a chance to both support and 
question the new head of the Border Patrol this morning. And 
obviously in light of the Washington Post article, they're 
using this a lot.
    Mr. Calabrese. Yes.
    Senator Cantwell. And I think there are very good 
applications for the Border Patrol to use this, but I also 
think that people need to know that there are privacy 
protections within that framework and that it won't be abused 
and it can't just be dropped in by another agency and be 
accessed at will. That's the broadening of the policy----
    Mr. Calabrese. Right.
    Senator Cantwell.--that you are talking about.
    Mr. Calabrese. Yes, I mean, that's the classic mission 
creep. If you build a surveillance infrastructure, it will be 
accessed by lots of people. The CBP example is a perfect one. 
They have drones, and now suddenly everyone else wants to use 
them. And those are spying on, you know, it's not just at the 
border, of course, it's up to, you know, a hundred miles away 
from the border. So this kind of surveillance is already 
happening on American citizens. And I agree with your concerns.
    Senator Cantwell. And with great concern.
    Mr. Calabrese. Yes, no question.
    Senator Cantwell. So I thank, Mr. Chairman, thank you for 
having the hearing. And to me, I think because this committee 
has oversight of privacy issues, I think it's a very important 
issue for our committee. We've passed lots of privacy 
legislation in the past, and I think the Committee should 
continue to focus on it. Again, I think the application and the 
technology, in and of itself, are great things for the U.S. I 
think making sure that, as we say, you know, with American 
Express, it has its privileges, that U.S. citizenship has its 
privileges and it's the right to privacy. So thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Cantwell.
    And, Senator Coats, if you're still speaking to me.

                 STATEMENT OF HON. DAN COATS, 
                   U.S. SENATOR FROM INDIANA

    Senator Coats. Mr. Chairman, thank you.
    The Chairman and I have both served on the Intelligence 
Committee and we've spent quite a bit of time and we'll spend 
more, not only in this committee, but in Intelligence as well 
as other committees, Homeland Security and so forth, on 
cybersecurity.
    I guess, Mr. Huerta, I want to ask you regarding FAA 
certification process as to how much, what responsibilities you 
may have and how you will take a look at cybersecurity issues 
and protection from hacking? We already know that this is 
taking place. It's both a privacy issue and a safety issue, 
because hacking into the system and we had a now publicly 
released hack into a system at Creech Air Force Base in 2011, 
can result in the disclosure of the collection of information 
that will be collected. Even though it's protected by privacy 
laws from release or whatever, information is going to be 
collected, it's going to be in the system just as a result of 
the way the system works. But we also know that there is a 
safety issue here, a very significant safety issue. And that 
was the problem with Creech.
    I mean, if you can get into the system and control and use 
the unmanned vehicle for other purposes than intended. So I 
wonder if you could just give me a little bit of download in 
terms of what your thinking is on this, how we need to go 
forward on this issue from a Federal level. And obviously, you 
know, there will have to be a number of agencies involved.
    Mr. Huerta. I'm very concerned about the cyber issue for 
the reason that you talked about, that we rely on the 
information technology infrastructure for the control of these 
aircraft. And that is different, and that is new as it relates 
to how do we ensure their safe operation within our National 
Airspace System. The FAA is actively engaged with the technical 
community. And we have, we're working closely with RTCA to 
establish what is an appropriate technological standard to 
ensure that we have cyber protections in place so that we can 
ensure the safe operation of these aircraft.
    I think it's a big issue. And I think it is something that 
the research that we will be conducting in the years ahead 
needs to be focused on because we have to ensure that these are 
operated safely.
    Senator Coats. Do you have the resources now or do you, 
what additional resources might you need in analysis resources 
to really put together a strong cyberosecurity protection 
system?
    Mr. Huerta. We don't necessarily have a specific ask right 
now with respect to cyber security. The budget agreement that 
is being considered by the Congress now does significantly 
increase the research in the area of unmanned aircraft within 
the purview of the Federal Aviation Administration. And that is 
something that I think is a very good thing. Likewise, each of 
the test site operators have developed a research program which 
they are funding. And many states are putting money into this 
effort.
    I think that it's a burgeoning area, it's a growing area; 
and we have to give it the support, as Dr. Cummings was 
talking, that it needs so that we can fully flush out all of 
these questions.
    Senator Coats. I'm glad to hear that you are well aware of 
the potential problems here.
    And I think we would be open, Mr. Chairman, to address the 
question of the resources that you might need----
    Mr. Huerta. Sure.
    Senator Coats.--in this regard. With that I'll yield back 
my time.
    The Chairman. Thank you, Senator Coats.
    And, Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today.
    And I would also like to thank all the panelists for being 
here.
    Mr. Huerta, in your testimony, you identified several steps 
that the FAA has already taken to help bring this new 
technology into our Nation's aviation system. Your testimony 
also discusses the challenges to broader and faster UAS 
integration into our National Airspace System including such 
things as the pilot training, privacy concerns, many of the 
things that have already been discussed. What do you believe is 
the Federal Government's biggest challenge for safe and 
efficient UAS commercial integration into our national 
airspace?
    Mr. Huerta. I think the significant thing that we have to 
address is that right now today this technology operates by 
exception in the National Airspace System. And Congress has 
directed us and the FAA is very focused on how do we integrate 
this technology into the airspace system. And there's a wide 
scope of things that we need to consider. We've talked about 
sense and avoid. But essentially what we need to get to is a 
regime where unmanned aircraft can operate in the same way that 
manned aircraft operate within the National Airspace System.
    And there are considerations that we have with respect to 
the safety of the aircraft, themselves; the certification of 
the operator; and how they interact with other aircraft. And 
that's the full scope of research activities that we need to 
look at. You heard me say earlier that I believe it's going to 
be staged, because we have, we're going to learn a lot as this 
technology continues to grow at the exponential rates that it 
has been.
    And as we learn more, we have to be willing to evolve and 
recognize that there will be differing regulatory questions 
that we're going to have and we're going to have to address 
them as they come forward, but it's how do we get to this 
integration from accommodation where we are today. That's 
really it.
    Senator Fischer. What do you think you need from Congress, 
if anything, if you're going to facilitate this?
    Mr. Huerta. I think that Congress has provided an important 
milestone for us and has really challenged us to figure out how 
we do this, but how we do it safely. And I think that what we 
all need to recognize is this is a very complex issue and it 
has many dimensions to it. We've spent a lot of time today 
talking about, one, the issue of privacy; but other issues have 
been raised with respect to certification and training and 
there are a whole host of other issues that are out there.
    I think what I would really ask for is a recognition that 
this is new in terms of how we deal with it in our regulatory 
context. And aviation has always been about how we can flexible 
and accommodating and recognize that we may not be able to 
provide definitive answers today. What we really need to have 
is the flexibility that will enable us to figure this out as we 
go along, just as we've accommodated all technological 
innovations in aviation.
    Senator Fischer. I'm happy to hear you use the terms 
flexible and accommodating. As you know, in the state of 
Nebraska, we have an issue that I'm going to bring up to you.
    Mr. Huerta. I know where this is going.
    Senator Fischer. You know where this is going, exactly.
    Mr. Huerta. Sure.
    Senator Fischer. Senator Johanns and I have sent a letter 
to you, and it deals with some of the rule changes that we 
believe are potentially leading to some pilot shortages in 
rural parts of Nebraska. We're looking at flights being cut 
back, canceled in many cases, especially in those sparsely 
populated areas of our state and I know in other states as 
well. What do you anticipate happening there?
    Mr. Huerta. Sure.
    Senator Fischer. Are we going to see some changes in that 
1500-hour rule, the flight duty rule as well? Are you going to 
be flexible and accommodating with us?
    Mr. Huerta. Well, we're certainly working with the carriers 
in question to figure out how we can accommodate the unique 
requirements that we have. But a couple of things that I think 
are important to, that do provide a framework around that. 
First of all, the 1,500-hour rule was actually established in 
statute by Congress in 2010. The rule that the FAA enacted last 
year actually is relieving of that. What that provides is an 
opportunity within the framework of the authorization for 
military and educational credit to be applied toward the 
satisfaction of that 1,500-hour rule.
    And we believe that that has struck the appropriate balance 
of ensuring that we can be flexible there. On the flight duty 
and rest, we announced those rules in 2011, giving the airlines 
2 years to prepare for the implementation of important rules 
that were put in place to ensure that we don't have pilot 
fatigue. Now we are working with the carriers in the 
implementation of these.
    My understanding that the carrier in question that has been 
seeing these impacts in particular in Nebraska at Great Lakes 
Airlines has, is considering whether they should reclassify 
from Part 121, large scheduled service, into part 135, which 
would bring them under a different regulatory regime. We are 
very interested in working with the airline to understand what 
their plan is. And we will continue that discussion to work 
very closely with them to figure this out and how they can 
continue to provide the important services they provide.
    Senator Fischer. Well, I look forward to working with you 
on that. I understand the importance of safety for our pilots 
and our passengers, but communities are also affected by this 
in sometimes distressed areas of our country when they are so 
sparsely populated. So I hope we can work on that to protect 
those rural communities. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Fischer.
    Senator Nelson to be followed by Senator Ayotte.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Huerta, let me ask you an unrelated 
question--and since I've got to run to catch the bus with 
fellow Senators, I'm going to ask our Staff Director of the 
Science and Space Subcommittee to visit with you after the 
meeting since I can't stay----
    Mr. Huerta. Sure.
    Senator Nelson.--and that is, I want your advice on what we 
need to do to get the Air Force to ease up on the Cape 
Canaveral Air Force Station so we can launch commercial rockets 
from that location, the actual Air Force property. And that's 
the question. And we want to follow this up in detail with 
you----
    Mr. Huerta. Sure.
    Senator Nelson.--at a future time.
    Now, Mr. Calabrese, before I race off, let me just get some 
clarification. I, along with the Chairman and Senator Coats, 
I've had the privilege of serving with them on the Intelligence 
Committee in the past and we have been very mindful of 
protections of privacy with what we've been going through in 
trying to protect the Nation's national security interests.
    Now let's say you are a divorce lawyer and you are 
representing a client and you want to follow the spouse, so you 
can hire a private detective, that doesn't take any kind of 
court order. How do you see the difference of the privacy 
invasions of employing the services of a drone to follow the 
suspect spouse?
    Mr. Calabrese. That's a great question, Senator. I mean, I 
think that that goes to the fundamental nature of drones, which 
is to say that they're cheaper and they're smaller and they're 
easier to use. So whereby the private investigator might cost 
you hundreds of thousands of dollars to do this, a drone may be 
able to do it for tens or hundreds of dollars. So we're talking 
about much greater privacy invasions.
    Especially if, for example, we have a drone that surveys a 
whole city, and literally you just need one drone to do that 
type of tracking, you can see a very different type of 
invasion. As such I think it merits scrutiny from Congress to 
figure out the best way to balance, you know, the First 
Amendment rights that I've discussed, but also protect people 
from this kind of invasive ongoing tracking.
    Senator Nelson. Well, I'll continue this with you. It does 
raise some interesting questions, such as is the drone 
technology more invasive than a private detective would be, 
because it has got penetrating radar or infrared sensors, those 
kind of things? Ultimately it's going to be a question in the 
courts, but it really does raise some interesting questions.
    Thank you, Mr. Chairman.
    Thank you, sir.
    The Chairman. Thank you, Senator Nelson.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman.
    Let me ask you, Administrator Huerta, one statement you 
made actually struck me, which is that with this technology--
with the drone technology--the UAS technology; that we, you 
hope that the FAA gets in a position where unmanned aircraft is 
operating under the same set of rules as the manned aircraft. 
What struck me with that is the unmanned aircraft, the capacity 
of it as just described by the potential, seems to have many 
different capacities that would interfere with different areas 
of our lives than manned aircraft. Can you help me understand 
that?
    Mr. Huerta. Sure. First of all, I want to clarify that I 
would never suggest that they would be operated exactly the 
same in the National Airspace System. The distinction I was 
drawing was that right now unmanned aircraft operate in the 
National Airspace System by exception. And the direction we've 
received from Congress is to integrate them so that they are a 
regular part of the operation of the National Airspace System, 
so it's not by exception.
    Now it may be under a different framework under which they 
operate, but above all else, the thing that the FAA is most 
concerned about is if these are to operate on a regular 
integrated basis within the National Airspace System, that they 
operate as safely if not more safely than other aircraft.
    Senator Ayotte. In my prior life I was an Attorney General, 
and as I look at this and all of you testifying today, perhaps 
the ACLU could give us the most perspective on this. But as we 
look at this question of what the rules should be in this, it 
really has to be an across-government look, because we don't 
have an official here from DOJ or from DHS, and there are a lot 
of aspects to this, as Senator Nelson mentioned.
    When I think about using a drone for surveillance in a 
divorce case, years ago I had a few divorce cases in private 
practice, and there's no question in my mind that it's way more 
intrusive because of the nature of what you could see with a 
drone versus a private detective. The access a drone could have 
is so much greater to the private ongoings of someone's life of 
what they could see versus a private detective who would have 
to be on authorized public land. I think the challenges we face 
on this are immense and that it's not just the players that are 
at this table, but it has to be a much broader consideration 
about people's constitutional rights and what type of society 
do we want in terms of what people are going to be able to see, 
and in terms of privacy. I appreciate all the testimony here.
    I think here, Mr. Chairman, that this is something that has 
to cross committees to make sure that we get this right in 
terms of how we come up with what the rules would be as to how 
this drone technology can be used.
    This is obviously just a commentary on all of this. I would 
also say, and I wanted to get your opinion on this, many states 
are acting now and state legislatures are very concerned about 
this issue of what drones can do or not do in their states. It 
strikes me that you can have a situation where the patchwork is 
that gives more protection in New Hampshire than for example, 
in Massachusetts, which isn't uncommon in terms of privacy and 
issues that are important to my constituents from the ``Live 
Free or Die'' state. Thinking about when we have issues that 
may infringe on our Constitution what are all of your views in 
terms of a national versus a patchwork of where we are now?
    Do you think that we should come up with standards that 
really govern the operation of the unmanned vehicles? 
Obviously, on the safety end, it's going to be one thing for 
the FAA, but on all these other issues where you see state 
legislatures trying to get in, I wanted to get your opinions on 
that.
    And certainly, Mr. Calabrese, I'd like to hear what you 
think about that.
    Mr. Calabrese. Well, I mean, I think it clearly 
demonstrates the enormous interest in this issue. I mean, you 
go from zero states considering it to 43 with 13 state laws 
happening, that's incredibly quickly. I think the ACLU is 
relatively agnostic in terms of state versus Federal in the 
privacy issues. Obviously they need to protect the First and 
Fourth Amendment, so we are a little concerned about some of 
the rights to photography in the First Amendment context with 
some of these state laws, but all at the same time we're 
cheering the warrant requirements and other restrictions on law 
enforcement use.
    So you know, there's good and there's bad. Certainly I 
think Congress has a role in finding some uniformity, assuming 
it's at a high level of privacy protection and First Amendment 
protection.
    Mr. Arcangeli. Thank you. If I may, to paraphrase an 
earlier comment in regards to all unmanned aircrafts you can't 
say one size fits all.
    I think you need to look at the application and the safety, 
that is how it's going to be used. And I think Congress with 
the FAA Modernization and Reform Act clearly provided a path to 
move this industry forward. Basically what Congress, I think 
the intention was, was to move forward approval of unmanned 
systems that can provide a useful service to society that's 
safe, operates within a line of sight.
    And I think rules can be made such that unmanned systems 
can be introduced into the airspace and ensure both safety and 
privacy and that can be done on a national basis.
    Dr. Cummings. May I respond?
    Senator Ayotte. Sure.
    Dr. Cummings. I'd like to echo Senator Cantwell even though 
she's not in the room. In earlier statements, I think everybody 
is getting a little too overly focused on the drone technology 
in terms of the unmanned system. I think that this room will 
probably be gathered again in a very similar fashion very soon 
over the driverless car technologies, for example. Unmanned 
cars are going to have cameras inside the car filming you, 
outside the car filming you; and all of this will potentially 
be hackable to anybody external to the car.
    So when we talk about unmanned vehicle technologies, we 
need to be clear that it's not just unmanned aerial vehicles, 
but unmanned ground technologies as well. And so I think a lot 
of those same issues are going to apply to both domains.
    Senator Ayotte. Well, I appreciate it--I know my time is 
up--all of you. It seems to me, obviously, this is an area we 
need to weigh in on and make sure that we have some clear rules 
here because of all of the issues at stake, both within the 
Constitution and also safety issues, et cetera. It's really 
challenging, because if we're looking at a crop sprayer, we may 
have environmental issues. If we're looking at an issue of 
surveillance technology, then we have other issues, maybe 
perhaps Fourth Amendment issues.
    So I think that this is where it's going to have to be, if 
we work on it in this Committee, it is going to have to have a 
broader view and make sure that we look across government and 
what the possibilities are. So I appreciate all of you being 
here.
    The Chairman. Thank you, Senator.
    Dr. Cummings, it was good that you spoke up, because I 
thought that this was a very good hearing, but for the single 
fact that you didn't get asked enough questions. And so I have 
two for you. I mean, first of all, you brought enormous 
enthusiasm and you raised a question in my own mind as to 
whether or not, because other countries are ahead of us, that 
that's necessarily a bad thing. You know, people get ahead in 
some things and get behind in others.
    Drones really came out of the two wars we've been engaged 
in for a very long time. And so, you know, and Japan is a very 
different society. I mean, it's a society where people tolerate 
intrusion more easily, I guess, than in most Western societies. 
That would probably be true of a lot of Asian countries. But in 
any event, can you hack into a drone easily?
    Dr. Cummings. There are two different layers that you 
should be thinking of. In terms of the internal control system 
of a drone that actually does its controlling guidance, that 
would be much more difficult to do as opposed to hacking into 
its navigation and control system, which is, for example, GPS. 
And this is, in fact, probably one of the biggest technological 
hurdles that the drone industry, as well as the commercial 
aviation industry is going to have to get over. It is very 
easy.
    My students could over the weekend hack into any vehicle 
guided by GPS. So that is true of commercial airliners, and 
driverless cars. This is going to be a big issue in the future. 
So I think being able to make technology GPS spoof-proof is a 
major hurdle that we need to get over. This country is looking 
at it. There are lots of academic labs, and most notably JPL 
out in California is trying to develop what they call 
``terrain-relative navigation.''
    But all of these budgets, I hate to beat a dead horse, but 
all of these budgets just took a recent big hit. And unless 
this country puts more emphasis into terrain-relative 
navigation or GPS-free technologies, we're not going to be able 
to get over that hurdle. But again, I'd like to point out, it's 
not just an unmanned vehicle hurdle, this is also a commercial 
aircraft hurdle.
    The Chairman. Now you raised an important point which I 
won't comment on just now, but I mean, we are constraining what 
we can do in the future by our decision making. You said that 
you weren't much of an expert on privacy, but I want you to 
make yourself one for the moment and reflect on what you've 
heard here today.
    Dr. Cummings. Well, I didn't say I wasn't an expert on 
privacy, I just knew that there would be so much discussion 
about it today that I didn't want to jump on that bandwagon too 
soon. I do think all these privacy issues are important, but 
again, I think we lose sight of the drones as a technology 
that's causing the privacy concerns as opposed to the 
technology, itself. I've seen little bug robots being developed 
in labs that could be slipped under this door at any time and 
we could all, we wouldn't even know that we were being watched 
because of the small scale of these technologies.
    So again, it's not just a drone issue. The driverless car 
issue. Robots in your home issue. Your Skype camera on your 
computer that can be turned on remotely. And this again, speaks 
to, I think, a technological illiteracy problem that we have in 
our Nation particularly in the government levels, and I don't 
mean to be mean toward Government employees, but our top people 
in the universities are not graduating and going into the 
Government. They're not even going into the defense industry.
    Our top technology brains who understand and who are 
developing these very cutting edge technologies are going to 
Google, they're going to Oracle, they're going to Apple, 
they're going across the ocean. They are not staying inside the 
Government and helping this government be able to identify and 
then manage these issues. I think this is going to be a very 
serious problem in the future that our government does not have 
enough qualified people on staff to address these issues.
    The Chairman. I accept that, but I think there's a 
countermovement which is taking place even in places like West 
Virginia. I think that a lot of young people are not at all 
happy the way government is being done or run. And I think 
there are, in many ways, a very broad interest from people who 
are not yet ready to go into a political career or government 
career about the possibility of so doing. And I will be very 
disappointed if I'm wrong. I hope I'm not.
    Dr. Cummings. Yes, sir, I don't mean to be contrary, but 
it's one thing to be interested in going into Government 
service, it's another thing to have the intense technological 
background that you're going to need. People in the future are 
going to need a hardcore background in statistics, control 
theory, and even human psychology to be able to understand a 
lot of these technologies.
    And it basically speaks to the lack of this country to 
motivate good STEM foundation in terms of the number of 
students that we have. And so I know that you must hear this 
all the time that we need more and more STEM funding, but I 
think this problem is going to be particularly acute as we 
start to move into these more automated and autonomous 
technologies.
    The Chairman. Well, we've done STEM in this Committee. We 
started it, we've reauthorized it, and we're going to have to 
do so again. And we're just up against this ridiculous, you 
know, spending, can't spend money regardless philosophy. But 
that's just my opinion.
    I want to say, I think this has been a very wide ranging, 
not totally focused, but necessarily therefore better hearing, 
bringing out a whole variety of issues in relation to different 
agencies' roles and the ACLU role and your role at Yamaha and 
yours at Duke. Am I right? And so I think it has been 
simulative in that respect.
    This is the first hearing we've really had on drones. And I 
think it ought to be that kind of an opening up a variety of 
questions hearing, and then we'll be able to focus in more 
closely on special aspects of it.
    And your problem, Dr. Cummings, will we be able to do it 
fast enough. Having said that, the hearing is adjourned.
    [Whereupon, at 4:38 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                       to Hon. Michael P. Huerta
    Question. Administrator Huerta, as part of the 2012 FAA 
Reauthorization bill, the FAA was also required to continue your work 
towards a final rule for UAS under 55 lbs. This rule is supposed to 
facilitate the use of small aircraft flown close to the ground within 
the line of sight of the operator. In other words, vehicles that do not 
pose a major safety issue. What is the status of this rule, and when do 
you expect it to be completed?
    Answer. The small UAS Notice of Proposed Rulemaking is planned to 
be released for public review and comment later in 2014. A specific 
date has not been released yet, as the draft rule is still in 
development. It is difficult to say when the final small UAS rule will 
be issued. Typically, rulemaking efforts take 18-36 months after the 
release of the NPRM. The rulemaking is very complex and we want to 
ensure that we get it right. We want to strike the right balance of 
requirements for small UAS to help foster growth in this emerging 
industry that has a wide range of potential uses.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                         Hon. Michael P. Huerta
    Question 1. Can you provide details on how you plan to handle the 
airspace issues necessary for successful testing to be done at these 
test sites?
    Answer. Each Test Site has proposed multiple test range airspaces 
with unique features. The FAA will require each test site to obtain a 
Test Site Certificate of Authorization (COA) from the FAA before 
commencing operations in each test range airspace. The Test Site COA 
approval process will allow the FAA to carefully analyze the unique 
airspace issues for each test range and ensure that the test site 
operations can be safely accommodated.

    Question 2. In Virginia, NASA Wallops recently applied for use of 
airspace near the Wallops Flight Facility between 700 feet and 3500 
feet in altitude which will be critical for use in flights of the two 
Global Hawk UAS that currently are flown out of Wallops. FAA denied the 
application.

    A. Can you provide reasoning as to why that application was denied?

    B. What additional steps must the partners in the Virginia Tech-led 
Mid-Atlantic Aviation Partnership test range take in order to secure 
access to additional airspace?
    Answer. The application for Restricted Area was denied since the 
applicant did not prove hazardous operations as required by FAA Policy. 
UAS operations are not hazardous operations as defined in FAA Order 
7400.2, ``Procedures for Handling Airspace Matters.'' Further, a 
preliminary assessment of the impact of a restricted area as requested 
by NASA would create the following affects:

  <bullet> the proposed airspace would conflict with instrument 
        approach procedures to the following Maryland airports--
        Accomack County Airport, Ocean City Municipal Airport, 
        Salisbury-Ocean City-Wicomico Regional Airport;

  <bullet> the area would overlie portions of the Assateague Island 
        National Seashore and the Chincoteague National Wildlife 
        Refuge. An environmental analysis would be required;

  <bullet> VOR airways V-29 and V-139 would be impacted by requiring 
        the minimum en route altitude to be raised. This would result 
        in the loss of IFR altitudes for ATC operations; and

  <bullet> the proposed restricted area would further compress VFR 
        traffic between the existing Wallop Island restricted area and 
        the Patuxent restricted area complex (the existing restricted 
        area is for Artillery and rocket ops).

    With regard to additional steps needed to secure access to 
additional airspace, the use of airspace is gained through the 
Certificate of Authorization or Waiver (COA) process, which the Mid-
Atlantic Partnership must successfully complete as a requirement to 
become an operational test site.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                         Hon. Michael P. Huerta
    Question 1. How do the FAA's privacy considerations address 
concerns regarding surveillance, data collection, and law enforcement 
use of UAS in test ranges?
    Answer. The FAA recognizes that there is substantial debate and 
difference of opinion as to whether UAS operations at the test sites 
will raise novel privacy issues that are not adequately addressed by 
existing legal frameworks.
    Congress mandated that the FAA establish the test sites to further 
UAS integration into the national airspace system. The FAA determined 
that establishing privacy requirements for the test sites would help 
advance this purpose by helping to mitigate privacy concerns at the 
test sites and helping to inform the dialogue among policy makers, 
privacy advocates, and industry regarding the impact of UAS 
technologies on privacy.
    The FAA sought and considered public input to develop the privacy 
requirements for the test sites. Once the privacy requirements were 
finalized, the Agency used its broad ``other transactions'' authority 
in 49 U.S.C. Sec. 106(l)(6) to include them in the Other Transaction 
Agreements (``OTAs'') that the FAA executed with the six UAS test 
sites.
    Based on the public input, the OTAs require each test site to: 
comply with existing privacy laws; develop privacy policies that are 
transparent and subject to public scrutiny and comment; conduct an 
annual review of test site operations to verify compliance with its 
privacy policies, and share those outcomes annually in a public forum; 
maintain a record of all UAS operating at the test sites; and require 
each UAS operator in the Test Site to have a written plan for the 
operator's use and retention of data collected by the UAS.
    Each of the test site operators is a non-federal, public entity. As 
public entities, test sites operators are accountable to their citizens 
and the FAA believes they will be responsive to local stakeholders' 
privacy concerns by developing privacy policies appropriately tailored 
to each test site. The test site privacy requirements and 
considerations for developing them are more fully described in the 
Federal Register Notice published November 14, 2013 [Volume 78, Number 
220, pages 68360-68364, FR Doc No: 2013-27216].

    Question 2. From a privacy perspective, what is going to be the 
effect of these test ranges on residents' day-to-day lives?
    Answer. We do not anticipate that the test sites will have a 
significant privacy impact on resident's day-to-day lives.
    Each of the test site operators is a non-federal, public entity. 
The FAA will require each test site to comply with privacy laws and to 
develop transparent privacy policies. As public entities, test sites 
operators are accountable to their citizens and the FAA believes they 
will be responsive to local stakeholders' privacy concerns by 
developing privacy policies appropriately tailored to each test site.

    Question 3. Despite Hawaii's small land area, we have 15 airports 
that serve over 3,000 pilots and more than 30 charter flight companies. 
In addition to those commercial and general aviation flights numerous 
other aircraft, such as low-flying air tours, regularly operate in our 
airspace. How is the FAA working with the site operators to ensure that 
testing activities do not negatively impact safety?
    Answer. The FAA continues to work with test site operators through 
the Certificate of Waiver or Authorization (COA) process. Additionally, 
the FAA is sharing with test site operators the safety management 
system the ATO conducts when any changes are made to the NAS. Hawaii is 
partnered with the University of Alaska who will support operations 
through a safety analysis. The FAA is also sharing its environmental 
review processes as a means for the operators to determine any 
potential impacts their activities may have on surrounding communities.

    Question 4. As you know, the expanded use of UAS has numerous 
potential benefits; however, it has also raised serious privacy 
concerns, both in the U.S. and in other countries. Dr. Cummings 
mentioned Australia--where these unmanned systems are going to start 
delivering textbooks later this year. How have these other areas dealt 
with the privacy concerns associated with these types of expanded use, 
are they on the right track, and what lessons can we learn?
    Answer. The FAA has not evaluated how other countries are 
addressing privacy issues related to UAS operations.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Michael Huerta
    Question 1. Given that the UAS test site program lasts five years 
and the law requires the first test site to be established within 180 
days, when does the FAA expect to have the first test site and the 
other five test sites established?
    Answer. The FAA will meet the statutory requirement to have at 
least one test site operational within 180 days. We are confident that 
we will meet this milestone as several of the test sites have previous 
UAS operational experience and have mature data collection and research 
plans. The remaining test sites will be stood up as soon as they meet 
all operational and safety requirements.

    Question 2. Is the program life specified in the 2012 FAA 
reauthorization sufficient time for the FAA to collect the necessary 
data from the test sites or does the test site operational authority 
need an extension?
    Answer. It is too early to state if the time provided is sufficient 
or if additional time is required. Once operations commence and the 
data stream starts, FAA can better evaluate the time required.

    Question 3. How does the FAA plan to collect and utilize the 
research and data from the test sites for integrating UAS in the 
National Airspace System (NAS)?
    Answer. Test Site Operators will be required to apply for and 
receive a Certificate of Authorization or Waiver (COA). These COAs will 
serve as the operational authorization which permits the Test Site to 
operate. Included in the COA is the requirement to share operational 
and safety data with the FAA. While the FAA cannot explicitly require a 
Test Site operator to conduct a certain type of research, we will be 
working closely with each Test Site operator to develop their Research 
and Development plan and will highlight areas where Test Site proposed 
research activity will complement the FAA's UAS R&D portfolio.

    Question 4. How does the FAA plan to coordinate the collection, 
storage and use of the research and data among the six test sites?
    Answer. The FAA plans to coordinate Test Site data collection and 
storage for COA-required operational and safety data at the William J 
Hughes Technical Center. Other research data that the Test Site 
operators provide to the FAA will also be managed at the Tech Center. 
The FAA intends to use Test Site data as an additional component of our 
UAS integration research portfolio.

    Question 5. How does the FAA plan to ensure operators have the 
appropriate basic training and qualifications necessary to safely 
operate UAS in the NAS?
    Answer. The FAA is focused on ensuring that UAS pilots have an 
appropriate level of understanding of 14 Code of Federal Regulations 
applicable to the airspace where UAS operate. UAS pilots are 
responsible for controlling their aircraft to the same standards as the 
pilot of a manned aircraft. Policy requires the Pilot-In-Command (PIC) 
to have passed either an FAA written examination (or FAA-recognized 
equivalent) for operations below 400 feet Above Ground level (AGL); or, 
hold an FAA Pilots Certificate for operations above 400 feet AGL. If 
operating on an Instrument Flight Plan the PIC must also hold a current 
Instrument Rating (or FAA-recognized equivalent).

    Question 6. How does the FAA plan to train controllers on how to 
manage UAS flights alongside manned flights?
    Answer. The FAA already trains controllers on how to control UAS 
flights today. Each UAS operator is granted a Certificate of 
Authorization specifying how the operator will perform. Additionally, 
instructions have been provided to controllers on how to manage these 
operations. Controllers are then provided training based on the 
requirements in those instructions. As capabilities and integration 
progresses, we will update the instructions and the training for FAA 
controllers.

    Question 7. How does the FAA consider whether an operator of a UAS 
is medically fit to operate the UAS in the NAS?
    For example, if an operator has poor eyesight, it may be difficult 
to ensure a UAS is safe even within the line of sight.
    Answer. We are currently examining the appropriate level of medical 
certificate for each type of unmanned aircraft operation. Until 
specific UAS standards are established, we apply the manned standard 
that would apply based on the type of operation. Current policy 
requires the Pilot in Command to possess an FAA pilot's certificate, 
issued under 14 Code of Federal Regulations (CFR) Part 61. For this 
certificate to be valid, the pilot must also maintain a valid second-
class medical certificate, issued under 14 CFR Part 67. Part 67 
specifies the medical standards, including visual acuity.

    Question 8. Are there conditions that could disqualify a pilot for 
manned flights that are not concerns for pilots of unmanned aircraft, 
or vice versa?
    Answer. Pilots who do not meet the qualifications for a second-
class medical certificate may apply for a Special Issuance medical 
certificate under 14 Code of Federal Regulations Section 67.401.

    Question 9. When do you expect the FAA to release both

  (1)  the Notice of Proposed Rulemaking, and

  (2)  the final small UAS rule for those vehicles that are under 55 
        pounds?

    Answer. The small UAS Notice of Proposed Rulemaking is planned to 
be released for public review and comment later in 2014. A specific 
date has not been released yet, as the draft rule is still in 
development. It is difficult to say when the final small UAS rule will 
be issued. Typically, rulemaking efforts take 18-36 months after the 
release of the NPRM. The rulemaking is very complex and we want to 
ensure that we get it right. We want to strike the right balance of 
requirements for small UAS to help foster growth in this emerging 
industry that has a wide range of potential uses.

    Question 10. In the case of any future delays, will you please keep 
the Committee informed as to the specific causes of such delays?
    Answer. Yes. Once a date for the release of the small UAS NPRM is 
finalized, we will advise the Committee. Likewise, if there is any 
delay for the release of the NPRM in 2014, the FAA will advise the 
Committee.

    Question 11. How is the FAA working to resolve significant safety 
challenges including UAS sensing-and-avoiding other aircraft, people, 
and property?
    Answer. The FAA works with the UAS industry, university 
researchers, UAS operators, NASA, DOD, and others to identify and 
resolve significant safety challenges facing UAS operations in the 
National Airspace (NAS).
    The FAA has worked with the UAS Aviation Rulemaking Committee to 
identify safety challenges unique to UAS certification and operation 
and to consider rulemaking proposals, policies and operational 
procedures that may be required to support safe integration, including 
capabilities to avoid other aircraft, people and property.
    The FAA is working with RTCA Special Committee 228 to develop 
standards for reliable UAS control and communications (C2) link, and 
Detect-and-Avoid (DAA) systems. DAA is the new term for sense and 
avoid.
    The FAA works with the UAS industry, NASA, and DOD to demonstrate 
and validate candidate C2 and DAA systems through laboratory analysis 
and flight test programs. These programs focus on performance metrics 
to measure and evaluate system safety, interoperability, and NAS 
efficiency.
    The FAA resolves significant safety challenges with a Safety Risk 
Management (SRM) process to identify and mitigate risks prior to 
introducing new UAS operations into the National Airspace. The FAA 
monitors the safety of current UAS operations approved through 
Certificate of Waiver/Authorization (COA) and plans to have similar 
safety oversight monitoring for the six UAS test sites.

    Question 12. Is a sense and avoid capability applicable to all UAS 
use? How might the method of compliance vary from one use to another?
    Answer. The FAA accommodates certain UAS without a Detect and Avoid 
(DAA) capability when they operate in Class A airspace under a 
Certificate of Waiver/Authorization (COA). This accommodation may 
include restrictions on the number of UAS operating in each ATC 
airspace sector and other COA limitations.
    The FAA does not require a sense and avoid capability for UAS 
operating in active Restricted and Warning Areas or approved Prohibited 
Areas. Within this airspace, the local controlling agency assumes 
responsibility for separating all aircraft. The controlling agency 
maintains continuous control of all aircraft participating in their 
airspace.
    The FAA authorizes UAS operations flown entirely within visual line 
of sight under a COA without the requirement for a Detect-and-Avoid 
(DAA)--i.e., sense and avoid--capability. Visual line of sight can be 
extended using additional visual observers and observers aboard chase 
aircraft.
    Visual line of sight observation of UAS operations requires the 
pilot and/or visual observer(s) to continuously see the UAS and 
surrounding airspace. These visual observer(s) must be able to 
determine the unmanned aircraft's proximity to other aircraft or 
hazards and assist the pilot in complying with the see-and-avoid and 
other hazard avoidance responsibilities of 14 CFR 91.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Hon. Michael Huerta
    Question 1. Can you assure those states which were unsuccessful in 
obtaining a Test Range designation, such as my own state of Florida, 
that they can still participate in the development of this industry, 
and how they might go about participating?
    Answer. Any unsuccessful Applicant may still participate in the 
development of UAS and UAS NAS integration by: applying for a 
Certificate of Authorization/Experimental Category (many applicants 
already possess COAs that allow for UAS operations); partnering with 
one of the UAS Test Sites; participating in the FAA's upcoming UAS 
Centers of Excellence program; partnering with the FAA on a Cooperative 
Research and Development Agreements; and supporting DOD and NASA on its 
UAS research and development needs.

    Question 2. Can you assure members of the Committee and industry 
stakeholders that all FAA resources and attention will not be allocated 
only to those states that were successful in the Test Range 
designation?
    Answer. Although the FAA is required to stand up at least one of 
the Test Sites in 180 days, we still have a commitment to process other 
COA applications in 60 days or less. Hence, the FAA will concurrently 
complete work for the test site stand up and meet other obligations.

    Question 3. In addition to the integration of the UAS capability 
into the general airspace, is the FAA working to assure the integration 
of the new commercial space flight capability, both orbital and 
suborbital, is also a part of this new traffic management planning?
    Since it is all the same airspace, please inform the Committee 
whether these efforts are independent of one another.
    Answer. The FAA is working towards the integration of all new users 
to the National Airspace System, including commercial space flight 
operations.
    Currently, the FAA supports space launches, both orbital and 
suborbital, on a case-by-case basis. The FAA is working to lay the 
groundwork to ensure the NAS supports the rising demand for space 
launch systems while focusing on ways to ensure these systems operate 
cohesively with the NextGen systems.
    The efforts to integrate UAS and commercial space operations have 
similar goals but vastly different characteristics. Our efforts to 
integrate these two new entrants are independent but not mutually 
exclusive.

    Question 4. Would universities in states that have not been 
selected for the test sites be allowed to use restricted airspace, 
under the Department of Defense's control, for UAS testing?
    If so, what would be the method through which these universities 
could gain access?
    Universities in Florida, including Florida Institute of Technology 
and Embry-Riddle, which has degree programs related to UAV's, have 
proven aerospace expertise and have demonstrated capability to develop 
and perform very limited flight testing of medium sized UAV's, but have 
no true way in which to fully test and demonstrate capabilities given 
airspace limitations.
    This negatively impacts job creation and educated workforce 
detainment in my state.
    Answer. Special use airspace has been established to further 
military purposes. That airspace once returned to the FAA by the DOD to 
be used by non-military entities is subject to FAA policies.
    Universities in states that have not been selected for the test 
sites will be able to file for Certificates of Authorization to operate 
in areas needed for their mission. The use of restricted airspace for 
UAS testing is subject to the same conditions and availability 
constraints that apply to those entities seeking to use that airspace.
    DOD has established a variety of policies and procedures for using 
airspace that has been delegated to them from the Agency to describe 
how non-military entities may gain access to airspace under DOD 
control.

    Question 5. This question is about the autonomy the ranges may or 
may not have. When it comes to entering into partnerships with 
technical experts or universities outside of their state, will the test 
ranges be able to do that?
    Or will they need FAA approval?
    Again, even though Florida was not selected, we have universities 
like FIT and Embry-Riddle with unmatched expertise in these fields and 
would be valuable partners for other sites.
    Answer. Test sites may enter into new partnerships or teaming 
arrangements, subject to FAA approval. Test sites may also add new test 
range airspaces, including airspace in other states, subject to FAA 
approval. Test Site airspaces do not need be contiguous or connected 
via corridors.
    If a Test Site would like to add new team members or new airspaces 
in order to further UAS integration research, the FAA would welcome 
such additions.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Dan Coats to 
                          Hon. Michael Huerta
    Question. Administrator Huerta, as you know the states of Ohio and 
Indiana submitted a joint application for selection as one of the six 
test sites to integrate UAS into the National Airspace System. In 
selecting the test sites, the legislation mandated that the FAA, in 
consultation with the National Aeronautics and Space Administration and 
the Department of Defense, consider geographic diversity, climatic 
diversity, location of ground infrastructure and research needs in 
choosing the sites. The Ohio-Indiana proposal was not selected by FAA. 
Can you explain to me the specific deficiencies of the Ohio-Indiana 
proposal?
    Answer. The Ohio-Indiana proposal included markings stating that 
its content is proprietary in nature and may not be disclosed outside 
of the Government. In order to preserve the confidentiality of the 
applicant's proposal, the FAA recommends that this information not be 
included as part of the QFRs since this would make the information 
public and potentially violate the restrictive markings on the 
proposal.
    On January 29, 2014, the FAA provided the Ohio-Indiana applicant 
with a debriefing during which the Agency shared information regarding 
the application evaluation process and the benefits and deficiencies of 
the Ohio-Indiana proposal. We hope that this debriefing provided the 
applicant with useful feedback regarding its proposal.
    If the Committee desires to obtain information regarding the Ohio-
Indiana proposal, the FAA could conduct a similar debriefing for the 
interested Committee members with the goal of preserving the 
confidentiality of the Ohio-Indiana proposal.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Dr. Mary Cummings
    Question 1. One of the things I talked about in my statement was 
preventing accidents involving piloted and unpiloted aircraft. The 
technology that is supposed to prevent these accidents is called 
``sense and avoid'' technology. The purpose of this technology is to 
detect nearby objects, including other aircraft, and avoid collisions 
with those objects.
    Professor Cummings, what is the current state of sense-and-avoid 
technology--could UAS with this technology be used safely in our 
national airspace right now?
    Answer. Sense and avoid (SAA) technology has existed for some time 
in the U.S. national airspace (and globally) in the form of TCAS 
(Traffic Alert and Collision Avoidance System). TCAS allows two or more 
aircraft the ability to detect one another in close proximity. TCAS 
also provides explicit instructions to the respective pilots as to how 
to maneuver to avoid a collision. On some aircraft, TCAS is linked to 
the autopilot, so the plane can execute an avoidance maneuver without 
the intervention of a pilot, so such a system could easily be adapted 
to UASs.
    TCAS is mounted on an aircraft, so is independent of (and thought 
to be superior to) air traffic control. The replacement system for 
TCAS, the Airborne Collision Avoidance System (ACAS X), is currently 
under development to improve the flexibility and robustness of TCAS, 
and is specifically targeting UASs as potential platforms. Moreover, 
ADS-B (Automatic Dependent Surveillance-Broadcast) systems mounted on 
aircraft (mandated by the FAA for the majority of aircraft in U.S. 
airspace by 2020) allow for completely autonomous collision avoidance 
operations for manned and unmanned aircraft.
    The U.S. Air Force, Lincoln Laboratory, and the FAA have jointly 
investigated the use of TCAS on UASs, specifically the Global Hawk. The 
Europeans have also successfully integrated and flown a TCAS system in 
the EADS Barracuda UAS. Several UASs have been flown successfully with 
ADS-B in the United States, so there is clear evidence that UASs can 
use these systems for deconfliction and collision avoidance.
    Over the past decade, the U.S. military and other government 
agencies like DHS (Department of Homeland Security) have funded SAA 
research specifically for integration of unmanned aerial systems in the 
national airspace. Most recently in December 2013, the DOD asserted in 
its ``Report to Congress on the progress of research aimed at 
integrating unmanned aircraft into national air space'' that it will 
have a ground-based SAA system ready for deployment this calendar year 
and the airborne SAA solution will be ready in FY 2016.

    Question 2. If sense-and-avoid can't be used safely right now, how 
soon do you see the industry moving forward to widespread use of sense-
and-avoid?
    Answer. The FAA has stated that for UASs to operate in the national 
airspace, they must have the ability to ``stay well clear'' of air 
traffic. Unfortunately the FAA will not give a specific definition of 
``well clear'' and without such specifications, it is not possible to 
give an absolute answer as to whether UAS can safely fly in the 
national airspace. Such vagueness also prevents industry from 
developing systems to address this problem since there are no clear 
design and test criteria.
    However, as stated in the previous answer, significant development 
in SAA systems has taken place via the DOD, and now this technology is 
ready for imminent deployment. One caveat is that this SAA progress is 
primarily for larger UAS and budgets like those of military and 
government agencies. For such systems to be widely deployed in 
commercial settings, costs will need to be significantly reduced, as 
well as size, weight and power (often called SWAP) considerations. This 
is yet one more reason that the national airspace needs to be opened to 
UASs, as this will help develop the market that will spur SWAP 
innovation and drive down costs.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                           Dr. Mary Cummings
    Question. As you know, the expanded use of UAS has numerous 
potential benefits, however, it has also raised serious privacy 
concerns, both in the U.S. and in other countries. Dr. Cummings 
mentioned Australia--where these unmanned systems are going to start 
delivering textbooks later this year. How have these other areas dealt 
with the privacy concerns associated with these types of expanded use, 
are they on the right track, and what lessons can we learn?
    Answer. Australia is an interesting case study since its air 
traffic structure and rules closely mirror that of the U.S. for both 
manned and unmanned aircraft. However, while there has been some debate 
about UAVs and privacy in Australia, the public outcry has not been as 
extreme as in the U.S. in terms of privacy and drones.
    One possible reason for this different cultural perspective is the 
fact that the Australian government has a dedicated Office of Privacy 
with its own commissioner inside the Office of the Australian 
Information Commissioner (OAIC). This also includes an external privacy 
advisory committee to provide additional oversight. In contrast, there 
is no such office or committee in the U.S. government. Moreover, the 
FAA has been dubiously tasked with safeguarding privacy in terms of 
drones, a mission it is ill equipped to take on, particularly in the 
present resource-constrained environment.
    Even with this centralized focal point for Federal privacy 
protection (which also exists in Canada and to a lesser degree in UK in 
the Joint Committee on Privacy and Injunctions), the Australian Privacy 
Commissioner has said that the Australian Federal Privacy Act does not 
apply to the activities of individuals, so he has encouraged state and 
territory legislative bodies to update their privacy and surveillance 
laws to address this gap.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                           to Henio Arcangeli
    Question. Some people in the unmanned aviation industry have warned 
us that the United States is falling behind other countries that are 
moving faster to allow UAS to operate in their airspace. Are we moving 
so slowly on this issue that drone innovation may happen in other parts 
of the world?
    Answer. From Yamaha's experience, UAS innovation is already 
happening in other parts of the world with accelerating momentum. As an 
example, Yamaha's remotely-operated RMAX was originally designed over 
20 years ago primarily for precision agricultural spraying in Japan. It 
is now used for similar purposes in Australia and South Korea. However, 
in the past decade, Yamaha has developed autonomous models of the RMAX, 
which have been programmed to provide other vital UAS services, 
including radiation monitoring at the Fukushima nuclear power plant, 
the placement of measuring and monitoring devices in active volcanoes, 
and geographical surveys.
    There are vast potential applications for both remotely-piloted and 
autonomous RMAX units--from first-response assistance in natural and 
man-made disasters, to inspecting pipelines and infrastructure, to 
geographical and topographical surveying. Many of these uses of the 
RMAX can be much safer, more economical, and more effective than manned 
aerial operations. As Yamaha responds to growing market demand for 
appropriate uses of these products in other countries, we will continue 
to improve and develop both versions of the RMAX and possibly introduce 
new UAS model lines.
    As I noted during the hearing, Yamaha seeks expedited approval to 
use remotely-piloted RMAX for agricultural purposes in the United 
States, where we are receiving increasing demands from farmers and 
other land managers. Over time, we believe autonomous RMAX units could 
also provide a host of important functions in this country.
    Yamaha has numerous manufacturing and business facilities in the 
United States, where most of our recreational products are designed, 
tested, built, and distributed. Together, these operations employ over 
2,800 people. Having access to the United States market for the RMAX 
would be a strong and necessary impetus for us to consider establishing 
similar design, testing, and manufacturing facilities for the vehicles 
here, with all of the associated jobs and economic development. This 
could help put the United States on the leading edge of further RMAX 
and related UAS innovation. But as long as the national airspace 
remains closed to the RMAX and other UAS for commercial use, the United 
States will continue to fall further behind other countries in this 
important area.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                            Henio Arcangeli
    Question. As you know, the expanded use of UAS has numerous 
potential benefits, however, it has also raised serious privacy 
concerns, both in the U.S. and in other countries. Dr. Cummings 
mentioned Australia--where these unmanned systems are going to start 
delivering textbooks later this year. How have these other areas dealt 
with the privacy concerns associated with these types of expanded use, 
are they on the right track, and what lessons can we learn?
    Answer. From Yamaha's perspective, Australia and other countries 
that have allowed RMAX use have taken an appropriate and sensible 
approach to UAS privacy concerns.

  <bullet> First, as a policy matter, Australia's Civil Aviation Safety 
        Authority (CASA) has developed operating restrictions for the 
        RMAX, in conjunction with Yamaha, which preclude use of the 
        vehicle for any purpose that would infringe on the privacy 
        rights of third parties.

  <bullet> Second, these same policies require Yamaha to maintain 
        records of, and regularly report on, RMAX usage so that CASA 
        can effectively monitor for compliance with this privacy policy 
        and other restrictions.

  <bullet> And third, CASA and other regulatory authorities have 
        exercised common sense in evaluating privacy and other 
        potential UAS risks, recognizing that certain uses of the RMAX 
        mitigate any privacy concerns--for example, operation of the 
        vehicle for agricultural purposes over farms and other 
        uninhabited land, and away from residential and commercial 
        areas.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                      to Christopher R. Calabrese
    Question. I think consumers are only somewhat aware that they are 
being tracked--but maybe not the degree or magnitude of this tracking 
effort. What is striking to me is the variety of methods and 
technologies being used--such as through mobile devices, GPS, social 
media, online shopping, and street cameras--to collect vast and 
detailed amounts of information about all of us. And now, in the not 
too distant future, drones will provide one more tool to track us and 
become one more potential threat to privacy.
    For the past three Congresses, I have introduced the Do-Not-Track 
Online Act that allows consumers with the simple click of the mouse, to 
prevent online companies from tracking them on the Internet. I think a 
similar concept can apply to drones. Do you agree that consumers should 
have the right not to be tracked, including by drones?
    Answer. The ACLU has long supported legislation to allow consumers 
a simple, built-in technological fix that allows them to opt out of 
online tracking. We agree that a straightforward mechanism to avoid 
tracking offline would also be welcome. Of course, such a mechanism 
would have to be consistent with First Amendment protections for 
factors such as artistic expression, aerial photography, and press 
freedoms.
    Drone technology is still new enough that it is difficult to state 
unequivocally what such a technological fix might look like. One option 
that might help address the issue would be automatic and irreversible 
blurring of faces, license plates and other personal information 
whenever a drone captures images or when a drone captures images in a 
particular area. Imposing limits on the use of the image might also 
address aspects of the problem. For example, drone operators might be 
required to offer an opt-out from using technologies like face 
recognition to identify an individual.
    Ultimately, however, it may not be practical or desirable to 
condition the right to not be tracked on any kind of individual opt-out 
akin to an online DNT flag. The solution instead may need to rest on an 
overarching legal regime that respects individual privacy as well as 
First Amendment rights, requires a warrant for government tracking, and 
ensures that systematic mass tracking does not take place.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                        Christopher R. Calabrese
    Question 1. As you know, the expanded use of UAS has numerous 
potential benefits, however, it has also raised serious privacy 
concerns, both in the U.S. and in other countries. Dr. Cummings 
mentioned Australia--where these unmanned systems are going to start 
delivering textbooks later this year. How have these other areas dealt 
with the privacy concerns associated with these types of expanded use, 
are they on the right track, and what lessons can we learn?
    Answer. Countries across the globe, particularly Australia, Canada 
and European Union member nations, have long maintained strong 
overarching privacy-protective legal regimes, and for the past few 
decades have been working to ensure these protections apply to data 
privacy. Within this legal framework, privacy rights are often 
explicitly recognized in law as a human right, and there are strong, 
independent institutions such as privacy commissioners charged with 
defending those rights. While we are not aware of any specific 
regulations relating to drones, their use often falls within this 
framework.
    For example, in Australia, the Privacy Act of 1988 regulates how 
government agencies and ministers' offices collect, store, use and 
disclose any personal information about individuals, ensuring they 
comply with 11 Information Privacy Principles (IPPs). These principles 
include important protections such as assuring that information is only 
collected if it is necessary for the agency's work and putting tight 
limits on the sharing of any personal information. The IPPs also allow 
individuals to request access to their personal information and that it 
be amended or deleted. Australia is in the process of determining how 
these protections will apply to commercial drone use.
    Because the U.S. lacks such an overarching legal regime the privacy 
implications of drones in this country are different than in other 
countries. This is one of the reasons it is vital that Congress take 
steps to regulate the use of drones.

    Question 2. I noted ACLU's concerns and recommendations regarding 
privacy in your testimony. In addition to the privacy considerations 
that the FAA incorporated into the test sites, the FAA and other 
Federal agencies have recognized the need to address privacy and civil 
liberty protections in the UAS Comprehensive Plan. What specific 
privacy policy questions should be key considerations, and what 
recommendations do you have for how the site applications could best 
inform the broader discussion?
    Answer. For a detailed examination of the key privacy issues the 
FAA should consider as part of any test site process, please see page 
17 of my written testimony. Areas that must be addressed include 
transparency, individual participation, purpose and use limitations, 
data quality and integrity, security, accountability and auditing.

    Question 3. What are ACLU's top two recommendations regarding drone 
regulation to improve privacy while safeguarding free speech?
    Answer. Given the speed at which drone technology is advancing, the 
ACLU cannot provide two top recommendations at this time. It's likely 
that as the technology evolves the privacy threats will as well. 
However, one area that the Committee can immediately pursue is a 
limitation on government access to privately collected information from 
drones.
    As I said in my written testimony:

        History has demonstrated that information held by the private 
        sector frequently ends up in the hands of government, often in 
        ways that policy makers didn't anticipate and legal protections 
        don't address. For example, while the Privacy Act of 1974 is 
        aimed at regulating and safeguarding personal information held 
        by the Federal Government, Federal agencies now circumvent 
        those protections by turning to private data brokers, whose 
        database contains personal information on millions of 
        Americans. Those entities are not regulated by the Privacy Act 
        and routinely provide information that is both inaccurate and 
        inaccessible to its subjects. Given the real and pressing 
        problems we have already described with government drone use, 
        law enforcement must not be able to avoid legal controls by 
        accessing private drone footage.

    Such a protection does not implicate the First Amendment.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                        Christopher R. Calabrese
    Question. Are you aware of any discussions regarding domestic use 
of unmanned aircraft systems to enforce domestic environmental law? If 
so, could you please elaborate on those discussions? In your opinion, 
would that be the equivalent of the Federal Government spying on 
American farmers?
    Answer. The ACLU is unaware of any use of drone technology for 
investigations of environmental law. It is difficult to analyze the 
impact on privacy of such surveillance without concrete facts. Factors 
that should be considered in such an analysis include whether personal 
information about an individual was collected, stored and used, what 
legal predicate and process formed the basis for the surveillance, and 
whether any collected information was shared in a way that exceeded 
legal authorization.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
